<html>
<title> - NONPROLIFERATION PROGRAMS OF THE DEPARTMENT OF STATE</title>
<body><pre>[Senate Hearing 108-52]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-52

          NONPROLIFERATION PROGRAMS OF THE DEPARTMENT OF STATE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



87-824              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
Curtis, Hon. Charles B., president and chief operating officer, 
  Nuclear Threat Initiative, Washington, DC......................    56
    Prepared statement...........................................    60
Gottemoeller, Hon. Rose E., senior associate, Carnegie Endowment 
  for International Peace, Washington, DC........................    49
    Prepared statement...........................................    51
``Search and Destroy, The Mission to Find Unsecured Weapons of 
  Mass Destruction Before Terrorists Do,'' an articled from 
  Reader's Digest, April 2003, submitted for the record by 
  Senator Richard G. Lugar.......................................    87
Smithson, Amy E., Ph.D., senior associate, The Henry L. Stimson 
  Center, Director, Chemical and Biological Weapons 
  Nonproliferation Project, Washington, DC.......................    63
    Prepared statement...........................................    66
Stratford, Mr. Richard J.K., Director, Nuclear Energy Affairs, 
  Bureau of Nonproliferation, Department of State, prepared 
  statement......................................................    32
    Responses to additional questions for the record from Senator 
      Biden......................................................   101
Wolf, Hon. John S., Assistant Secretary of State for 
  Nonproliferation; accompanied by: Richard J.K. Stratford, 
  Director, Nuclear Energy Affairs, Bureau of Nonproliferation, 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     9
    Inter-agency Cleared Questions and Answers on the Waste 
      Convention, March 19, 2003.................................    16
    Responses to additional questions for the record from Senator 
      Biden......................................................    93
    Responses to additional questions for the record from Senator 
      Feingold...................................................   104

                                 (iii)

  

 
          NONPROLIFERATION PROGRAMS OF THE DEPARTMENT OF STATE

                              ----------                              


                       WEDNESDAY, MARCH 19, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Sarbanes, Feingold, and Bill 
Nelson.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today, the committee meets to 
receive testimony on nonproliferation programs in the fiscal 
year 2004 budget request of the Department of State.
    The United States is engaged in a global war against 
terrorism. The war proceeds in a world awash with nuclear, 
chemical, and biological weapons and materials of mass 
destruction. Throughout much of the past decade, vulnerability 
to the use of weapons of mass destruction has been a No. 1 
national security dilemma confronting the United States. We are 
poised to use massive military force in Iraq in response to the 
threat of weapons of mass destruction.
    Terrorist organizations have demonstrated suicidal 
tendencies and are beyond deterrence, and we must anticipate 
they will use weapons of mass destruction if allowed the 
opportunity. The minimum standard for victory in this war is 
the prevention of any of the individual terrorists or terrorist 
cells from obtaining weapons or materials of mass destruction.
    In September 2002, President Bush stated that, ``Our 
enemies have openly declared that they are seeking weapons of 
mass destruction, and evidence indicates that they are doing so 
with determination,'' from the President. Less than 1 month 
later, the administration released its national strategy to 
combat weapons of mass destruction, which declares that 
strengthening nonproliferation programs is vital to our 
national security.
    For more than 11 years, the United States has been engaged 
in efforts through the Nunn-Lugar Cooperative Threat Reduction 
Program to address proliferation at its most likely source, the 
former Soviet Union. Through these efforts, more than 6,000 
warheads have been deactivated, numerous storage locations have 
been secured, and tens of thousands of former weapons 
scientists have been employed in peaceful endeavors.
    We have come further than many thought we could, but much 
more needs to be done, and it needs to be done quickly. When 
the Nunn-Lugar program was conceived, the terrorist threat was 
real, but it appeared distant. Now we live in an era when 
catastrophic terrorism is our foremost security concern. We 
must not only accelerate weapons dismantlement efforts in 
Russia, we must broaden our capability to address proliferation 
risks in other countries and attempt to build a global 
coalition against the proliferation of weapons of mass 
destruction.
    Last year, I introduced legislation to facilitate the use 
of the Nunn-Lugar program outside the former Soviet Union. The 
restrictions that limit cooperative threat reduction to the 
former Soviet Union are an unacceptable hindrance to our 
national security. The President must have the ability to 
respond to threats posed by weapons of mass destruction 
anywhere in the world.
    For fiscal year 2004, the Department has requested $385.2 
million for the Nonproliferation, Antiterrorism, De-mining, and 
Related Programs account. This is a slight increase over fiscal 
year 2003. I am hopeful that funding for this critical account 
can be enhanced.
    Within the NADR account, the Nonproliferation and 
Disarmament Fund, NDF, has made tremendous contributions to 
United States national security. Just last year, NDF managed 
the removal of more than a hundred pounds of highly enriched 
uranium from the Vinca research reactor in Belgrade. The 
program has destroyed 24 SS-23 missiles, 47 SCUD missiles, and 
50 FROG, or intermediate-range, rocket systems. And the 
administration has requested $35 million for the program in 
fiscal year 2004, up from $14 million in fiscal year 2003. This 
increase reflects the need for funds in a new NDF program, the 
Dangerous Materials Initiative. This program will focus on 
identifying, securing, and removing dangerous materials from 
locations worldwide, and this proposal has been dubbed a pilot 
effort, and, if successful, should be made permanent.
    Another important program in the NADR account is the 
International Science and Technology Centers. Tens of thousands 
of Russian weapons scientists have been employed by the United 
States in peaceful pursuits under this program. And if Russian 
weapons experts are placed in a position of economic 
desperation, they are more likely to sell their services 
elsewhere. I have encouraged U.S. corporations to explore the 
possibility of investing in Russian laboratories. This would 
complement our work to provide Russian weapons scientists with 
long-term employment options. I look forward to working with 
the Department to improve these important initiatives.
    Last, I am hopeful that the committee will soon receive the 
State Department's views on the Nuclear and Radiological Threat 
Reduction Act of 2002. This bill, offered by Senators Biden, 
Domenici, and myself, provides a strategy for addressing so-
called dirty bombs. A CIA assessment released last January 
called the use of radiological materials ``a highly credible 
threat.'' We want to join with the Department to provide 
legislative authority that will assist in preventing the 
terrorist use of radiological weapons.
    In sum, we have an opportunity to reduce the threat of 
former Soviet weapons of mass destruction left over from the 
cold war, and I applaud the efforts underway at the Department 
of State to create new tools to address the threats posed by 
weapons of mass destruction. Likewise, efforts by Secretary 
Abraham and his team at the Department of Energy to expedite 
and intensify programs to safeguard nuclear weapons and 
materials are succeeding. Despite bureaucratic obstacles, time 
lines measuring the provision of equipment and expertise to 
protect the materials at Russian storage facilities, these have 
been accelerated by a full 2 years over previous plans, and 
this demonstrates a tremendous progress in just the last 6 
months. Historically, no great power has ever possessed such an 
opportunity to work with a former adversary in removing the 
threat that confronts both of them. Statesmanship and patience 
will be required over many years.
    We appreciate, especially, the witnesses who have come 
before us today. They possess extraordinary expertise about the 
proliferation threats that we face and the steps we can take to 
protect our Nation.
    The committee will hear from two panels. First of all, we 
will have before us John Wolf, Assistant Secretary of State for 
Nonproliferation, and he will present the administration's 
budget request for these key programs. Then, on the second 
panel, we will have three witnesses, the Honorable Charles S. 
Curtis, president and CEO of the Nuclear Threat Initiative and 
a former Deputy Secretary of Energy; Rose Gottemoeller, senior 
associate at the Carnegie Endowment for International Peace and 
a former Deputy Under Secretary of Energy for Nuclear 
Nonproliferation; and Amy Smithson, a senior associate of the 
Stimson Center. We welcome all of you.
    And before I ask Secretary Wolf to testify, I will ask 
unanimous consent and grant it that Senator Biden's statement 
be made a part of the record at this point.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, let me begin by thanking you for holding today's 
hearing. The proliferation of nuclear, chemical and biological weapons, 
and the means to deliver them, is at the heart of the worst threats to 
United States security today.
    It may be the threat of Iraqi nerve gas that keeps you up at night, 
or North Korean nuclear weapons, or terrorists making ricin and cyanide 
in the basement.
    But the basic threat--and it's a real threat--is the same: weapons 
of mass destruction in the hands of people who are crazy enough to use 
them. We can debate over how to combat that threat, but there is no 
doubting the gravity of that threat today.
    The first line of defense against proliferation is to keep people 
from getting the materials and technology for weapons of mass 
destruction in the first place.

  <bullet> That's what the Nunn-Lugar program in the Department of 
        Defense will do by building a plant to destroy 1.9 million 
        Russian munitions filled with chemical weapons.

  <bullet> That's what the Materials Protection, Control and Accounting 
        program in the Department of Energy does by improving security 
        for Russia's plutonium and highly enriched uranium.

  <bullet> And that's what the State Department's International Science 
        and Technology Centers, its Bio-Redirect Program, a related 
        Energy Department program, and the Cooperative Research and 
        Development Foundation all do by funding Russian projects that 
        employ weapons scientists in work that could lead to productive 
        civilian careers.

    These programs aren't cheap; we spend over a billion dollars a year 
on them.
    But that's a drop in the bucket compared to the cost of enduring 
chemical, biological, nuclear or radiological attacks on our homeland 
or on our forces overseas.
    One big question is whether a drop in the bucket is enough. The 
administration is gradually increasing our non-proliferation efforts, 
having gotten religion after threatening for a year to cut those 
programs. But most of the increase is going into a couple of big-ticket 
items like chemical weapons destruction and plutonium disposition.
    Meanwhile, our other programs just jog along. That's fine in a 
marathon. But it won't do, if a herd of bulls is chasing you. I wish 
the administration would view our non-proliferation programs with as 
much urgency as it does Saddam Hussein.

  <bullet> If we don't bottle up Russia's dangerous materials and 
        technology,

  <bullet> if we don't retrieve the highly enriched uranium in research 
        reactors around the world,

  <bullet> if we don't find and secure the countless ``orphaned'' 
        radiological sources around the world, and

  <bullet> if we don't convince proliferators from Russia and China to 
        North Korea, Pakistan and Iran to obey world-wide norms on non-
        proliferation,then there will be many more Saddam Husseins to 
        contend with in the months and years to come.

    Today's hearing is an opportunity to hear from the Honorable John 
Wolf, Assistant Secretary of State for Non-Proliferation, on what's 
working in non-proliferation, what's not working, and why we're not 
doing more.
    It's also an opportunity for our three distinguished outside 
experts to address those same questions and to give their 
recommendations on where and how to increase our efforts so as to stem 
the tide of proliferation.
    As we consider our non-proliferation programs, however, we all know 
that they function in the context of our non-proliferation policies. In 
my view, those policies have been slow in coming and deficient in 
statesmanship.
    I'm not speaking about Iraq here. While I have criticized the 
President for not doing a better job of gaining international support 
for disarming Saddam Hussein, I also understand how difficult it is for 
any American leader to deal with the deep cynicism that prevails in 
much of the world.
    All Americans hope that the President and our men and women in 
uniform will succeed, and that any war will be swift, decisive, and 
liberating for the Iraqi people.
    But I am speaking, in part, about North Korea. In 2001, the 
administration inherited a policy under which North Korea had ended its 
plutonium production and was negotiating to put an end to its long-
range ballistic missile programs.
    Today, after two years of indecision between a policy of engagement 
and one of increased pressure, the issue of North Korea's illegal 
uranium enrichment program has led to an extremely dangerous situation.
    North Korea has resumed its previously-suspended nuclear 
activities, while saying that only direct negotiations with the United 
States can remedy this. It could, at any moment, begin to reprocess the 
spent nuclear fuel that was safeguarded under the Agreed Framework.
    If it does that, it could have enough material for another half 
dozen bombs within months--

  <bullet> enough that it could test a nuclear weapon;

  <bullet> enough that it could make the use of nuclear weapons part of 
        its military doctrine, which it could not safely do with only 1 
        or 2 untested weapons; and

  <bullet> worst of all, perhaps enough that it would decide to sell a 
        weapon or two, or some of its plutonium.

    Meanwhile, the administration waits for the war in Iraq to begin 
and end. It also waits for our allies--all of whom want us to begin 
talking with North Korea--to instead pressure North Korea to accept 
negotiations within a multilateral framework, where they could join us 
in pressuring it to give up its weapons programs.
    I hope the administration succeeds. I urge North Korea to accept a 
multilateral forum for talks with the United States, I think a deal is 
possible that would satisfy both parties.
    But I worry that the administration's years of putting North Korea 
on the back burner--and its current insistence that other countries 
must pressure North Korea before we will sit down to talk--leave us 
little margin in which to avoid the twin risks of a military conflict 
in Korea or a future nuclear catastrophe.
    I hope that other countries, like Iran and Libya, will not draw the 
lesson that Iraq's only mistake in dealing with us was its failure to 
develop nuclear weapons quickly.
    I worry that they, and other countries as well, may develop full 
fuel cycles, under old-style IAEA safeguards, as a means to get within 
months of having a nuclear weapon before renouncing the Nuclear Non-
Proliferation Treaty as North Korea has done.
    Most of all, I hope that we will see someday a real non-
proliferation strategy, one that accepts the urgency of the situation 
and orchestrates our policies and capabilities in a realistic manner.

  <bullet> Opposing proliferation is not enough, even though we all do 
        that.

  <bullet> Increasing our non-proliferation programs will not be 
        enough, even though I think it is essential to do that.

    And neither is it enough to build a missile defense or threaten 
retaliation, when a terrorist nuclear device is more likely to show up 
in an anonymous ship or a U-Haul.
    There are no easy answers here. But surely we should recognize that 
effective non-proliferation depends vitally upon cooperation among a 
large range of countries.
    Surely we should understand that if the United States offends its 
allies and others with a ``go it alone'' approach in one sphere, that 
only makes it more difficult to gain the cooperation we need to stem 
the flow of dangerous equipment and technology world-wide.
    If Assistant Secretary Wolf has difficulty getting other countries 
to work with us, he may be paying the price for actions he had nothing 
to do with, on issues ranging from global warming to the Biological 
Weapons Convention.
    We meet at a time when the future is far from clear. One thing that 
is clear, however, is that non-proliferation will remain a vital issue 
for the United States and the world. I welcome the opportunity that 
this hearing gives us to address that issue, and I thank you again, Mr. 
Chairman, for putting together this important hearing.

    The Chairman. And we welcome the fact that Senator Biden is 
participating. We wish him continued strength. And he is 
recovering rapidly, and will be vigorously before panels before 
very long.
    Let me now call upon you, Assistant Secretary Wolf, for 
your testimony. If you have a statement, it will be made a part 
of the record in full, and please proceed as you wish.

 STATEMENT OF HON. JOHN S. WOLF, ASSISTANT SECRETARY OF STATE 
 FOR NONPROLIFERATION; ACCOMPANIED BY: RICHARD J.K. STRATFORD, 
 DIRECTOR, NUCLEAR ENERGY AFFAIRS, BUREAU OF NONPROLIFERATION, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Wolf. Thank you very much. When you talk about 
expertise, of course, I defer to you, sir for the remarkable 
contribution you have made over more than a dozen years, both 
in terms of the concepts that you have put forward and in terms 
of the momentum that you have helped to give to us in the 
administration.
    The Chairman. I would include my partner, Sam Nunn, in 
whatever accolades----
    Mr. Wolf. And I would also include Senator Biden, as well.
    The Chairman. Yes, indeed. Thank you.
    Mr. Wolf. Mr. Chairman, thank you for including my full 
statement in the written record. I would like to make a few 
oral comments.
    Thank you for inviting me to present our plans to combat 
proliferation. The situation, though, is not good; and, in 
fact, it is getting worse. So I am here today to tell you about 
some of the problems, as we see them, and to describe what we 
are doing about the spread of weapons of mass destruction, 
missiles, and advanced conventional weapons, and also, of 
course, to hear your thoughts and those of the committee.
    Guarding against the dangers of the proliferation problem 
lies at the core of every government's most basic obligation, 
to protect the security of its citizens. Today, more countries 
than ever and more terrorists than ever have access or are 
seeking access to weapons of mass destruction. South Asia has 
crossed the nuclear threshold. Rogue regimes like North Korea, 
Iran, Iraq, and Libya seek to replicate that ambition. With 
globalization, there are more potential sources of sensitive 
material and technologies, and countries that used to be buyers 
of weapons materials and technology are now supplying such 
materials to others. Real countries with real names and real 
problems pose real security threats for us, for our allies, and 
for our friends. My written statement covers several of the 
countries mentioned, but I know the committee may have 
questions on any of these or others.
    Mr. Chairman, the reason why countries seek weapons of mass 
destruction capabilities, so-called WMD weapons, are, I 
suppose, many. Some feel it is their right. Others feel this 
will give them a qualitative edge against larger or better-
armed neighbors. Doubtless, some believe that this makes them 
invulnerable against the United States and others who share our 
belief in democracy, open markets, religious tolerance, and 
ethnic pluralism. Whatever the reason, we want to convince them 
otherwise. If we cannot convince them by diplomacy, then we are 
committed to working with our allies and our friends to do what 
is necessary to protect our citizens from the threats they 
pose.
    And here is some of what we are doing. First of all, we are 
focusing on the still sizable residual dangerous material 
stocks from the massive weapons programs of the former Soviet 
Union. Twelve years ago, this committee launched several 
initiatives, including the Cooperative Threat Reduction 
programs which you and Senator Nunn cosponsored. Congress also 
enacted the Freedom Support Act and stronger nonproliferation 
authorities under the Foreign Assistance Act. The Departments 
of Defense, Energy, and State, among others, have locked down 
many threats, as you mentioned, Mr. Chairman, that arose from 
the arsenal from the former Soviet Union. This administration 
has accelerated funding for a number of projects, but there 
remains much more still to do, and we must continue boldly on 
this path.
    We are spending nearly a billion dollars a year to improve 
security at Russian storage facilities, to consolidate stored 
fissile materials, to stop new production, and to purchase or 
blend down former nuclear weapons material to reduce supply. My 
State Department team provides the diplomatic lead for several 
threat reduction programs of the Department of Defense and 
Energy.
    Just last week, Energy Secretary Abraham signed the 
Plutonium Production Reactor Agreement, which will lead to the 
permanent closure of Russia's three plutonium production 
facilities. The State Department itself runs the International 
Science Centers in Russia and Ukraine. They employ former 
Soviet weapons scientists in peaceful commercial projects to 
reduce the temptation for those scientists to hire themselves 
out to proliferators. Russian scientists in one project with 
the U.S. Public Health Service have identified two antiviral 
compounds potentially effective against smallpox. A Defense 
project on pathogen security is making important research 
advances on alternatives to blocking smallpox. And we are using 
$30 million that the Congress gave us in last June's Defense 
supplemental to convert biological weapons factories. American 
firms can play a role, and we are pleased at the interest that, 
for instance, Eli Lilly, from your State, sir, has shown in 
producing medicines at one of these facilities.
    Beyond Russia and the states of the former Soviet Union, 
the State Department runs the Nonproliferation and Disarmament 
Fund, NDF. It tackles, as you mentioned, some of the tough, 
urgent problems such as the removal of highly enriched uranium 
from Vinca, near Belgrade, to safe storage in Russia, and the 
destruction of missiles in Bulgaria. This is a photograph \1\ 
of electronic and guidance components from an SA-23 missile 
that was destroyed in Bulgaria. That is the end result we want 
for a variety of weapons systems.
---------------------------------------------------------------------------
    \1\ The photographs and chart referred to during Assistant 
Secretary Wolf's testimony can be found on pages 29-31.
---------------------------------------------------------------------------
    NDF has created ``tracker,'' a computer system that enables 
nine countries and 66 ministries to inventory and account for 
weapons-sensitive exports. We are asking substantial increases 
for NDF to build on NDF's strong record of accomplishment, 
possibly including speeding up the removal of highly enriched 
uranium from Soviet-supplied research reactors. There are a 
number outside of Russia and the former Soviet Union, Soviet-
supplied research reactors, and we need to accelerate progress. 
We are working with the Department of Energy on that.
    NDF also will help underwrite our new worldwide Dangerous 
Materials Initiative. We seek projects that have the highest, 
most effective impact in controlling the production, storage, 
transit, and custody of materials that can be used for weapons 
of mass destruction. Here we have an example of radiation 
detection equipment installed at the Turkish/Armenian border. 
It looks simple, but it is effective, and we are doing that all 
across Central Asia and parts of Europe.
    Allow me to cite briefly two other areas where my Bureau 
spends the money appropriated to it by Congress. One is the 
Export Control and Border Security Program. We are running 
programs in 35 countries. As this chart illustrates, we have 
broadened out from Central Asia to include new programs in 
Eastern Europe, the Baltics, South Asia, and Southeast Asia. 
These programs are important, and they help our partners to 
control the flow of dangerous technologies in the most 
dangerous parts of the world. My written statement goes on at 
some length about the work that we are doing on export controls 
in a variety of places, whether the Baltics, the Mediterranean, 
South Asia, or Southeast Asia.
    The other area is our partnership with the International 
Atomic Energy Agency, the IAEA. Its safeguard programs aim to 
ensure that civilian nuclear facilities remain exactly that, 
civilian. And to enable the IAEA to ferret out covert weapons 
efforts, we are prepared to back tough safeguards with 
increased funding. But let me be frank. We are looking for 
tough, non-nonsense performance by the IAEA. If it is to have 
credibility as a guardian of the NPT regime, the IAEA will have 
to be more hard-edged in reporting violations. And the 
international community, all of us, will also need to be much 
more focused in fashioning political responses early to the 
challenges that we face.
    Mr. Chairman, the State Department projects that I have 
just described are only part of what we are trying to do to 
keep bad stuff out of the hands of the wrong people. We are 
working with our partners around the globe, because 
proliferation is an international problem. First, the bedrock 
of countering the nuclear threat remains adherence to the 
Nuclear Nonproliferation Treaty. As I said earlier, the news 
has been grim from a nonproliferation point of view in South 
Asia, Iran, Iraq, North Korea, and a variety of other 
countries. The latter are inside the NPT. The South Asians were 
never under the NPT. But most of the 188 countries inside the 
NPT have made irrevocable decisions to forego the nuclear 
option. South Africa, Brazil, and Argentina actually turned 
back from nuclear weapons capabilities. Ukraine, Kazakhstan, 
and Belarus have abandoned the nuclear weapons they inherited 
at the fall of the Soviet Union, and they will stick firmly by 
the treaty, and the IAEA safeguards programs necessary to give 
confidence to it.
    I would like to talk for a moment about South Asia. There 
are two very different countries with which we are pursuing 
boldly different relationships. Each poses special 
opportunities, and each poses special challenges. We need to 
take account of the unique situation posed by their possession 
of nuclear weapons.
    From my perspective, ongoing tensions in South Asia make 
especially important those countries' controls on sensitive 
technologies. We are also mindful of the risk that nuclear 
weapons could be used either intentionally or accidentally in a 
crisis. We discuss these issues regularly with officials from 
both countries, and I convey our concerns and I have helped 
propose possible solutions whenever I meet with my Indian and 
Pakistani counterparts. In all of our actions in South Asia, we 
continually weigh our mutual interests in cooperation against 
our obligations under the Nuclear Nonproliferation Treaty, the 
Atomic Energy Act, and our membership in the Nuclear Suppliers 
Group.
    Others at the State Department shepherd U.S. participation 
under the Chemical Weapons Convention and the Biological 
Weapons Convention, but my bureau leads active efforts in other 
multilateral nonproliferation regimes that address weapons of 
mass destruction--the Australia Group, the Zangger Group, 
Nuclear Suppliers Group, Missile Technology Control Regime, and 
Wassenaar for conventional weapons. Each of these regimes has 
30 to 40 members. We are working to make them more effective at 
stopping states and terrorist groups, international terrorist 
groups, seeking WMD weapons and technologies.
    Stronger regimes would be a plus, but it is not enough, in 
part, because the regimes are mostly voluntary and they are not 
legally binding. Frankly, too many states are engaging in 
rhetorical hand-wringing, but too few are willing to match 
their words with action. To protect their security interests, 
and ours, others need to exercise greater scrutiny over their 
exports, and they need to use their diplomacy more actively to 
dissuade proliferators.
    We have other tools to fight proliferation. One is 
interdiction. It is not a panacea; but, where properly planned 
and executed, it can help to stop proliferating countries or 
terrorists from getting new weapons, or at least can slow them 
down.
    A second tool is sanctions. These are useful in deterring 
proliferation, but they rest on a crazy quilt of overlapping 
authorities that we would like to work with you to consolidate 
and rationalize.
    A third tool is the positive measures, such as the 
commitment of G-8 leaders last summer at Kananaskis. Leaders 
pledged to promote nonproliferation projects around the world, 
starting with Russia, to advance safety at nuclear facilities 
and to cutoff terrorist access to WMD materials.
    Our nonproliferation efforts, Mr. Chairman, are a web of 
laws, projects, policies, and practices. They must reinforce 
each other. We must be quick to act when necessary.
    Sir, I am gratified that you asked how the Congress can 
strengthen what we are doing, and I have a couple of 
suggestions. Obviously, I ask your support and the Congress' 
support for the stepped-up funding for our programs in fiscal 
year 2004. These requests address the ominous threat of 
terrorist access to weapons of mass destruction. I would urge 
your committee, as well, to support the President's proposal to 
broaden Cooperative Threat Reduction spending authorities 
beyond the former Soviet Union by allowing the President to use 
those resources however and wherever he best can. And finally, 
I would hope that the Congress would support the President's 
request for permanent authority to waive the requirements for 
CTR certification, for permanent authority on construction of 
the Shchuch'ye chemical weapons destruction plant.
    Mr. Chairman, we are all partners in nonproliferation. My 
Bureau is in action on a variety of fronts. I would be happy to 
describe that action in whatever additional detail would be 
helpful to you and your committee.
    Thank you very much.
    [The prepared statement of Mr. Wolf follows:]

Prepared Statement of Hon. John S. Wolf, Assistant Secretary of State, 
            Bureau of Nonproliferation, Department of State

    I am pleased to have the chance to talk with you today about our 
policies and initiatives on nonproliferation. I know we share a view 
that weapons of mass destruction in the possession of hostile states 
and terrorists are one of the greatest security challenges facing the 
United States. Over eleven years ago, this chairman of this committee 
showed extraordinary foresight in proposing the Nunn-Lugar authorities 
to address a problem that has broadened and become more serious.
    Since then, our nonproliferation policies and programs have come a 
long way. Executive agencies have forged powerful partnerships in many 
areas.
    The Cooperative Threat Reduction program has partnered the 
Departments of Defense, Energy and State on vital programs within the 
former Soviet Union. These include programs managed by my own Bureau of 
Nonproliferation (NP) in the Science Centers in Russia and Ukraine, and 
the Nonproliferation and Disarmament Fund (NDF) projects and export 
control assistance programs, which can operate worldwide. I will have a 
few more words to say about other areas of interagency cooperation 
later in my testimony.
    We face a world in change, and in the nonproliferation world, this 
change is not for the better. I'd like today first to offer some 
thoughts about the worldwide situation we face. Will then describe some 
of what we are doing about it.
    Our challenges have multiplied in many worrisome ways since the end 
of the Cold War. During the first 40 years following World War II, we 
and our allies depended largely on deterrence and tight export controls 
to limit the spread of dangerous weapons. Looking back, things seemed 
more manageable--perhaps because the Soviet threat superseded all 
others.
    Today, we face a substantially increased risk from countries and 
international terrorist groups with access to chemical and biological 
weapons, and at least several states with access to components and 
technology for making nuclear weapons.
    Nuclear issues have the most public visibility. The Nuclear 
Nonproliferation Treaty (NPT) remains the cornerstone of U.S. nuclear 
nonproliferation policies, and we can take some satisfaction that, of 
the 188 countries that are parties to the Nuclear Nonproliferation 
Treaty, most have made irrevocable decisions to forego the nuclear 
option. States like South Africa, Brazil and Argentina actually turned 
back. Ukraine, Kazakhstan and Belarus chose not to try to maintain the 
nuclear weapons that were left on their territories following the 
Soviet Union's collapse.
    However, we can no longer say we have held the line at five nuclear 
armed states. South Asia has crossed the nuclear threshold. So too 
apparently has North Korea. Iraq, Iran, and Libya are among the list of 
nuclear wannabees. These wannabees seek nuclear weapons capabilities 
even though they are all parties to the NPT.
    We are determined to do what it takes to push back their efforts. 
We need to get this right. Failure to arrest nuclear proliferation 
would profoundly affect U.S. and allied defense interests and policies.
    Curbing supply of dangerous technologies, including nuclear 
technology, is made more difficult by the ambivalent approach of many 
governments in Europe and Asia. While combating proliferation is, for 
us, a central, focusing national security issue, many others trade off 
concerns about the spread of WMD against economic and political 
interests. For us, though, we clearly see a threat--from real 
countries, with real names, and real capabilities, capabilities which 
pose real security problems for the U.S. and our allies and friends.
    Iraq is a unique threat; and one the President is determined to see 
ended. For twelve years, Saddam Hussein has reneged on his disarmament 
commitments and defied the international community by continuing to 
produce prohibited weapons of mass destruction and delivery systems. 
That defiance will now end. We are resolved to eliminate Iraq's ability 
to use WMD to threaten its neighbors, our friends and allies, and our 
interests. And we are determined not to wait until it is too late.
    Some ask why disarming Iraq is more urgent than resolving North 
Korea's nuclear threat. The facts are different, and so too should be 
our policies. While all options are on the table, we will be patient 
yet deliberate in working for de-nuclearization of the Korean 
Peninsula. We are working quite closely with our South Korean and 
Japanese allies, with Russia, China and with the EU to seek a peaceful, 
multilateral path to end the North's nuclear weapons program.
    Iran is another proliferation problem--both for its indigenous 
programs and for the risk of onward proliferation. Recent visits to 
Iran by the IAEA have made all too clear what we have been saying 
publicly and privately to counterparts in the EU, Russia, China, and 
other countries in Asia--Iran has a sizable, heretofore clandestine, 
effort to acquire capabilities that makes sense only as part of an 
effort to produce fissile material for weapons. It has done this while 
maintaining the pretense of adherence to its NPT safeguard obligations.
    As I will expand on in a moment, we count on IAEA to be forthright 
and forceful in identifying problems and safeguards violations, and we 
expect it to insist on immediate action by Iran to end its clandestine 
nuclear weapons programs. This is not just an IAEA problem; again the 
international community must act in concert. All nations that have not 
yet done so should sign the Additional Protocol. That would enhance 
global security through more rigorous safeguards.
    The situation in South Asia deserves special mention, as it is 
quite different from the dangers posed by the rogue states. India and 
Pakistan are two very different countries, with which we are pursuing 
boldly different relationships. Each poses special challenges. We need 
to take account of the unique situation posed by their possession of 
nuclear weapons. From the NP Bureau perspective, ongoing tensions in 
South Asia make especially important these countries' controls on 
sensitive technology. We are also mindful of the risks that nuclear 
weapons could be used, either intentionally or accidentally in a 
crisis. We discuss these issues regularly with officials from both 
countries: I convey our concerns and help identify possible solutions 
whenever I meet with my Indian and Pakistani counterparts. But with 
India, there are tough questions about how far we can go. We must 
continually weigh our mutual interests in cooperation against our 
obligations under the NPT, NSG, and the Atomic Energy Act.
    In the face of such challenges, what's missing in today's 
international debate is a sense of outrage; international standards of 
acceptable conduct--embodied in treaties like the NPT and other 
nonproliferation treaties--are being violated by countries and the 
world is reluctant to impose consequences. I have said to my 
colleagues, in Europe and India for instance, that what the rogue 
states are demonstrating is a deep seated antipathy for our systems 
based in law, religious tolerance, and respect for human rights and 
ethnic pluralism. Today their target may be the U.S., but one can well 
expect these states to strike out against all who share these values.
    Against this grim backdrop, there is a risk that complacency, 
inertia, and timidity are preventing the international community from 
blocking attempted violations, or from reacting decisively to them. 
Clearly, we cannot simply wring our hands and hope things will get 
better. We have an active agenda, in partnership with a wide range of 
other countries and international organizations, and unilaterally.
    I have set five goals f or the Nonproliferation Bureau. They are:

  <bullet> Curbing the supply of material, equipment, and technology 
        for WMD and missiles to proliferators or terrorists;

  <bullet> Persuading states seeking to acquire WMD and missiles to 
        cease those efforts;

  <bullet> Maintaining and strengthening the international system of 
        nonproliferation treaties and regimes;

  <bullet> Promoting international nuclear cooperation under the 
        highest nonproliferation and safety standards; and

  <bullet> Containing the transfer of advanced conventional arms to 
        states of concern, and to terrorists.

    We focus considerable attention on the need to stop leakage of WMD 
expertise, sensitive materials and technology from the states of the 
Former Soviet Union. Looking first at nuclear materials, it's axiomatic 
that one cannot build a nuclear weapon without fissile material. Thus a 
key part of our efforts relates to securing the hundreds of tons of 
such materials present mainly in Russia and other states of the FSU. 
The FY 2004 budget request currently before the Congress seeks about $1 
billion for our Global Partnership effort in the former Soviet Union to 
prevent the spread of weapons of mass destruction. This request 
includes $459 million for Department of Energy (DOE) programs to 
prevent proliferation of nuclear weapons, material and expertise, $451 
million for Department of Defense (DOD) Cooperative Threat Reduction 
programs, and $81 million for Department of State programs to prevent 
the spread of weapons of mass destruction and expertise.
    Our goals for nuclear nonproliferation within this effort are to:

  <bullet> Improve security at Russia storage facilities;

  <bullet> Consolidate stored fissile materials;

  <bullet> Stop new production; and

  <bullet> Purchase or down-blend former nuclear weapons materials to 
        reduce supply.

    My bureau provides the diplomatic lead for several of the 
nonproliferation and weapons reduction programs funded and implemented 
by the Departments of Defense and Energy. Just last week, for example, 
Secretary Abraham was able to sign the Plutonium Production Reactor 
Agreement thanks in part to such support from the State Department. 
Similarly, with Energy, we are leading the multilateral negotiations on 
an agreement to finance Russia's plutonium disposition program.
    We also oversee the U.S. Government's participation in the 
International Science Centers in Russia and Ukraine. These provide 
flexible platforms for engaging former Soviet WMD scientists and for 
redirecting them toward peaceful, commercial projects, and away from 
rogue states or terrorists. The centers also are used as partners when 
needed to support other U.S. nonproliferation programs. The Defense 
Department, for example, as a partner of the Moscow Center, contributed 
assistance for pathogen security projects when it was unable to 
negotiate an implementing agreement for such biological weapons 
nonproliferation research projects in Russia.
    The centers have had some notable successes. Russian scientists 
regularly tell us that the prospect of working with the Center provides 
them a genuine incentive to spurn offers from rogue states, and we 
continue to receive reliable reports that such offers are being made. 
Research done under the auspices of the Science Centers has produced 
tangible benefits for Russia--and for us. One project, for example, 
resulted in development of a high altitude laser which can detect leaks 
from gas pipelines and is now under commercial development. Another has 
identified new electronics applications for beryllium that allow a 
shift from weapons to commercial manufacturing.
    Recently, some of our biggest achievements have been in the bio-
medical sphere. In research jointly sponsored by State and the U.S. 
Public Health Service, Russian scientists have identified two anti-
viral compounds that hold promise of effectiveness against smallpox. If 
this effort bears fruit, we could have an important new tool in the 
event our nation is ever exposed to attack with a smallpox virus. 
Similarly, Russian researchers in the program are hard at work 
developing kits for rapid diagnosis of West Nile, Newcastle, and Avian 
flu. I am sure all members of this committee who have poultry producers 
in your states understand the importance of reacting quickly to stop 
these diseases.
    Improved access is another important benefit of our engagement 
programs. The economic advantages of participating in them are so great 
that with time and persistence we have steadily reduced the number of 
institutes closed to us. In recent months members of my staff were the 
first Americans to receive a thorough tour of the Berdsk biologics 
facility and the Vostok joint stock company facilities at Omutninsk. 
They also were the first Americans to be received in any fashion at the 
Institute of Toxicology in Saint Petersburg. The Kirov-200 facility you 
tried to visit, Senator Lugar, still eludes us despite much effort. We 
will not give up, however. We have developed good relations with 
members of the local university and are now looking into the 
feasibility of working with the EPA to site an environmental monitoring 
station there.
    In the coming year, we will continue our engagement efforts with a 
significantly increased focus on chemical scientists, and we will 
reform our efforts to better guide scientists to commercial self-
sustainability. This means in the first instance reorganizing the 
Moscow and Kiev centers to clarify lines of authority and add staff 
specialized in the marketing of scientific research. The $30 million 
Congress provided in Defense Emergency Response Funds for FY 2002 for 
conversion of former bio-production facilities will also play an 
important part in the sustainability effort. We are using it to assist 
such institutes to obtain western business development expertise and to 
foster the formation of a bio-consortium led by the Moscow Medical 
Academy to assist Russian biological researchers in marketing their 
research. We will also, of course, help support American firms seeking 
to invest in projects at these institutes. We are very grateful, in 
particular, for the interest shown by the Eli Lilly company in 
producing a drug at one of these institutes. We will assist and 
encourage others to follow.
    In the year ahead we will press this case with Russian authorities, 
and we will insist on more access and bringing more institutes into the 
tent. We want to establish a basis for real commercial partnerships 
with U.S. industry, but progress has been slow, frustrated by Russian 
bureaucracy and suspicion.
    Another tool we use to curb supply globally is our Nonproliferation 
and Disarmament Fund, for which the President has requested $35 million 
in FY 2004, more than double the FY 2003 appropriation. NDF has tackled 
tough, urgent, and often unanticipated problems on a worldwide basis. 
In the recent past, it has negotiated and executed the removal of 
Highly Enriched Uranium (HEU) from Serbia, the destruction of missiles 
in Bulgaria and the return from Cyprus of nuclear reactor parts en 
route to the Middle East. The NDF has also led a successful 
international effort to develop a state-of-the-art automated tracking 
system referred to as Tracker designed to help governments strengthen 
their control over sensitive exports or transshipments. Tracker has 
been a key tool for engaging nearly two dozen countries--either as 
design partners, current users, or in discussions of future 
implementation. Now deployed throughout Central Europe to track 
sensitive exports, this system is increasingly of interest to countries 
in Western Europe and Asia as a means to track terrorists and to 
monitor the movement of dangerous materials. The State Department is 
closely coordinating this export control assistance tool with other 
U.S. equipment assistance provided to these states. The State 
Department is closely coordinating this export control assistance tool 
with other U.S. equipment assistance provided to these states.
    In the future, we expect the NDF to focus on urgent, unanticipated 
opportunities to eliminate missile systems; destroy, secure and remove 
biological pathogens; eliminate chemical agents and weapons; rescue 
orphaned radiological sources; inventory and track dangerous materials; 
assist countries in developing laws and regulations to control the 
movement, storage, and security of dangerous materials; and encourage 
countries in the Middle East and South Asia to use the Tracker system 
and to assist with its development.
    The NDF funding increases that we seek anticipate the substantially 
accelerated effort we will make to work worldwide to help countries at 
risk secure dangerous materials. We want to help countries establish 
better accounting and control mechanisms to secure radioactive 
materials, pathogens, and sensitive precursors, from the laboratory to 
movement in internal and international commerce. This Dangerous 
Materials Initiative (DMI) aims for synergies among U.S. Government 
agencies and programs, and also with international partners and 
international organizations.
    At this point, we are not seeking separate funding for the DMI but 
expect that the Nonproliferation and Disarmament Fund will be a major 
resource, along with other U.S. assistance programs. Although still in 
the design stage, we are aiming to encourage international support 
under this umbrella at the G-8 Evian Summit in June, and we have 
already started several small pilot projects to prove our concept and 
to survey worldwide legal authorities for controlling dangerous 
materials.
    Another of our major programs to curb supply is centered in State's 
Export Control and Related Border Security (EXES) Program. We provide 
policy direction and coordination and draw on the expertise of the 
Departments of Commerce and Energy, as well as Customs and Coast Guard 
(now incorporated into the Department of Homeland Security). We also 
work closely with the Department of Defense to coordinate our efforts.
    We currently have active programs in some 30 countries, with 20 
EXBS program advisors serving overseas engaging foreign officials on 
ways to strengthen controls, directing training activities and 
providing much-needed detection and enforcement equipment. In a number 
of countries officials trained by EXBS or using EXBS-provided equipment 
have seized sensitive goods or weapons components bound for countries 
or programs of concern. U.S. export control assistance is largely 
responsible for over a dozen European and Eurasian countries adopting 
comprehensive export control laws that meet recognized international 
standards.
    Even before September 11, 2001, the EXBS program and its advisors 
were active in key Central Asian countries, a factor that doubtless 
paid unanticipated dividends when these countries were thrust into the 
front line of the war against terrorism. Following September 11, 
increased EXBS resources were focused on this strategic region to help 
these countries, and key countries in the Caucasus as well, shore up 
vulnerable borders and improve capabilities to deter, detect, and 
interdict the transit of illicit goods and weapons.
    In Europe, we are increasing EXBS assistance to the Baltics and 
Southeastern Europe, and Mediterranean transshipment points like Malta 
and Cyprus. All states, especially those with large ports, must do 
their part to forestall the transit of dangerous materials and 
technology.
    Export controls can only succeed as a multilateral endeavor, 
creating a network of controls that is capable not only of detecting 
and interdicting illicit shipments but deterring them. In the last 
twelve months, we have hosted major conferences and seminars for 
European, Central Asian, Caucasus, Middle Eastern and Southeast Asian 
countries. Countries have stepped forward to take new leadership roles, 
provide training and equipment. Countries with inadequate controls are 
committing to adopting new laws to strengthen them and devoting 
increased resources to enforcement. Other governments are now talking 
to each other about areas for cooperation in export controls and border 
security, thereby complementing and reinforcing our efforts.
    The State Department also works cooperatively with other, related 
agency programs to synergize efforts abroad. For example, we have a 
close working relationship with both the Department of Energy's 
National Nuclear Security Administration (DOE/NNSA), which funds and 
manages the Second Line of Defense program that provides advanced 
radiation detection equipment to foreign governments, and with Customs/
DHS, which has the lead on the Container Security Initiative (CSI) 
designed to secure the supply line of cargo shipments destined for U.S. 
ports. The State Department's Export Control and Related Border Control 
Assistance (EXBS) program has worked with NNSA to support NNSA's 
assessments of countries in which NNSA is considering providing 
material assistance. NNSA experts perform repairs and maintenance on 
radiation detection equipment previously provided under both Defense 
and State programs. State is also working closely with U.S. Customs/DHS 
officials to ensure that U.S. Government approaches to countries with 
``megaports'' to join the Container Security Initiative are integrated 
with our broader nonproliferation policy and with export control 
outreach and assistance efforts we are carrying out in some of these 
countries.
    Our third goal, making the export control regimes stronger, is also 
one on the supply side. As we noted in our response to last year's 
examination of the regimes by GAO, the Administration is in process of 
reviewing the nonproliferation regimes. Since September 11, anti-
terrorism has been adopted as a formal goal of the Australia Group, 
Missile Technology Control Regime, Wassenaar Arrangement, and Nuclear 
Suppliers Group. We have won Australia Group agreement to adopt catch-
all provisions and last year the Group issued its first export control 
guidelines incorporating catch-all, setting the standard for the other 
regimes. The Wassenaar Arrangement amended its dual-use export control 
list to begin adding items specifically of concern for terrorists, and 
this year is reviewing its controls on man-portable air defense systems 
(MANPADS) like SA-7s and SA-18s with a view to further strengthening 
them.
    In the year ahead we intend to push adoption of catch-all controls 
and denial consultation in areas where they haven't yet been 
implemented, continue to review control lists to make sure they are 
keeping up with technology and the threat and, as always, look for ways 
to strengthen implementation and enforcement. We are also working in 
the NSG and MTCR on other ways to tighten further these agreements. We 
will be sending to Congress soon a strategy report, prepared in 
partnership with our colleagues in the Arms Control Bureau.
    But while strong regimes are necessary, they are not enough. Most 
are voluntary agreements, which aren't legally binding. I talked a 
moment ago about the differences we have with Europe. I think we spend 
too much time debating what I'd call ``architecture''--treaties, 
arrangements etc.--and not enough time discussing how to put in place a 
strong commitment to action to back up those fine words on paper. What 
we're not doing enough of is taking concrete action to enforce 
commitments more strictly and make proliferation more costly--
politically, and financially.
    Tightening regimes and improved enforcement are part of the answer. 
Many governments tell us about their export controls and laws. But what 
counts is their willingness to enforce the laws, to make clear there is 
a price for violating the law. Proliferators need to know they face 
isolation and consequences if their efforts continue. Ending the threat 
posed by Iraq's weapons of mass destruction will send a powerful signal 
to other proliferators that the world will not stand idly by.
    And, North Korea must not imagine it can blackmail the 
international community. The world community has spoken on this in the 
IAEA's report to the Security Council. As Secretary Powell said, ``The 
United States stands ready to build a different kind of relationship 
with North Korea, once Pyongyang comes into verifiable compliance with 
its commitments. The North must be willing to act in a manner that 
builds trust.''
    India and Pakistan and two very different countries with which we 
are pursuing boldly different relationships. Each poses special 
challenges. We need to take account of the unique situation posed by 
their possession of nuclear weapons. From the NP Bureau perspective, 
ongoing tensions in South Asia make especially important those 
countries' controls on sensitive technology. We are also mindful of the 
risk that nuclear weapons could be used, either intentionally or 
accidentally in a crisis. We discuss these issues regularly with 
officials from both countries. I convey our concerns and help identify 
possible solutions whenever I meet with my Indian and Pakistani 
counterparts. With India, there are tough questions about how far we 
can go. We must continually weigh our mutual interests in cooperation 
against our obligations under the Nuclear Suppliers Group, the NPT and 
the Atomic Energy Act.
    To help deal with determined proliferators not prepared to conform 
to international standards, we employ a number of tools. One important 
tool I mentioned earlier is the IAEA. The Agency has a vital role in 
ensuring that civilian nuclear facilities are not diverted to weapons 
purposes, ferreting out covert weapons efforts, and reducing the risk 
of nuclear and radiological terrorism.
    The IAEA underpins the basic bargain of the NPT--nonnuclear weapon 
state access to nuclear technology in exchange for forgoing nuclear 
weapons. In the current environment, where some non-nuclear weapon 
states are violating the basic tenets of this bargain, the IAEA must 
aggressively pursue every hint of questionable activity and frankly and 
fully report to the world whenever safeguards are compromised or 
violated.
    The IAEA needs to be strong enough to alert us to tomorrow's 
problems, wherever they occur. More than 70 countries have now signed 
on to the Additional Safeguards Protocol, which provides the IAEA with 
more information and broader access rights. But despite a large 
expansion of responsibilities, the IAEA's budget has remained 
essentially flat. That is why the United States is supporting the 
Agency's efforts to increase its budget to implement its safeguards 
responsibilities, working diplomatically with others to get them on 
board.
    Beyond safeguards, IAEA has an important role in preventing nuclear 
terrorism. After September 11, 2001, the IAEA moved quickly to develop 
a comprehensive program to help states protect against acts of nuclear 
and radiological terrorism. Just last week the Department of Energy, 
working with IAEA and Russia, hosted a Conference to validate a new 
work program to control radioactive sources. Part of our voluntary 
contribution will support this important effort.
    While regimes and institutions, such as the IAEA, can make 
important contributions to halting the spread of WMD and WMD delivery 
systems, they alone are simply not enough. The United States also has a 
variety of tools to help us in these instances:
    Interdiction: Where controls fail and international bodies are 
unable or unwilling to act, interdiction is an option; properly planned 
and executed, interception of critical technologies en route to 
dangerous end users can make a difference. At a minimum, interdiction 
can lengthen the time that proliferators will need to acquire new 
weapons capabilities, and demonstrates our commitment to combat the 
spread of weapons of mass destruction and their delivery systems. In 
some instances, interdiction can prevent proliferators from acquiring 
new capabilities. Procurement efforts are becoming increasingly 
sophisticated, and our efforts to halt those procurements must keep 
pace.
    Sanctions: On sanctions, from our vantage point, companies have a 
choice: sell to proliferators, or sell in the United States, but not 
both. Where national controls fail, and where companies make the wrong 
choice, there will be consequences. U.S. law requires it. That said, 
U.S. legislation currently offers a crazy-quilt of overlapping 
requirements that are difficult for foreign entities to understand 
(which is required to deter them from misbehaving) and that are often 
difficult to apply in a flexible manner to advance our nonproliferation 
policies. We hope to be able to work with you to consolidate and 
rationalize these important authorities.
    Positive Measures: ``Sticks'' are an inescapable reality in fight 
against proliferation. But carrots too can play a useful part.
    The G-8 Leaders' agreement at the Kananaskis summit last June to a 
new Global Partnership was an important step that reflects the shared 
view that nonproliferation work remains under-funded. They embraced an 
initiative to widen European and Japanese support to complement and 
accelerate this process. G-8 leaders pledged to raise up to $20 billion 
over ten years for nonproliferation, disarmament, counter-terrorism, 
and nuclear safety projects to prevent WMD from falling into the hands 
of terrorists or states who sponsor them.
    Since the summit, Under Secretary of State for Arms Control and 
International Security, John Bolton, has continued to lead U.S. efforts 
to ensure the success of the initiative. The U.S. has so far carried 
most of the burden. More cooperation is needed from Europe and Japan. 
We want total G-8 commitments, by the Evian summit, to meet the $20 
billion target. The Senior Officials Group continues to press Russia to 
take concrete actions to meet donors' concerns about exemption from 
taxation and adequate liability protections in order to move forward.
    We also look to the business community, which has key interests in 
stable foreign partners. The same protection of intellectual property, 
and controls on illegal exports of technology, that they seek, are 
important tools in the fight vs. proliferation. Good corporate 
governance, transparency, the rule of law--both government and the 
business community have a shared interest in seeing our partners 
strengthen the institutions that make the international marketplace 
transparent and predictable. Business itself prospers from a secure 
international setting.
    But the most vital partnership of all is, of course, between the 
Administration and the Congress. You give us the tools we need to take 
on our vital mission through spending authorities and appropriations.
    Since you have asked, Mr. Chairman, that I come today with ideas 
for what Congress can do now to help strengthen our efforts, I would 
like to offer some general proposals.
    You encouraged us to think broadly and creatively. The President 
has requested major funding increases this year to allow 
nonproliferation programs to take advantage of new opportunities in the 
post September 11 world. We of course seek your authorization of those 
amounts, as well as the budget proposal for Science Centers and bio-
engagement, and our voluntary contribution to the IAEA.
    The U.S. may very well be confronted with new requirements that go 
beyond our existing authorities. So we urge the Congress to support the 
President's proposal to broaden the current Cooperative Threat 
Reduction spending authorities to permit use of up to $50 million of 
CTR funds beyond the Former Soviet Union, allowing the President to use 
those resources in the best way he can.
    And, of course, I strongly urge Congress to support the President's 
request that the authority to waive the requirements for CTR and Title 
V of the Freedom Support Act certifications be made permanent. We also 
strongly support permanent waiver authority to cover construction of 
the Shchuch'ye chemical weapons destruction plant in Russia.

                               CONCLUSION

Nonproliferation is a Team Effort:
    We are all partners in the worldwide effort to make the world 
safer. There are many areas where the interlocking nature of the 
challenges confronts us all.
    Nonproliferation challenges are multiple and multiplying. We need 
to focus on the meat of the issue, and not lose the forest for the 
trees.
    Enhancing nonproliferation dialogue with our worldwide partners is 
essential to success. But dialogue is no substitute for concrete 
action, and where dialogue fails we will use other means--whether 
multilateral, plurilateral, or unilateral. That was at the heart of 
President Bush's National Security Strategy.
    There are lots of opportunities to make progress; it's up to us to 
transform opportunity into reality.
    Thank you.

                                 ______
                                 

      Interagency-Cleared Questions and Answers on the Convention,
                             March 19, 2003

                               I. PURPOSE

    Question 1. What is the purpose of the Waste Convention?

    Answer. The purpose of the Waste Convention on the Safety of Spent 
Fuel Management and on the Safety of Radioactive Waste Management 
(Waste Convention) is to achieve a high level of safety worldwide in 
spent fuel and radioactive waste management. This is to be accomplished 
through the enhancement of national measures and international 
cooperation. It is anticipated that there will be a thorough 
examination of national programs through an exchange of views, so that 
Contracting Parties can learn from each other's solutions to common and 
individual safety problems. The process is viewed as a mechanism for 
contributing to improving worldwide safety.


    Question 2. Is there a relationship between the purpose of the 
Waste Convention and the Convention on Nuclear Safety (CNS)?

    Answer. Yes. The CNS, which establishes a legal obligation on the 
part of the Contracting Parties to apply certain safety principles to 
the construction, operation, and regulation of civilian nuclear power 
reactors, contains a preambular statement affirming a commitment by 
Parties to develop a similar convention on the safe management of 
radioactive waste. Together, the Waste Convention and the CNS formulate 
a joint mechanism to strengthen the worldwide safety culture.
    Both Conventions are consistent with U.S. policy. The United States 
became a Contracting Party to the CNS on July 10, 1999 and signed the 
Waste Convention on September 29, 1997.

                               II. SCOPE

    Question 3. What is the scope of the Waste Convention?

    Answer. The Waste Convention applies to the safety of spent fuel 
and radioactive waste management resulting from civilian nuclear 
applications. It also covers such issues as radioactive waste 
management resulting from civil applications; disused sealed sources no 
longer needed; operational radiation protection; management of nuclear 
facilities; decommissioning; emergency preparedness; legislative and 
regulatory frameworks; and transboundary movement. It does not include 
naturally occurring radioactive materials (NORM), unless a Contracting 
Party declares it as radioactive waste for the purposes of the Waste 
Convention.

    Question 4. Does the Waste Convention apply to military radioactive 
waste or spent nuclear fuel?

    Answer. The Waste Convention does not apply to a Contracting 
Party's military radioactive waste or spent nuclear fuel unless the 
Contracting Party declares it as spent nuclear fuel or radioactive 
waste for the purposes of the Convention. The Waste Convention would 
apply to military radioactive waste and spent nuclear fuel if and when 
such material is permanently transferred to and managed within 
exclusively civilian programs. The Waste Convention contains provisions 
to ensure that national security is not compromised and that States 
have absolute discretion as to what information is reported on material 
from military sources.
    In the United States, all military radioactive waste and spent 
nuclear fuel is normally transferred to civilian programs for disposal. 
The Waste Convention will not, however, affect ongoing U.S. military 
operations in any way, nor will classified information be covered in 
the U.S. national report.


    Question 5. Does the Waste Convention lay out international 
standards Contracting Parties must meet?

    Answer. No. The Waste Convention in and of itself does not 
delineate standards the Contracting Parties must meet. Contracting 
Parties are required to take ``appropriate steps'' to ensure safe 
management of spent nuclear fuel and radioactive waste and to report on 
their activities as described within the articles of the Waste 
Convention.


    Question 6. What are the obligations of Waste Convention 
Contracting Parties with respect to internationally endorsed standards 
and criteria?

    Answer. The Waste Convention obligates Contracting Parties to 
consider internationally endorsed standards and criteria, however a 
Contracting Party is not bound by them in setting national protective 
methods and radiation standards which will govern even as to 
transboundary effects.


    Question 7. What are the Waste Conventions obligations with respect 
to transportation and how do they relate to the International Atomic 
Energy Agency (IAEA) Code of Practice on International Movement of 
Radioactive Waste?

    Answer. Waste Convention obligations regarding transboundary 
movement are a restatement of relevant provisions of the non-legally-
binding IAEA Code of Practice on International Movement of Radioactive 
Waste.


    Question 8. What are the implications of Article 27, Transboundary 
Movement, for:

  <bullet> ``1(v): a Contracting Party which is a State of origin shall 
        take the appropriate steps to permit re-entry into its 
        territory, if a transboundary movement is not or cannot be 
        completed in conformity with this Article, unless an 
        alternative safe arrangement can be made.''

    Answer. A State of origin must take the appropriate steps to permit 
re-entry of a shipment that cannot be completed unless other safe 
arrangements can be made. This avoids situations of stranded shipments. 
The Convention recognizes that any State has the right to ban foreign 
radioactive waste and spent fuel import into its territory.

  <bullet> ``3(ii):. . . a Contracting Party to which radioactive waste 
        is exported for processing to return, or provide for the return 
        of, the radioactive waste and other products after treatment to 
        the State of origin;''

    Answer. The Convention does nothing to prejudice or affect the 
rights of the Contracting Party to return wastes to their State of 
origin.

  <bullet> ``3(iii): . . . a Contracting Party to export its spent fuel 
        for reprocessing;''

    Answer. The Waste Convention does nothing to prejudice or affect 
this right. For U.S. origin fuel, other countries are required, under 
the terms of the applicable Agreement for Peaceful Nuclear Cooperation 
with the United States, to seek the consent of the United States prior 
to the export for reprocessing of any U.S.-obligated spend fuel. The 
Waste Convention has no effect upon these U.S. legal requirements nor 
does it affect U.S. consent rights under Agreements for Peaceful 
Nuclear Cooperation.
    Most international or regional facility proposals focus on the 
nuclear program in Taiwan and the Republic of Korea as potential 
customers. Switzerland and Japan have also been mentioned. The United 
States has retransfer consent rights on all the spent fuel on Taiwan 
and much of the spent fuel in the ROK. The United States also has 
certain consent rights over much of the fuel in Switzerland and Japan.


    Question 9. Does the Waste Convention's obligation to minimize 
radioactive waste generation limit a Contracting Party's nuclear fuel 
cycle options?

    Answer. No. Contracting Party obligations under the Waste 
Convention do not limit a Contracting Party's nuclear fuel cycle 
options or decisions to opt for higher enrichment or increased fuel 
burn up, even if options selected may generate more waste than other 
available options. The Convention explicitly states that this 
obligation is to keep the generation of wastes to the minimum 
practicable, consistent with the type of fuel cycle policy adopted.


    Question 10. Does the Waste Convention obligate a Contracting Party 
to obtain views, approval, or permission on the safety impacts of other 
Contracting Parties in the vicinity of a proposed spent fuel or 
radioactive waste facility?

    Answer. No. Although Contracting Parties in the vicinity of a 
proposed spent nuclear fuel or radioactive waste facility should be 
consulted, and thus would have an opportunity to provide their views on 
the facility's likely safety impact, there is no requirement to obtain 
their views, approval or permission on the likely safety impact of a 
nearby proposed facility.

                      III. IMPLEMENTATION PROCESS

    Question 11. What are U.S. obligations under the terms of the Waste 
Convention?

    Answer. Structured similarly to the Convention on Nuclear Safety, 
the Waste Convention identifies a range of issues with respect to the 
safe management of spent nuclear fuel and radioactive waste and 
Contracting Parties commit to take appropriate steps to address such 
issues. The specific steps to be taken are left to each Contracting 
Party's discretion. In addition, as a Contracting Party to the 
Convention, the United States is obligated to submit a national report 
and participate in the review meetings on measures taken to meet Waste 
Convention commitments by the United States and other countries.


    Question 12. Who represents the United States at the Review 
meetings of the Contracting Parties?

    Answer. As a Contracting Party to the Convention, the United States 
would be represented by one delegate and any other alternates, experts, 
advisers, or observers as the United States deems necessary.

  <bullet> The U.S. delegate would be a representative of the 
        Department of State.

  <bullet> U.S. Alternate delegates would be representatives of the 
        Department of Energy (DOE), the Nuclear Regulatory Commission 
        (NRC), and the Environmental Protection Agency (EPA).

  <bullet> Experts and advisers may possibly be invited to be part of 
        the U.S. delegation if determined to be needed. It is a 
        possible, but not likely, that this could include 
        representatives from Non-Government Organizations (NGO), 
        industry, or utilities as appropriate. Intergovernmental 
        organizations may, as appropriate, be invited to attend a 
        meeting or session as an observer.


    Question 13. The Convention entered into force June 18, 2001, 90 
days after adherence by 25 signatories, including 15 which have an 
operational nuclear power plant. According to Article 29, a preparatory 
meeting is to be held not later than 6 months after entry into force. 
Has a meeting been held and did the United States attend?

    Answer. Yes, a preparatory meeting was held in December 2001. The 
United States, not having ratified the Convention, was not in 
attendance. An organizational meeting of the Contracting Parties is 
scheduled for April 7, 2003. Although the United States cannot become a 
Contracting Party by that time, it expects to participate in the 
meeting if it has ratified the Waste Convention before that date. The 
United States would need to be a Contracting Party to review national 
reports of other States and participate in the November 2003 review 
meetings.


    Question 14. What happened at the preparatory meeting?

    Answer. In December 2001, the Contracting Parties met and agreed 
upon the guidelines for the form and structure of national reports; the 
guidelines for the review process; Rules of Procedure and Financial 
Rules.


    Question 15. What role do U.S. Agencies and Departments play in the 
Waste Convention process?

    Answer. The Departments of State and Energy, the Nuclear Regulatory 
Commission (NRC) and the Environmental Protection Agency (EPA) all have 
responsibilities in support of U.S. participation in the Waste 
Convention process:

  <bullet> U.S. Department of State

          The State Department's foreign policy responsibilities 
        include representation of the United States to, and conducting 
        negotiations with, other countries and international 
        organizations. These responsibilities also include 
        strengthening Congressional and public understanding of, and 
        support for, the goals, objectives, and approaches of the 
        President and the Secretary in the area of foreign policy. 
        International peaceful nuclear cooperation policy is primarily 
        a foreign affairs issue. For that reason, the State 
        Department's function, in implementation of the Waste 
        Convention, is to lead the U.S. delegation at meetings of the 
        Contracting Parties.

  <bullet> U.S. Department of Energy (DOE)

          Implementation of U.S. obligations under the Waste Convention 
        will be carried out primarily by the DOE as the U.S. agency 
        responsible for the safe storage, treatment, and disposition of 
        the majority of U.S. high-level radioactive waste, as well as 
        low-level radioactive waste generated by DOE. DOE is 
        responsible for the cleanup of the legacy waste from the Cold 
        War era. In this respect, DOE will be responsible for the 
        preparation of the U.S. national report and the representation 
        of this information. DOE will also be responsible, for working 
        with other U.S. agencies, in the proposal and strategy for U.S. 
        participation in the Waste Convention.

  <bullet> U.S. Nuclear Regulatory Commission

          The NRC has responsibility for regulating all commercial 
        spent fuel storage and all spent fuel and high-level 
        radioactive disposal activities. NRC and/or Agreement States 
        (i.e., States to which the NRC has relinquished regulatory 
        authority over certain nuclear activities and facilities) also 
        have responsibility for regulating waste management for 
        commercial low-level radioactive waste. NRC's role in 
        implementation of U.S. obligations under the Waste Convention 
        is to provide information on the regulatory perspective for 
        spent nuclear fuel and radioactive waste management for the 
        U.S. national report.

  <bullet> U.S. Environmental Protection Agency (EPA)

          EPA establishes generally applicable environmental standards 
        for protection of the general environment from radioactive 
        material. In addition, EPA has regulatory authority for 
        storage, management, and disposal of transuranic wastes at 
        DOE's Waste Isolation Pilot Plant (WIPP). EPA also is 
        responsible for implementation of the London Convention 
        provisions associated with prohibiting ocean dumping of 
        radioactive wastes. EPA's role in implementation of U.S. 
        commitments under the Waste Convention is to provide 
        information on the regulatory perspective for transuranic waste 
        management for the U.S. national report.

            IV. NATIONAL REPORTS AND THE CONVENTION PROCESS

    Question 16. What is the process by which the Contracting Parties 
to the Waste Convention will review national reports?

    Answer. Contracting Parties are to submit national reports 
addressing measures taken to implement the obligations of the 
Convention, their relevant national policies and factual information 
about their facilities and materials. The Contracting Parties will hold 
meetings for the purpose of reviewing national reports. The first 
review meeting is to be held beginning November 3, 2003. The interval 
between review meetings is not to exceed three years.


    Question 17. How will the United States participate in the review 
of national reports of other countries at the review meeting?

    Answer. As currently proposed, the Contracting Parties are to be 
organized into subgroups of five to seven countries with a Chairman, 
Vice-Chairman, and a Rapporteur. The United States will be assigned to 
a group. Membership of each group will be rotated from review meeting 
to review meeting. In subgroup meetings, members will exchange national 
reports for the purpose of conducting a detailed review. Each country 
will have a reasonable opportunity to ask questions and request 
clarification of reports submitted during meetings of the subgroups. 
The Rapporteur will prepare a reporting document, which will be used as 
the basis for a subgroup report to the Plenary Session.


    Question 18. Will the United States have an opportunity to comment 
on national reports from countries not in the U.S. assigned country 
subgroup?

    Answer. Yes. A Contracting Party has additional opportunities to 
comment on national reports of all other Contracting Parties, by 
sending written comments and questions before the review meeting, by 
attending the subgroup meeting in which a particular report is 
discussed, and by addressing a Plenary Session.
    However, the United States must first become a Contracting Party to 
be entitled to participate in the review of any Contracting Party's 
national report, unless the IAEA and the Contracting Party voluntarily 
permitted such a review.
    The guidelines adopted at the preparatory meeting (December 2001) 
propose that the Contracting States should review all country reports. 
The review process allows formal comment by Contracting States on all 
reports, whether inside or outside the reporting group.


    Question 19. In the U.S. view, what countries have what problems?

    Answer. There is a wide range of problems and differences between 
States party to the Waste Convention. Some emerging nations have issues 
associated with lack of regulatory systems and requirements. Laws and 
regulations need to be structured to increase safety of spent fuel and 
radioactive waste management if they do not exist. Not all countries 
have operational nuclear power plants and spent fuel, their problems 
will focus on waste management issues and disused sealed sources. Most 
nations, including the United States, have difficulties siting disposal 
facilities.


    Question 20. Will any activity under the Waste Convention, 
including U.S. advice or comments on other country national reports 
through the review process provide a basis for any U.S. liability?

    Answer. It is unlikely that adherence to the Waste Convention could 
provide a basis for United States government liability. The Convention 
does not purport to affect international nuclear liability. Under the 
Waste Convention, the responsibility for safety of spent fuel or 
radioactive waste management rests with the Contracting Party which has 
jurisdiction over the spent fuel or over the radioactive waste. The 
Waste Convention provides for no private right of action and does not 
waive the sovereign immunity of Contracting Parties.


    Question 21. Under Article 32, Reporting, for 2(u) an inventory of 
spent fuel that is subject to this Convention and that is being held in 
storage and of that which has been disposed of. This inventory shall 
contain a description of the material and, if available, give 
information on its mass and its total activity; will the Russian 
Federation report include spent fuel inventories?

    Answer. Like the United States, the Russian Federation has not yet 
become a Contracting Party. Once they complete their ratification 
process and become a Contracting Party, the Russian Federation will be 
subject to the terms of Article 32, including the requirement to report 
its inventory of spent fuel held in storage or disposed of. Article 32 
would also apply to any future regional or international repository in 
the Russian Federation.


    Question 22. Under Article 36, Confidentiality, what are the 
implications for Congressional information interests?

    Answer. Under the terms of Article 36, information will be 
available, but its confidentiality is to be respected. The Convention 
does not affect the rights and obligations of the Contracting Parties, 
under their laws, to protect information from disclosure. This includes 
a range from national security to industrial property protection. The 
Contracting Party has exclusive discretion to denote ``information'' as 
classified or otherwise controlled. The Administration will make 
information available to the fullest extent possible. The Convention on 
Nuclear Safety (CNS) will serve to some extent as a paradigm for 
implementation of the Waste Convention.


    Question 23. Will there be a review meeting summary report? Will it 
be available publicly?

    Answer. Yes. Under Article 34 of the Waste Convention, Contracting 
Parties are obligated to adopt by consensus, and make available to the 
public, a summary report addressing the issues discussed and the 
conclusions reached during the meeting. However, no specific national 
report will be identified, nor will details of debates be available. 
The summary report is prepared from the subgroup Rapporteur reports.

                    V. U.S. NATIONAL REPORT PROCESS

    Question 24. What is the process by which the United States will 
prepare a national report?

    Answer. Each Contracting Party is required to submit a national 
report for review on measures taken to meet its commitments under the 
articles of the Waste Convention, prior to the review meeting. The 
United States will follow the guidelines for the form and structure of 
national reports established by the Contracting Parties at the December 
2001 preparatory meeting.

  <bullet> DOE will be the lead agency for preparation of the U.S. 
        national report in coordination with the NRC, EPA, and the 
        Department of State.

  <bullet> The U.S. national report form and structure will be closely 
        modeled after the U.S. national report submitted for the 
        Convention on Nuclear Safety, although the Waste Convention 
        elaborates on the content of the report in more detail than the 
        CNS. Appendices to the Report will include detailed data 
        tables. Generic summary documents, standard DOE, NRC, and EPA 
        documents, and other appropriate documents and reports will be 
        cited by reference.

  <bullet> An interagency working group (IWG), The Executive Steering 
        Committee for the Convention on Spent Fuel and Radioactive 
        Waste Convention, chaired by the Department of Energy, was 
        established for the purpose of coordinating U.S. Waste 
        Convention activities in anticipation of ratification and in 
        preparation for the review meetings. Other members include NRC, 
        EPA, and the Department of State.


    Question 25. Will Agreement States and Low-Level Radioactive Waste 
Compacts (Compacts are States that band together with a plan to have 
one disposal facility per compact in a selected host State) (Compacts), 
and others have an opportunity to review and comment on the U.S. 
national report prior to submittal?

    Answer. No formal opportunity for Agreement State or Low-Level 
Radioactive Waste Compact review and comment of the U.S. national 
report is expected prior to submittal to the IAEA. Likewise, there is 
no obligation for review or comment on the part of any or all Agreement 
States or Compacts to contribute or review the U.S. national report or 
the report of any other Contracting Party.


    Question 26. Will the Comptroller General and the General 
Accounting Office have access to U.S. analyses and documents prepared 
under the Waste Convention Process?

    Answer. Yes. In accordance with the law.


    Question 27. Once submitted, would the U.S. national report be 
publicly available?

    Answer. Yes. The U.S. national report will be made available to the 
U.S. public.


    Question 28. Will other Contracting Party national reports be 
available to the U.S. public?

    Answer. Contracting Parties are entitled to designate certain 
information to be protected against public disclosure. The United 
States must respect such confidentiality designations. As a Contracting 
Party, the United States would be entitled to receive national reports 
of all other Contracting Parties. However, because of the enormity in 
the quantity of documentation of national reports from all Contracting 
Parties, reports for only those States participating in a specific 
subgroup will be transmitted to members of the group. Other reports 
will be provided by the Secretariat upon request.
    Following the first review under the Convention on Nuclear Safety, 
many national reports were posted on the IAEA web site and thus are 
publicly available. We anticipate a similar practice to be implemented 
for national reports under the Waste Convention.

                      VI. NATIONAL REPORT ELEMENTS

    Question 29. What spent nuclear fuel and radioactive waste 
inventories will be included in the U.S. national report?

    Answer. The U.S. national report inventory data, which will be 
taken from currently available Federal Government databases, is to 
cover spent nuclear fuel stored or disposed of and radioactive waste 
stored at certain facilities or which has been disposed of or has 
resulted from past practices. Radioactive waste from hospitals, medical 
institutions, research facilities and the like would be covered in the 
inventory after shipment to a radioactive waste facility. Specific 
waste materials included are to be itemized in the report's inventory 
list.


    Question 30. What specific spent nuclear fuel and radioactive waste 
databases will be used as the source for inventory data in the U.S. 
national report? Who maintains the databases? What is the source of 
funding?

    Answer. In preparing the U.S. national report, three databases will 
be used as the source for identifying U.S. inventory:

  <bullet> DOE Spent Nuclear Fuel Inventory (SNF). The National Spent 
        Nuclear Fuel Database is maintained at the Idaho National 
        Engineering and Environmental Laboratory (INEEL), National 
        Spent Fuel Program Office. The DOE Office of Environmental 
        Management funds the database.

  <bullet> Commercial SNF Inventory. Data on the commercial SNF 
        inventory will be obtained from the DOE Office of Civilian 
        Radioactive Waste Management's Environmental Impact Statement 
        (EIS) entitled, ``Geologic Repository for the Disposal of Spent 
        Nuclear Fuel and High-Level Radioactive Waste at Yucca 
        Mountain, Nye County, Nevada.'' The DOE Office of Civilian and 
        Radioactive Waste Management (OCRWM) funded the collection of 
        inventory data for this EIS. OCRWM funds the collection of 
        commercial SNF inventory information on a periodic basis.

  <bullet> Commercial Low-Level Waste Disposal Volumes. Commercial low-
        level waste disposal volumes are collected by DOE through the 
        Manifest Information Management System. The DOE Office of 
        Environmental Management funds this program and collection of 
        data.

  <bullet> DOE Low-Level Inventory. The DOE low-level inventory is 
        collected in DOE's Environmental Management Corporate Database. 
        This system is maintained and funded by the DOE Office of 
        Environmental Management. The Office updates DOE's low-level 
        radioactive waste inventory every two years. Waste information 
        is collected annually.


    Question 31. What facilities will be included in the national 
report inventory?

    Answer. The U.S. national report will cover existing and proposed 
facilities, whether Federal, State, or private. The report's list of 
sites identifies which types of sites are included.


    Question 32. How many spent fuel and waste management facilities in 
the United States come under the Convention?

    Answer. Numerous facilities in both commercial and government 
sectors in the United States will be included in the report under the 
Convention. In terms of sites where the facilities are or will be 
located, there are:

  <bullet> Three existing low-level waste disposal sites (Barnwell, 
        Hanford, and Clive) and four closed low-level waste disposal 
        sites (Beatty, Sheffield, Maxey Flats, and West Valley) in the 
        commercial sector. Any future Low-Level Radioactive Waste 
        Compact site would be included in the report under the Waste 
        Convention.

  <bullet> Currently, there are 26 operating independent spent fuel 
        storage installations (ISFSI) in the United States However, 
        facilities within the controlled area at operating reactors 
        will not be included in the report.

  <bullet> Interim Spent Nuclear Fuel Storage facilities are located at 
        21 commercial reactor sites, however facilities within the 
        perimeter at operating reactors will not be included in the 
        report.

  <bullet> DOE facilities located at 30 different sites across the 
        nation for government waste, including operating and planned 
        disposal facilities for transuranic (WIPP) and low-level waste, 
        treatment facilities, and storage facilities.

  <bullet> Mill tailings sites include 39 under NRC jurisdiction and 9 
        under Agreement States. There are 5-10 Uranium/Thorium sites.

  <bullet> The planned Yucca Mountain high-level waste site and any 
        other site for commercial spent nuclear fuel.

  <bullet> Twenty-eight contaminated materials facility sites.


    Question 33. Is a nuclear power reactor in decommissioning to be 
included in the inventory of facilities?

    Answer. Yes, the Joint Convention's Article 32.2(v) specifies that 
the National Report is required to provide a list of nuclear facilities 
(which include nuclear power reactors) in the process of being 
decommissioned, as well as the status of decommissioning activities at 
those facilities.


    Question 34. Does the Convention include disused sealed sources no 
longer needed?

    Answer. Disused sealed sources no longer needed are covered to the 
extent that they are disposed in a radioactive waste facility and that 
a Contracting Party should permit reentry if such a source is being 
returned to a manufacturer licensed to receive and possess it. The 
Contracting Party should also have a framework for safe management of 
disused sources. There is no requirement that a source be registered or 
tracked throughout its life cycle.


    Question 35. Will the national reports include inventories of 
disused sealed sources?

    Answer. There is no specific requirement in the Waste Convention to 
report inventories of disused sources. In some countries, disused 
sealed sources may be included in their waste inventories as waste. 
Those sources returned for re-manufacturing would not be subject to the 
reporting requirements, unless the Contracting Party voluntarily 
reported such inventories. However, those disused sealed sources which 
are to be disposed of would be considered radioactive waste and should 
be reported under the radioactive waste inventory.
    The IAEA has ongoing programs (Net-Enabled Waste Management Data 
Base) in place for reporting disused sealed sources. Also, the IAEA is 
in the process of revising the non-legally-binding Code of Conduct on 
the Safety and Security of Radioactive Sources to address security 
concerns raised in the wake of September 11. The Code identifies 
activities important for strengthening national controls on cradle-to-
grave management of radioactive sources. National registries of 
radioactive sources is being considered as a possible addition to the 
Code.


    Question 36. How does ratification of the Waste Convention support 
U.S. efforts to minimize the threat of malicious use of radioactive 
waste, such as disused sealed sources?

    Answer. Article 28 of the Waste Convention, entitled ``Disused 
Sealed Sources'', commits Contracting Parties to the Convention to take 
the appropriate steps to ensure that the possession, re-manufacturing 
or disposal of disused sealed sources, in the framework of national 
law, takes place in a safe and secure manner. The Waste Convention 
offers an opportunity for the United States, as a Contracting Party, to 
review other nations' progress through national report reviews and 
reviews. U.S. concerns about control and intentional misuse of 
radioactive waste or disused sealed sources can be raised in the 
context of the national report review meeting. In this way, the United 
States can influence globally the safe management of spent fuel and 
radioactive waste and urge nations to enact new laws and controls on 
disused sealed sources, where they now do not exist.

                       VII. U.S. PROGRAM EFFECTS

    Question 37. Will the Waste Convention improve or strengthen DOE's 
spent nuclear fuel and waste program? How or Why not?

    Answer. Yes. Review of the national reports and the prospect of 
bilateral cooperation will strengthen DOE's spent fuel and radioactive 
waste program. Lessons learned from other countries both from how they 
manage their spent nuclear fuel and their experiences in resolving 
common and individual safety problems could be used to improve DOE's 
programs.


    Question 38. Does DOE anticipate any changes in its spent nuclear 
fuel or waste program in the near-term, long-term? What is the 
anticipated nature of the changes?

    Answer. No changes are expected in the policy and strategy of DOE's 
spent nuclear fuel and radioactive waste programs. Any changes would be 
related to developing technological alternatives to current 
stabilization, storage, treatment, and disposal missions at DOE. 
Alternative technical solutions are often needed to meet environmental 
compliance requirements and to reduce the cost of operations.


    Question 39. Will the Convention improve or strengthen NRC's 
regulatory and licensing program? How or Why not?

    Answer. The Waste Convention is not expected to result in major 
changes to the NRC's regulatory program. Nonetheless, by providing a 
mechanism for receiving information on other national programs through 
the constructive exchange of national reports and reviews, the Waste 
Convention will support the NRC's own continuing efforts to improve its 
regulatory program through self-assessment.


    Question 40. Does NRC anticipate any changes in its regulatory 
program for radioactive waste management and/or spent nuclear fuel 
management in the near-term, long-term? What is the anticipated nature 
of the changes?

    Answer. The NRC does not anticipate the need to make any 
significant changes to its regulations as a result of the Waste 
Convention. Changes, if any, will be publicly vetted as part of the 
NRC's rulemaking process.


    Question 41. Will the Waste Convention improve or strengthen EPA's 
regulatory program? How or Why not?

    Answer. The Waste Convention is not expected to have an effect on 
EPA's regulatory program.


    Question 42. Does EPA anticipate any changes in its regulatory 
program in the near-term, long-term? What is the anticipated nature of 
the changes?

    Answer. EPA does not anticipate any changes to its regulatory 
program either in the near-term or the long-term.

                         VIII. POST 9-11 ISSUES

    Question 43. Does the Waste Convention address security and 
diversion from terrorist attacks?

    Answer. No, the Waste Convention does not directly address security 
and diversion from terrorist attacks. However, the Convention, along 
with the CNS, does foster a constructive multi-lateral framework to 
increase safety and security at facilities throughout the world. It is 
an incentive convention that addresses safety issues primarily 
associated with spent nuclear fuel management and radioactive waste 
management. Promoting a stable technical environment and regulatory 
systems in developing countries through the Convention will assist 
contracting States to increase security and diversion from terrorist 
attacks.

                               IX. COSTS

    Question 44. What costs are associated with participating in the 
Waste Convention?

    Answer. The costs to the United States as a Contracting Party to 
the Waste Convention include:

  <bullet> Preparation of the U.S. national report every three years

  <bullet> Reviewing national reports of other countries

  <bullet> U.S. delegation participation in the preparatory, 
        organizational, and review meetings.


    Question 45. What are the anticipated costs for preparing the U.S. 
national report? Will there be any additional costs to licensees?

    Answer:

  <bullet> For DOE, anticipated costs for preparing the U.S. national 
        report is estimated at $200,000 for FY-2003 and an estimated 
        $200,000 incurred annually thereafter. Costs will be absorbed 
        within the existing DOE budget.

  <bullet> For NRC, costs to prepare information on the commercial 
        regulatory perspective for the national report are not expected 
        to be substantial and can be absorbed within the existing 
        budget. There are no expected additional costs to licensees.

  <bullet> For EPA, costs are expected to be minimal and can be 
        absorbed within the existing budget. No additional costs to 
        licensees are anticipated.


    Question 46. Under the NRC's regulatory regime Agreement States 
subsume certain of the NRC's regulatory authority subject to oversight. 
Will there be any additional costs to Agreement States?

    Answer. In countries having a federal system of government such as 
the United States, States may carry out convention provisions. For the 
United States there are no significant new burdens or unfunded mandates 
for the Agreement States that are anticipated to result from the Waste 
Convention.


    Question 47. Under U.S. law, States are responsible for the 
disposal of low-level radioactive waste and permitted to formulate 
compacts for this purpose. Will there be any additional costs to Low-
Level Waste Compacts?

    Answer. No additional costs are expected to States or Low Level 
Waste Compacts, because the regulatory program to which such entities 
are subject is not expected to change as a result of the Convention.


    Question 48. Will the DOE National Laboratories be involved in 
preparing the U.S. national report? What are the anticipated costs?

    Answer. No. National Laboratories will not be involved in 
preparation of the U.S. national report. There are no anticipated 
costs.


    Question 49. What is the total number of national reports the 
United States anticipates it will review from the assigned country 
subgroup process? What are the anticipated costs for the United States 
to review and comment on national reports within this group?

    Answer. The United States as part of the country subgroup will 
review five to seven reports within its group and others of interest. 
Costs will be absorbed within existing agency budgets.

    Question 50. In addition to the national reports received as part 
of the assigned country subgroup process; does the United States 
anticipate requesting other national reports for the purpose of review 
and comment? If yes, for what countries? What is the anticipated 
additional cost?

    Answer. Similar to its practice with respect to the CNS, the United 
States will review national reports for all countries which receive 
nuclear and radiation safety assistance from the United States or for 
which it has special safety concerns. The costs will be absorbed within 
existing agency budgets.

    Question 51. What are the anticipated costs for U.S. 
representatives to participate in the meetings?

    Answer. Representatives from the Department of State, DOE, NRC, and 
EPA are attending all associated Waste Convention meetings to be held 
at the IAEA headquarters office in Vienna. The delegation will include 
up to 12 delegates, with associated full-time equivalent (FTE), per 
diem and travel costs.

    Question 52. Are representatives from DOE National Laboratories, 
Agreement States, Low-Level Waste Compacts, or the private sector 
anticipated to attend meetings of the Contracting Parties as experts, 
advisors or observers? If part of the U.S. delegation, how would such 
participation be funded?

    Answer. No. Representatives from National Laboratories, Agreement 
States, Low-Level Waste Compacts, and the private sector are not 
expected to attend any meetings of the Contracting Parties.

    Question 53. Are there any costs for the United States if it is not 
a Contracting Party?

    Answer. Yes. The IAEA is the Secretariat for the Contracting 
Parties, including preparing and servicing of the meetings and 
transmitting information associated with the Waste Convention. Cost for 
these Secretariat services are included in the annual IAEA budget. The 
United States is obligated to pay its annual IAEA membership assessment 
of 25% of the total IAEA regular budget. Therefore whether or not the 
United States is a Contracting Party to the Waste Convention, a portion 
of the U.S. membership assessment will be used to fund Secretariat 
services in support of the Convention.

                              X. BENEFITS

    Question 54. How does the United States benefit from participation 
as a Contracting Party to the Convention?

    Answer. As a Contracting Party to the Convention, the national 
report review process benefits the United States by providing inter 
alia:

  <bullet> An opportunity to review the national spent nuclear fuel and 
        radioactive waste management programs of other Contracting 
        Parties and to benefit from their experience;

  <bullet> A vehicle, through the drafting of the U.S. national report, 
        to help harmonize management and assessment techniques used by 
        DOE, NRC, and EPA's programs associated with the safe 
        management of spent nuclear fuel and radioactive waste 
        management;

  <bullet> An opportunity to promote a stable technical environment and 
        safe regulatory system in developing countries, thereby 
        supporting trade services and products of U.S. companies;

  <bullet> A means to identify possible areas for bilateral and 
        multilateral technical and regulatory cooperation;

  <bullet> An opportunity to influence the development of nuclear 
        safety programs in other countries, through international 
        cooperation on the life cycle management of spent nuclear fuel 
        and radioactive waste; and

  <bullet> A means to help harmonize, in a nurturing forum, 
        international approaches to assessing and managing risks and 
        raising the target level of safety associated with spent fuel 
        and radioactive waste, thus strengthening the worldwide safety 
        culture.

    Question 55. What are the benefits or value (direct/indirect) of 
the Waste Convention to Agreement States and Low-Level Radioactive 
Waste Compacts?

    Answer. Improvements to the national regulatory program from U.S. 
participation in the Convention will carry over to benefit the 
individual U.S. States' and Low-Level Radioactive Waste Compacts' 
regional regulatory programs.

    Question 56. What are the benefits or value (direct/indirect) to 
licensees, industry and utilities?

    Answer. Through U.S. review of other Contracting Parties' national 
reports, the United States benefits from lessons learned and in the 
opportunities which it provides to identify areas for trade in services 
and products, as well as bilateral cooperation in technology 
development.

    Question 57. The United States participated in the Convention on 
Nuclear Safety (CNS) second review process.

  <bullet> What benefits did the United States receive from 
        participation in the CNS review process?

          Answer. As a result of participating in the second CNS review 
        meeting held in Vienna, Austria, April 15-26, 2002, U.S. 
        participants concluded that it was a very important and 
        effective venue for promoting nuclear safety worldwide. 
        Participation in reviews provided wide-ranging benefits to the 
        United States, for example based on interactions with other CNS 
        Parties, the NRC will more closely examine the potential 
        benefits of performing periodic safety reviews of licensed 
        activities as part of its regulatory program.

  <bullet> Has the CNS process been influential on other nations' 
        nuclear safety programs? How?

          Answer. Most significantly and as noted during the conduct of 
        the second review meeting, the CNS process has clearly 
        influenced the safety and regulatory programs in States of the 
        former Soviet Union, such as Russia and Ukraine, in positive 
        ways. Assistance programs in these countries are taking into 
        consideration key goals and objectives identified as part of 
        the CNS process. In addition, based on its participation in the 
        2nd review meeting, the NRC has also determined that additional 
        progress can be made in nuclear regulatory oversight programs 
        of the Russian Federation and Ukraine, and identified the 
        programs of China, Armenia, and Pakistan, as warranting further 
        attention.
          In preparing the national report, each country must 
        demonstrate how it complies with the Articles of the 
        Convention. This exercise alone, documenting how the Articles 
        of the Convention are met, and submitting the report for 
        scrutiny by other Contracting Parties in an international 
        forum, exerts pressure on a Contracting Party To improve its 
        safety practices. But perhaps more importantly is the review 
        process itself where countries must respond to the questions of 
        other Contracting Parties. Two examples will demonstrate how 
        the CNS review process influences signatory countries. One of 
        the major concerns addressed by the Articles of the Convention 
        is the independence of the regulatory body. Many of the former 
        Soviet Union and Eastern European countries reported in their 
        initial 1998 CNS reports that their regulatory bodies were not 
        independent from organizations that promoted nuclear power. 
        However, because of the many questions that were raised during 
        the review process, most of these countries reported 
        significant progress in making their regulatory bodies more 
        independent in the 2001 reports, with hopes to report further 
        achievements on regulatory independence in the 2004 reports. A 
        second example concerns the Russian Federation's schedule for 
        completing safety enhancements at many of its aging nuclear 
        power plants. The 1998 Russian Federation report stated that 
        many safety enhancements would be performed but was vague on 
        the enhancements to be performed at specific plants and 
        schedules for when these enhancements would be completed. The 
        2001 report provided very little detail as well. However, 
        because of the many written questions received from other 
        Contracting Parties during the review process, the Russians 
        provided a complete list of the enhancements for each plant and 
        the schedule for their completion during its presentation at 
        the 2002 CNS national report review meeting.

                   XI. FOREIGN POLICY CONSIDERATIONS

    Question 58. Why is the Waste Convention important to U.S. foreign 
policy interests?

    Answer. The Waste Convention is consistent with U.S. policy to 
support safety as a top priority in the use of nuclear energy 
worldwide; to promote safe operation of spent nuclear fuel management 
and civilian nuclear waste management facilities and radiation 
protection principles. Pursuing common strategies for the handling of 
spent nuclear fuel and radioactive wastes are also harmonious with U.S. 
policy on climate change and promoting a sustainable global 
environment. The Waste Convention is a particularly important 
complement to bilateral and multilateral safety assistance programs, 
because it provides a crucial political mechanism to encourage 
governments to support emerging regulatory organizations and other 
entities responsible for nuclear safety culture.

    Question 59. What consideration does the Waste Convention give to 
the needs of developing countries and countries in transition, 
particularly to the Newly Independent States (NIS) and Central and 
Eastern European countries (CEE), to assist in fulfillment of their 
rights and obligations?

    Answer. The Waste Convention is a particularly important complement 
to these bilateral and multilateral safety assistance programs, because 
similar to the CNS it is an incentive convention. This means that the 
Convention was carefully drafted to encourage early participation by 
countries such as the Newly Independent States and Central and Eastern 
European countries, so that they can adhere without potentially being 
in a state of non-compliance while they further develop their domestic 
infrastructure. As such it provides a crucial political mechanism to 
encourage such governments to become Contracting Parties at an early 
date. It also provides a nexus for technology transfer to assist 
developing countries to better facilitate the transition to more 
effective regulatory infrastructures and waste safety management 
strategies.

    Question 60. What goals and objectives does the United States hope 
to achieve as a Contracting Party?

    Answer. The Waste Convention reflects all of the U.S. goals and 
objectives in the negotiations. The United States will continue to work 
with other countries to promote objectives, consistent with U.S. 
policies and legislative and regulatory framework to:

  <bullet> Ensure commitment to the principles of a worldwide safety 
        culture, through the enhancement of national measures and 
        international cooperation.

  <bullet> Increase international understanding and develop common 
        philosophies on the storage, treatment, and disposal of 
        radioactive waste.

  <bullet> Take appropriate steps to ensure that during the lifetime of 
        a spent nuclear fuel or radioactive waste management facility, 
        radiation exposure is kept as low as reasonably achievable.

  <bullet> Take appropriate steps to ensure no individual or population 
        is exposed to radiation which exceed national standards.

  <bullet> Take appropriate measures to prevent unplanned or 
        uncontrolled releases of radioactive material into the 
        environment.

  <bullet> Assure appropriate corrective measures are implemented to 
        control unplanned or uncontrolled releases and mitigate effects 
        in the event of a release.

  <bullet> Pursue common strategies for the handling of spent nuclear 
        fuel and radioactive wastes harmonious with U.S. climate change 
        policies and the promotion of a sustainable global environment.

  <bullet> Maintain minimal cost to the United States for carrying out 
        Contracting Party obligations under the Waste Convention.

    Question 61. Has other international recognition been given to the 
Waste Convention?

    Answer. Yes. The Waste Convention is of high-level importance to 
other foreign States many of which have signed and/or ratified the 
Convention. The Convention also received support at several of the G-7 
Economic Summit meetings, including mention in the 1997 Denver Summit 
Communique, in addition to reaffirmation at the 1996 Moscow Nuclear 
Safety and Security Summit. An International IAEA Waste Conference was 
held in Cordoba, Spain in 2000, and a second in Vienna in 2002.

    Question 62. What considerations does the Waste Convention give to 
other international instruments, international law, and other 
multilateral mechanisms?

    Answer. The Waste Convention recalls the desirability of 
strengthening the international control system and recognizes 
principles laid out in international instruments, international law, 
and multilateral mechanisms applying to radioactive waste and spent 
fuel, including inter alia:

  <bullet> Basel Convention (1989) on the Control of Transboundary 
        Movements of Hazardous Waste and their Disposal;

  <bullet> Convention on the Prevention of Marine Pollution by Dumping 
        of Wastes and Other Matter (1972, as amended) (London 
        Convention on Ocean Dumping);

  <bullet> Convention on Nuclear Safety (1994);

  <bullet> Convention on Early Notification of a Nuclear Accident 
        (1986);

  <bullet> Convention on Assistance in the Case of a Nuclear Accident 
        or Radiological Emergency (1986);

  <bullet> Convention on the Physical Protection of Nuclear Material 
        (1979);

  <bullet> IAEA Code of Practice on Transboundary Movement of 
        Radioactive Waste (1989);

  <bullet> IAEA Safety Fundamentals, The Principles of Radioactive 
        Waste Management (1995);

  <bullet> International Standards relating to the Safety of the 
        Transport of Radioactive Materials;

  <bullet> International Basic Safety Standards for Protection Against 
        Ionizing Radiation and for the Safety of Radiation Sources 
        (1996); and

  <bullet> Rio de ,Janeiro (1992) UN Conference on Environment and 
        Development (Agenda Chapter 21, Chapter 22, Sound Management of 
        Radioactive Waste).

    Question 63. Does the Convention overlap or duplicate any other 
international Convention or Agreement?

    Answer. No. The Waste Convention is complimentary to:

  <bullet> The Basel Convention (1989) on the Control of Transboundary 
        Movements of Hazardous Waste and their Disposal. Article 1 (3)) 
        specifically excludes radioactive wastes. This Article states: 
        ``Wastes which, as a result of being radioactive, are subject 
        to other international control systems, including international 
        instruments, applying specifically to radioactive materials, 
        are excluded from the scope of the Convention.''

  <bullet> The Convention on Nuclear Safety (1996). The CNS contains a 
        preambular statement affirming the need for a Waste Convention. 
        Subsection (ix) states: ``Affirming the need to begin promptly 
        the development of an international convention on the safety of 
        radioactive waste management as soon as the ongoing process to 
        develop waste management safety fundamentals has resulted in 
        broad international agreement.''

  <bullet> The London Convention on Ocean Dumping (1972, as amended) 
        prohibits the dumping of radioactive wastes. Radioactive waste 
        does not apply to wastes or other materials containing de 
        minimus (exempt) levels of radioactive waste as defined by the 
        IAEA and adopted by the Contracting Parties.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    [The prepared statement of Mr. Stratford follows:]

Prepared Statement of Richard J.K. Stratford, Director, Nuclear Energy 
        Affairs, Bureau of Nonproliferation, Department of State

    Mr. Chairman and members of the Committee I appreciate this 
opportunity to discuss with you the importance of timely Senate action 
on the ``Joint Convention on the Safety of Spent Fuel Management and on 
the Safety of Radioactive Waste Management.'' We greatly appreciate 
your scheduling a hearing on this important Convention. On September 
13, 2000, the prior Administration sent the Joint Convention to the 
Senate for advice and consent. This Administration fully supports the 
Joint Convention and also desires your advice and consent to the 
ratification of the Convention, so that the United States can 
participate in worldwide efforts to ensure the safety of spent fuel and 
radioactive waste management for the benefit of current and future 
generations. A favorable action at this time is necessary, so that the 
United States can join the Parties as they gather this year to 
implement the Joint Convention. Otherwise we will be excluded from the 
process.
    The Joint Convention is a companion convention to the ``Convention 
on Nuclear Safety'' to which the Senate gave its advice and consent on 
March 25, 1999, and which entered into force for the United States on 
July 10, 1999. With the United States' participation, the ``Convention 
on Nuclear Safety'' is successfully raising the level of nuclear safety 
at civilian nuclear power plants throughout the world. It is the goal 
of the Joint Convention to extend similar efforts to spent nuclear fuel 
and waste management facilitities.
    The objectives of the Joint Convention are to achieve and maintain 
a high level of nuclear safety worldwide in spent nuclear fuel and 
radioactive waste management through the enhancement of national 
measures and international cooperation, to ensure that at all stages of 
spent fuel and radioactive waste management there are effective safety 
measures against potential radiological hazards so that current and 
future generations are protected, to prevent accidents with 
radiological consequences and to mitigate effects should such accidents 
occur.
    The United States played a key role in developing the Joint 
Convention, and ratification will ensure our continued leadership in 
its worldwide implementation. The Joint Convention was adopted by a 
Diplomatic Conference convened by the International Atomic Energy 
Agency in September 1997. The United States was the first nation to 
sign the Joint Convention, when the U.S. Secretary of Energy signed it 
at the International Atomic Energy Agency's General Conference on 
September 29, 1997. To date, 42 nations have signed the Joint 
Convention, of which 30 nations have become Parties to it. The Joint 
Convention entered into force on June 18, 2001, after the requisite 25 
nations became Parties, including at least 15 nations that had an 
operational nuclear power plant. The following nations are currently 
Parties to the Joint Convention: Argentina, Austria, Belarus, Belgium, 
Bulgaria, Canada, Croatia, Czech Republic, Denmark, Finland, France, 
Germany, Greece, Hungary, Ireland, Republic of Korea, Latvia, 
Luxembourg, Morocco, Netherlands, Norway, Poland, Romania, Slovakia, 
Slovenia, Spain, Sweden, Switzerland, Ukraine, and United Kingdom. In 
addition to the United States, the following nations have signed the 
treaty, but have yet to ratift, accept, or approve it: Australia, 
Brazil, Estonia, Indonesia, Italy, Kazakhstan, Lebanon, Lithuania, 
Peru, Philippines, and the Russian Federation.
    The Joint Convention is important to U.S. foreign policy. It 
supports safety as the top priority in use of nuclear power worldwide. 
It promotes the safe operation of spent nuclear fuel and radioactive 
waste management facilities and the application of radiation protection 
principles. It is an incentive convention that was carefully drafted to 
encourage participation by countries, such as the Newly Independent 
States and Central and Eastern European countries, so that they can 
adhere to the Joint Convention even as they develop their domestic 
infrastructure. The Joint Convention provides a mechanism for the 
United States to continue to work with other countries to promote 
objectives, consistent with U.S. policies and the U.S. legislative and 
regulatory framework, that ensure the safety of spent fuel and 
radioactive waste management for the benefit of current and future 
generations. By becoming a Party to the Joint Convention, the United 
States will have an opportunity to: review and benefit from the 
experience of other nations, promote and help influence a stable 
tecimical environment, safety programs, and regulatory system in 
developing countries; identify possible areas for bilateral and 
multilateral technical and regulatory cooperation; and strengthen the 
worldwide safety culture, including the management of radioactive 
waste, to minimize the threat of the malicious use of radioactive 
waste, as may occur with disused sealed sources.
    Based on the successful format of the ``Convention on Nuclear 
Safety,'' the Joint Convention establishes a series of broad 
commitments with respect to the safe management of spent nuclear fuel 
and radioactive waste without prescribing specific or mandatory 
standards for its Parties. Parties to the Joint Convention are required 
to take appropriate steps to bring their activities into compliance 
with the Convention's general obligations related to the safety of 
spent fuel and radioactive waste management. However, the specific 
steps that Parties should take are not prescribed but are left to each 
Party's discretion. In addition, the Joint Convention adopts a review 
process similar to that established in the ``Convention on Nuclear 
Safety'' to apply to spent nuclear fuel and radioactive waste 
management activities. Each Party is obligated to prepare a national 
report covering the scope of the Joint Convention and subject it to 
review by other Parties. Such review has proven very successful for 
implementation of the ``Convention on Nuclear Safety.''
    The Joint Convention applies to spent nuclear fuel resulting from 
operation of civilian nuclear reactors, radioactive waste from civilian 
applications, and disused radioactive sealed sources. For such 
material, the Joint Convention seeks to ensure safety is a 
consideration in virtually all aspects, including the legislative and 
regulatory framework, operational radiation protection, management of 
nuclear facilities, decommissioning, emergency preparedness, and 
transport between nations. The Joint Convention does not apply to 
naturally occurring radioactive materials, unless the Party declares 
this material as waste for purposes of the Joint Convention.
    The Joint Convention does not apply to military radioactive waste 
or military spent nuclear fuel unless the Contracting Party declares it 
as waste for purposes of the Convention. The Joint Convention does 
apply to military radioactive waste or military spent nuclear fuel that 
is permanently transferred to and managed within exclusively civilian 
programs. In this way, the Joint Convention ensures that national 
security is not compromised and Parties have absolute discretion as to 
what information is reported from military sources. In the United 
States, military radioactive waste is disposed of at U.S. Department of 
Energy facilities, and military spent nuclear fuel will eventually be 
disposed of in a Department of Energy geologic repository along with 
civilian spent fuel and defense high-level waste. The U.S. national 
report will cover the military radioactive waste that has been 
transferred to an exclusively civilian program, and will not cover 
military spent nuclear fuel that has not been transferred to and 
managed within exclusively civilian programs. The Joint Convention will 
not affect U.S. military operations in any way, nor will classified 
information be included in the U.S. national report.
    The Joint Convention is non-controversial and has broad support 
from U.S. industry groups and U.S. states. It has the full support of 
the Department of State, the Department of Energy, the Environmental 
Protection Agency, and the Nuclear Regulatory Commission. There is no 
overlap or duplication of efforts with any other international 
convention or agreement. In addition to the ``Convention on Nuclear 
Safety,'' the Joint Convention is complementary to the ``Basel 
Convention on the Control of Transboundary Movements of Hazardous Waste 
and their Disposal'' and the ``London Convention on the Prevention of 
Marine Pollution by Dumping of Wastes and Other Matter.''
    As a Party to the Joint Convention, the United States would be 
represented by a delegate, a representative of the Department of State, 
with alternate delegates from the Department of Energy, the 
Environmental Protection Agency, and the Nuclear Regulatory Commission. 
Consistent with its foreign policy responsibilities, the State 
Department will lead U.S. representation at meetings of the Parties and 
coordinate activities with Congress. The Department of Energy is the 
lead agency responsible for collection of information and preparation 
of the U.S. national report and technical coordination with the other 
agencies, including review of other Parties' national reports. The 
Nuclear Regulatory Commission and the Environmental Protection Agency 
will provide information on the regulatory perspectives in the U.S. 
national report and will participate in reviews of other Parties' 
national reports. An interagency working group has been established to 
coordinate Joint Convention activities.
    The United States has taken the initial steps to prepare a national 
report in anticipation of becoming a Contracting Party. We do not 
envision any changes in our regulatory programs resulting from the 
Joint Convention. However, it is likely that information received 
through the constructive review and information exchange with other 
nations will help with our continuous improvement process.
    During the national report preparation process, the Department of 
Energy will use existing information so that there is no burden on 
governmental or commercial spent-fuel and waste management activities. 
The report will follow a format arrived at by consensus of the Parties. 
The Department of Energy will utilize information from existing 
sources, e.g., Spent Nuclear Fuel Database, Central Internet Database, 
Manifest Information Management System, and commercial spent fuel 
information available from the Office of Civilian Radioactive Waste 
Management.
    From December 10-14, 2001, the Joint Convention Parties convened a 
meeting in Vienna, Austria, to take the first steps in the reporting 
process. The United States was not in attendance because we had not 
ratified the Convention. During this meeting the Contracting Parties 
reached consensus on the procedures, report preparation schedule, 
report format, and review process details.
    An organizational meeting of the Parties is scheduled for April 7, 
2003. This meeting is significant because it will determine the makeup 
of the review groups and the selection of a meeting Chairman and review 
group Chairmen. The first Review Meeting is scheduled to take place 
November 3, 2003. We anticipate that the Parties will be organized into 
sub-groups of five to seven nations. Members of the sub-groups will 
exchange reports for review and have an opportunity to ask questions 
and request clarification during the sub-group meetings. The process 
will allow written questions and comments to be made on all national 
reports, whether in the assigned sub-group or not, prior to the review 
meetings. Results of the sub-group meetings will be reported to a 
plenary review meeting, at which time all Parties will have an 
opportunity to further discuss the national reports. The plenary 
meeting will develop a summary review report for public release, 
addressing the issues discussed and conclusions reached without 
providing details from national reports or review debates. Following 
completion of this process, the next review meeting will be held within 
three years.
    Let me next address the amount of resources required and 
availability of reports. Costs incurred once every three years maybe 
considered to fall into three categories: (1) preparation of the U.S. 
national report, (2) preparation and participation by the four agencies 
in organizational and review meetings, and (3) review and analysis of 
other national reports. We expect to absorb these costs within each 
agency's budget and that expenditure will occur on a 3-year cycle.
    With regard to availability of information, the United States will 
receive national reports from members of the review subgroup and any 
other reports it requests. We will request a copy of all national 
reports be provided to the United States. Reports provided by Parties 
will be available to the Committee and General Accounting Office 
subject to any confidentiality conditions expressed by the Parties. 
Once submitted, the U.S. national report will be publicly available.
    The Parties to the Joint Convention are proceeding with the process 
of preparing national reports for the first review meeting. The 
Administration seeks advice and consent to the Joint Convention so that 
the United States can participate fully with the other Contracting 
Parties to accomplish the goals of this Convention. An organizational 
meeting of the Parties is scheduled for April 7, 2003. Although the 
United States cannot become a Party by that time, it expects to 
participate in the meeting if it has ratified the Joint Convention by 
that date. We are eager to continue the important U.S. role in 
promoting safety in worldwide spent nuclear fuel and radioactive waste 
management activities by fully participating in this process.
    Thank you for the opportunity to discuss the Joint Convention, and 
let me introduce my colleagues from the Department of Energy, 
Environmental Protection Agency, and Nuclear Regulatory Commission, who 
are here with me to answer any questions that you may have.

    The Chairman. Thank you very much, Assistant Secretary 
Wolf.
    We will have a first round of questions with 7 minutes for 
Senators, and please start the clock on my questioning with 
this first query of the Secretary.
    You have addressed the issue of extending the authority of 
the Department of Defense--but, likewise, the Department of 
State--for using NDF funds or the CTR program, Cooperative 
Threat Reduction, outside of the former Soviet Union. Let me 
just ask right now, is the NDF program bound or limited by 
statute from pursuing projects outside the former Soviet Union 
now? What is your reading on that authority, presently?
    Mr. Wolf. Sir, our view is that, based on the Foreign 
Assistance Act, we have a great deal of authority to act around 
the world. There is some overlap, as I said, because the 
authorities have evolved over time. There were the original 
Nunn-Lugar authorities. They were complemented at about the 
same time by the Freedom Support Act and then revisions to the 
Foreign Assistance Act. I kind of remember sitting behind the 
Deputy Secretary of State when he appeared before you a couple 
of weeks ago and he said something about KISS, ``Keep it 
simple, sailor.'' Our authorities are not necessarily simple, 
and straightening them out and making them clear is something 
that is always possible.
    We have the authority. We are acting around the world with 
NDF everywhere from the Caribbean to the former Soviet Union to 
other parts of the world, as well--South Africa and other parts 
of the world, as well.
    The Chairman. Well, I appreciate that point. There have 
been numerous programs, as you say, initiated at various times 
with various degrees of enthusiasm in different Congresses. The 
attempt on the part of the administration, State and Defense, 
Energy--all involved in attempting to rationalize this, but 
even more important, to give the President, finally, as 
Commander in Chief, the ability to deal with these 
proliferation problems wherever they are. It is very, very 
important. It would seem to me to be a no-brainer, but 
nevertheless, there has been difficulty. I trace it, in part, 
to some of the controversy that attended the original Nunn-
Lugar debate. There were, in those days, Senators who were 
almost afraid this would spread like a plague, this whole idea 
of dealing with nonproliferation. They wanted to limit it to 
the former Soviet Union and not let it get out of hand and put 
in place a number of controls. Now, fortunately, other programs 
have been initiated, as you pointed out, either prior to that, 
with the Freedom Support Act, or subsequently with other 
situations, that are not so constrained.
    But we are hopeful, really, to have legislation this time, 
and I appreciate your support, which you have explicitly 
stated, to rationalize this and to work specifically with those 
programs in which the Department of State, really, has control 
and leadership.
    Mr. Wolf. Thank you, Mr. Chairman. I would make two points.
    One, on the Cooperative Threat Reduction programs 
themselves, we think that authority, if it is to be extended, 
for instance, beyond the former Soviet Union, needs best be 
vested in the President to decide which programs, which 
agencies, he would use.
    The Chairman. Good point.
    Mr. Wolf. In terms of our own programs, and especially the 
NDF and our export control money, as you could see from the--on 
export controls, as you could see from the chart, we are 
working, we are extending it, we are moving export controls to 
a very active dialog and training in India and Pakistan, we're 
working in the Baltic and in the Mediterranean, and we're 
moving to Southeast Asia. So we need to be clear as can be that 
that is the right thing to be doing.
    The Chairman. Yes.
    Mr. Wolf. And frankly, the problems are not limited to the 
former Soviet Union anymore, and we are going where the 
problems are. And the work that my Bureau--and working with 
Customs and Homeland Security and a variety of others, we are 
going out to meet the problems head on. That is our first line.
    The Chairman. That is a very important point, and that is 
why I wanted to underline it.
    Mr. Wolf. Thank you.
    The Chairman. And second, the State Department, as you have 
pointed out, has requested a provision in 2004 allowing for 
permanent annual waiver authority for Cooperative Threat 
Reduction funding restrictions. Obviously, we support that, but 
I would just ask you, from your own administrative experience, 
what is your estimate of the amount of time your staff must 
dedicate to the completion of these waivers or to the 
examination of all the provisions that you must weigh to begin 
with?
    I am just simply curious, because during this past year, as 
you will recall, moving through the Shchuch'ye chemical weapons 
business, this seems to have required an abnormal amount of 
time in the administration at all points. And I do not fault 
anyone who was attempting to do all those things that were 
legally correct. In the meanwhile, not much destruction of 
chemical weapons or removal of dangers occurs, even while our 
own bureaucracy rumbles on. To the extent that we can minimize 
this, obviously we must. Can you give, anecdotally, some feel 
of why you have asked for permanent authority and, even if you 
get that, how much time is going to be required to fulfill the 
requirements that you still have?
    Mr. Wolf. Well, sir, that is a good question. I think the 
reason why last year was complicated was, in part, because we 
decided, for the first time, that we could not actually certify 
and that we needed to have authority to waive that we did not 
have. And that whole process of deciding where we were and 
where we were going to go and then coming to the Congress 
created a kind of a logjam, and that came back to us as we need 
this permanent authority.
    We think that there is a utility in the certification 
process that focuses our attention and the attention of 
policymakers in the United States, but it also rivets the 
Russians and those in the former Soviet Union with whom we must 
work. So the certification process is actually kind of like an 
annual audit process, and it is useful. But these programs are 
in our national interest. We do not do them just as a kind of 
charity, and we need to be able to move on. But we use this 
process as part of our diplomatic leverage.
    That said, you asked, How long does it take, and it takes a 
long time. We start, I think, with Russia in the late summer, 
in August, and we stretch that out until nearly Christmas, and 
then we start with the other countries and we take another 4 
months to do them. First we do the statements of fact, and then 
we do the interagency clearance, and then if there is a 
problem, it gets fought out at the various policy levels, and 
finally it gets to the Secretary and the President. But it is 
labor-intensive. I am not sure--we look for ways to re-engineer 
the process, but we haven't--the interagency process has been 
looking to be re-engineered for the last 227 years or 
something.
    The Chairman. I have expressed to the National Security 
Advisor, Dr. Rice, some concern about the national interest in 
all the certification process. I appreciate that it is good to 
have an audit trail and for everybody to be observant of what 
Russian friends are doing or not doing, but the dangers of all 
this seem to me to be very substantial. Having witnessed what 
occurred, whatever the reasons last year, I think this was a 
very, very severe problem. Now, I took it up directly with the 
President of the United States. He thought it was a severe 
problem--it occurred in July. He directed Dr. Rice to get on 
with it. And finally, in January, after all the toils of 
bureaucracy plus congressional scrutiny and all the rest of it, 
something finally happened.
    Now, this leads me to think that at least maybe our 
legislative procedures should be just to simply eliminate the 
certification to save you all the trouble of the waivers. If 
they cannot get done in days, as opposed to weeks or months, 
this really debilitates whatever abilities we have. I mean, we 
can talk a good game about destruction of weapons of mass 
destruction, surveillance and what-have-you. In fact, we 
ourselves are the enemy simply because of fastidiousness in 
many departments that are experiencing arguing, hassling, all 
sorts of ideological views floating in from the past and the 
future. That is bad news.
    So I have not made up my mind yet which way to proceed 
legislatively, but I just simply want to take the opportunity 
of this hearing--see, I think this is really an open issue. I 
think it is a very serious issue.
    Now, last year, when the administration decided not to 
certify, that was a surprise. That kind of surprise we really 
do not want to have too many of. Moving through this, through 
my own determination, I think is something that you will 
appreciate. We went to the President and we are talking to the 
President, and this President believes in this program. I am 
hopeful that there is not ambiguity down the line as we proceed 
on this.
    Mr. Wolf. Thank you, Mr. Chairman, and I respect your 
views. And I know there would be a number of people in the 
Nonproliferation Bureau who would applaud not having to write 
these papers.
    But let me just make a counterpoint. The issues that we 
deal with in the certification process are not trivial. They 
have to do with whether or not there is responsible behavior, 
both on the nonproliferation side, in terms of compliance with 
international obligations, the Chemical Weapons Convention, the 
Biological Weapons Convention; and these are problem areas, as 
you well know. And then there are a variety of other issues, 
including human rights, which, in several states of the former 
Soviet Union, are not trivial issues.
    We try to weigh all these, and I guess I take your point 
that, it is obvious, you were surprised by our decision not to 
certify. But the facts of the case were pretty clear to this 
administration that, at some point, you just cannot--we are 
building a bridge too far. And better to be candid in our 
assessment, but then to turn to the Congress and say, But we 
need legislative relief. We need help. We need, in our own 
interests, to be able to continue these programs. That is why 
we came to the Congress. We appreciate the authority that we 
got last year and we hope to have it extended, because, to be 
honest, I do not think we have seen enough progress on some of 
these key issues of compliance with international obligations 
for us to simply say, Well, we are past those hurdles.
    But yours is a fair point; we do not want these programs on 
a start-stop basis. We want to get the plants built. We want to 
get the chemical weapons destroyed. We want to be sure, when we 
destroy chemical weapons, that we are actually destroying all 
of them, and not only the old stuff, but anything that might be 
new, as well.
    The Chairman. Well, I appreciate that. And I want to let my 
colleagues have their 7 minutes, but let me just, while this 
point is fresh, see. Let us take the worst-case scenario. 
Namely, we find human rights violations somewhere in Russia. 
And I suspect many of us who I have visited, as you have all 
the time, find a lot of them, so you have got a list.
    And then are we finding accessibility to all the biological 
laboratories? No. You know, I have talked in this committee 
about having a real time getting my plane to land out there in 
Kirov. So this, as I personally experienced, is not only a 
hypothetical situation.
    Likewise, we have not received the anthrax report from 
Obolinsk. We paid for it. It is ours. We protested to the 
Defense Minister of Russia--you cannot go much higher--and he 
is still looking at it.
    Now, having said that, does this mean, then, that we stop 
destroying weapons at Shchuch'ye, which is effectively what 
happened? In fact, we did not start. We do not have the thing 
up and ready yet. Who are we showing what? Do we stop worrying 
about biological weapons? Do we gum up the works at Svrotykha 
so that, ad seriatim, four missiles a month are not destroyed 
because back here we are still pondering over these things? 
They are not mysteries.
    Now, the question is seriousness about arms destruction and 
security. Now, all of us are very concerted on that issue. 
Unanimous. But to the extent that we decide, because of 
intramural arguments, to frustrate all of this, I think that is 
very serious. It is a national security problem, and I pose it 
that way. And I think it is important to each of the bureaus to 
have their say and interject their views, and we want to hear 
all of them, but we want action. The American people want the 
weapons destroyed, as opposed to an intramural argument going 
on here within the State Department or NSC or Defense.
    So, having said that, I pass along the baton to my 
colleague, Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing. And of course, it is an honor to be at such a hearing 
with a chairman who has played such an historic role on these 
nonproliferation issues. Thank you.
    Assistant Secretary Wolf, I would like to just ask a few 
questions. I am very concerned about the prospect of a U.S. 
foreign policy driven by this doctrine of preemptive military 
action, or I think it is more accurately described as 
preventative military action. And I am also concerned about 
depending on such a dangerous doctrine to pursue our 
nonproliferation goals.
    As I have watched the United States policy develop with 
regard to Iraq and North Korea recently, I am concerned that 
the rest of the world is starting to learn the following lesson 
about U.S. policy, and I think you might have heard me mention 
this at the previous hearing: If you acquire nuclear weapons, 
you can be free from the threat of military action; but, if 
not, you may be subject to a preemptive invasion.
    This scenario, with its emphasis on preemption, sets out 
real incentives for proliferation and pursuit of weapons of 
mass destruction as quickly as possible.
    How can sending that signal possibly make the United States 
more secure? And I guess I would also like, from your own 
personal perspective, how does this focus on preemption in 
these matters affect your particular Bureau?
    Mr. Wolf. Thank you, Senator.
    I think that that tends to oversimplify the array of 
policies, programs, practices that we actually use in the 
nonproliferation area. In my oral statement and in my written 
statement, I have talked about a variety of things that we are 
doing nationally, bilaterally with countries, pluralaterally in 
groups like the Missile Technology Control Regime, or the 
Australia Group, multilaterally in agencies like the 
International Atomic Energy Agency.
    We can have a long discussion about where Iraq is today. I 
tend to measure my time on Iraq from August 1, 1990, when I was 
the Principal Deputy Assistant Secretary of State for 
International Organizations, and I was called back to the State 
Department to begin the diplomatic effort that led to Desert 
Shield/Desert Storm. I helped to draft Resolution 687 and a 
whole successor set of resolutions. So my perspective on Iraq 
and where that is, is different.
    On North Korea, the administration policy is not that if 
you have nuclear weapons, you can keep them. The administration 
policy is for a denuclearized Korean Peninsula, and we are 
pursuing that by patient, but very persistent diplomacy, 
multilateral diplomacy, and we are working on it.
    But the policy of preemption or counterproliferation is one 
of the tools. As I mentioned, we use a variety of tools. We try 
to use diplomacy. We try demarches. We use sanctions. We make 
clear to countries and to entities abroad that if you sell to a 
proliferator, that is your choice; but if you sell to the 
proliferator, you will not sell to the United States. We use a 
variety of things.
    But interdiction does have a place in our policy. We will 
try to do it multilaterally, and we will try to do it with 
various kinds of authority. But in some cases, to protect 
Americans, to protect the vital national security interests of 
this country, the President believes that he has a 
responsibility, his obligation as, you know, part of the oath 
of office, to take the actions that are necessary.
    So counterproliferation is an important part of the tools 
that we use. If the other tools work, if other countries join 
with us, in terms of concerted diplomacy--if the European 
Union, for instance, raises the bar in their dialog with Iran 
and--they have a political and economic dialog with Iran, but 
here we now have Iran with a visible program that, to us, can 
only seem to lead to fissile material and nuclear weapons--we 
want the Europeans, we want Asians, we want all of our 
partners, Russia and China, to join with us in exercising 
rigorous diplomacy to stop that before it gets to the nuclear 
stage.
    Senator Feingold. Well, let me ask you--I recognize that 
obviously the doctrine of preemption is not all your doing and 
that there are these efforts. What I am trying to get at is, 
are you not experiencing some problems with the administration 
having enunciated this preemption doctrine with some push back 
from some of the entities you are working with, some of the 
countries you are working with, and when, in particular, it 
appears, at least, that we have a different approach vis-a-vis 
Iraq, versus North Korea--is there not some problem with the 
signal that the preemption doctrine sends?
    Mr. Wolf. Well, I think those are several different 
questions. We are working with our partners, like-minded 
countries. For instance, in the Australia Group, in 2002, we 
reached agreement to include terrorism as one of the organizing 
definitions of the Australia Group so that chemical and 
biological weapons, technologies, precursors, and whatnot that 
would go to terrorists are as much of concern to Australia 
Group countries as those which would go to states that are 
seeking to proliferate.
    We got agreement on controls on intangible technologies. We 
got a catch-all provision. In the MTCR, we focused on unmanned 
aerial vehicles. We have a joint action program that is 
designed to keep terrorists from getting these dangerous 
technologies. We are working in the Zangger Committee related 
to the NPT and in the Nuclear Suppliers Group.
    Senator Feingold. My time is running out.
    Mr. Wolf. So all I am saying, sir, is that your focus on 
preemption is only one of the things that we are doing. Iraq is 
the end of 12 years, 17 resolutions, defiance of international 
obligations, human rights violations, possession of weapons of 
mass destruction. That is just--that is where we are.
    Senator Feingold. Mr. Secretary, it is actually not my 
focus on preemption. It is the administration's focus on 
preemption that has muddied the waters and, I think, caused 
some serious perception problems around the world for our 
country. And to simply list the things that you are doing, 
which I think are constructive, and not acknowledge the fact 
that this has caused significant confusion around the world 
with regard to international law, our own law, and our past 
practices, I think, ignores a reality, which is that there is a 
signal that has been sent that I think may well undercut what 
you are trying to do. I hope that is not the case.
    Mr. Wolf. Well, thank you, Senator. I take the criticism. I 
accept it as valid criticism. We may need to do a better job, 
we obviously need to do a better job, of explaining the variety 
of different things that we are doing. But we are trying to 
develop a well-rounded set of tools, a variety of tools, 
tailored to individual circumstances. North Korea is not like 
Iraq. Iraq is not like Iran. Iran is not like the next one. And 
we are trying to deal with each one of these. We have to deal 
in different ways. The coalitions we can put together for each 
circumstance are very different. And what we can do with our 
friends and what we can do with people who are not so friendly 
differs according to the situation.
    Senator Feingold. Well, I take your point on that and I 
thank you for your testimony.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Nelson? Very well. Senator Corzine.
    Senator Corzine. I have got a series of queries. Thank you, 
Mr. Chairman. I would reiterate what Mr. Feingold said. It is 
an honor to be here with you when you are dealing with a 
subject that you have committed so much of your career to so 
effectively. We are pleased that we are now considering it in a 
very troubled time. I welcome the Assistant Secretary, as well.
    Continuing on with this policy, concern about policy of 
preemption, and acknowledging that there are a variety of other 
methods which we are using to deal with proliferation, one of 
those is to work with the Atomic Energy Agency. And I think I 
heard in your testimony, as well as last week, the 
administration asked for more rigorous inspection processes, 
particularly as it relates to Iran, where I think the concerns 
that you have verbalized here this morning and otherwise are on 
the table. We have heard consistently from the IAEA and from 
Mr. ElBaradei that funding is an issue. I think last summer, he 
stated clearly, to operate effectively, he would need an 
additional $30 million in funding resources. They certainly 
have been pressed since that time in the inspection process in 
Iraq. I am curious why we are maintaining level funding as our 
request in 2004, if I am reading the budgetary request 
properly. It is a flat voluntary $50 million in membership 
dues. You would think that this is one of those instruments in 
that variety, besides the policy of preventative action or 
preemption, as we are talking about. I would love to hear how 
you are responding to that and why that is not more.
    Mr. Wolf. Thank you, Senator.
    That number is only one of the many numbers on the table, 
and I would like to say that we--in fact, it was when I was 
confirmed, in 2001, one of the issues that was raised then to 
me was the whole question of funding for the IAEA. We did a 
fairly exhaustive study last year--exhausting, too, Senator--
but looking at the whole safeguards question, and the United 
States has been leading an initiative now for the next biennium 
for the budget for 2004/2005, which will be considered later 
this fall, to increase the safeguards amount. The Director 
General's number of--well, there is $30 million, but I think it 
is a little less than that--but, in any event, the Director 
General's number is a direct reflection of the fact that we put 
the number, $30 million, out on the table to hire more 
inspectors, to buy more equipment. When you hire people, it 
needs to be done in the regular assessed budget; it cannot be 
done with voluntary contributions that come and go each year. 
The assessed contributions are a budget obligation. But----
    Senator Corzine. Well, I would, sort of, take the line of 
questioning, though, that the chairman talked about with regard 
to the issue that he meant. This is an issue that is clear and 
present, and waiting around to make sure that we have a 
response to----
    Mr. Wolf. We are not. We have given, in the last year, 
nearly $8.2 million for the $12 million that the Director 
General wants for nuclear safety. Secretary Abraham announced 
$3 million more last week at the conference in Vienna for 
better protection of radioactive sources. And we are looking at 
a variety of ways in which we might use, for instance, our 
money in the Nonproliferation and Disarmament Fund to work with 
IAEA. We are not necessarily restricted to the $50 million that 
is in the request before this committee. We have a variety of 
other sources at the Department of Energy that they are doing 
either in the trilateral program with Russia and the IAEA that 
we can use. And so we are plussing-up this amount. And at the 
same time, we are being pretty active in terms of pressing our 
friends and colleagues around the world to pony up more money. 
As you can imagine, if, of $12 million requested by the 
Director General, we have provided $8 million, then that says 
that the rest of the world has not quite stepped up to the bar.
    We are going to use a variety of sources. We see IAEA as a 
partner, but not necessarily the sole implementor. If we are 
going to move fast, we are actually going to do a lot of things 
earlier, and we will use the Nonproliferation and Disarmament 
Fund because the IAEA cannot get there fast enough.
    Senator Corzine. Just an observer and listening, the 
comments you made in your opening remarks, the request to 
enforce more rigorously, and the patent need that I think is 
obvious or at least a concern to the American people with 
regard to Iran and some of the other countries that you talked 
about, having this inspection process be full and thorough and 
efficient and effective is something that I think is one of 
those tools that hopefully preempts preemptive policies.
    Let me ask, in another light, one of the initiatives that I 
think people were pleased about. I think we passed, a 100 to 0 
in the Senate last week, the Moscow Treaty. What kinds of 
concerns do you have? And is this, with actions this week where 
the Duma, unfortunately, decided to hold off its vote, is that 
at all related to the kinds of concerns that Senator Feingold 
talked about, do you believe, in response to a policy of 
preemption? And does it give indication that others may take 
other policy prescriptions when they feel that they are 
incented to protect themselves against that kind of 
preventative action?
    Mr. Wolf. I do not know, Senator. I guess I do not presume 
to speak with a great deal of knowledge either about this part 
of Russian politics or about Duma politics. And I believe that 
Russia--if one draws a trend line, I am confident that Russia 
will find that the Moscow Treaty is in its national interest, 
as we felt it was in ours, and we welcome the vote by the 
Senate, to ratify. And so we are very hopeful that the 
consideration that was scheduled for this week will come back 
fairly quickly.
    To the question of the impact of what may or may not happen 
on Iraq in the coming hours, days, whatever, the President, I 
think, has laid out a case. Others have laid out a case. This 
is not a spur-of-the-moment decision. As I was suggesting a few 
minutes ago, this is part, or hopefully the end, of a 12-year 
line of defiance and the end of a threat to the people of Iraq, 
to Iraq's neighbors, and to each one of us, as well.
    Senator Corzine. Thank you.
    The Chairman. Senator Nelson.
    Senator Nelson. Mr. Chairman, thank you, again, for your 
personal example that you have set for all of us on this issue 
of nonproliferation. It is a pleasure to be a member of your 
committee.
    I think there is broad agreement that the interests of the 
United States are considerably threatened by North Korea, and I 
think there is broad consensus that the United States simply 
cannot allow North Korea to continue to build nuclear weapons 
and potentially become a nuclear proliferator and a nuclear 
peddler. So, for the committee, would you lay out basically 
what we need to do in the very near future to defang North 
Korea as a nuclear power?
    Mr. Wolf. Thank you, Senator.
    We are doing several things. Some we have done, others are 
part of diplomacy that I think has been explained last week by 
Jim Kelly. I think it was before this committee.
    One of the things that we did several months ago was to go 
to the Nuclear Suppliers Group to find agreement on lists of 
items that would support--lists of items that we thought North 
Korea would seek to procure outside North Korea, and to raise 
heightened alert among members of the Nuclear Suppliers Group 
and also others who could provide these kind of vital 
technologies. And the effort will be to cutoff the flow of the 
goods that they need to move their program forward.
    Obviously, the big play, we went to the International 
Atomic Energy Agency in January, and the Board of Governors 
found failure to comply with safeguards and referred it to the 
Security Council and we are in active discussions in the 
Security Council on what the Security Council may say and do in 
the coming weeks.
    We are also working--the Secretary has worked on his trip 
to Asia 2 weeks ago, he worked when he was in New York last 
week, in consultations with key Foreign Ministers on trying to 
put together this multilateral framework among the concerned 
countries that can help us to find the peaceful diplomatic 
solution that we are looking for.
    The variety of other measures that the United States has 
taken, I am not the best expert to talk about the contingencies 
for which we prepare.
    But I think it needs to be real clear that the President's 
determination, the United States' determination, but the 
determination of North Korea's neighbors, as well, is that the 
end state needs to be a Korean Peninsula that is denuclearized. 
And we are trying to keep that coalition together. This is one 
where we are not jumping out on some policy of preemption, and 
we are working very hard with groups of countries and with the 
international organizations and the international system.
    You know, one question gets us for trying to preempt, and 
the next question gets us for not trying to preempt. We are 
trying to balance. This is a difficult situation. We have a set 
of policies. We are pursuing them patiently and persistently, 
and we are determined to see a denuclearized Korean Peninsula.
    Senator Nelson. All right, Mr. Chairman, I just want to 
critique this. The Assistant Secretary has listed five reasons, 
and I think that it would be this Senator's position that, 
first of all, you have to make up your own mind, that, at the 
end of the day, that North Korea is not going to have nukes. 
And that has to be stated. That is going to be the policy. And 
at the end of the day, that is going to happen.
    Mr. Wolf. Agreed.
    Senator Nelson. But that needs to be very clearly 
communicated. You have mentioned five areas. You are working 
with nuclear suppliers, you are working with the International 
Atomic Energy Agency, you want to work with the U.N. Security 
Council, you are working in your diplomatic efforts through the 
multinational contacts, and that you are working with Korea's 
neighbors. All of those five are very important. But if you 
make up your mind that, at the end of the day, they are going 
to be de-nuked, you have got to keep the military option on the 
table and you have got to engage them in every possible way, 
diplomatically. And if they say, We want to talk one on one, 
then there is no reason of pride or past history that you 
should not engage them at that level, as well, if, at the end 
of the day, where you want to be is a non-nuked North Korea. 
You do not want to hear that, because you have been given 
instructions that you are not to engage one on one. That is why 
I think it is not serious that, at the end of the day, you all 
have made up your minds that you are going to defang North 
Korea. And the potential devastation to the interests of the 
United States seems to me to be so apparent, for them to remain 
a nuclear power and then to become a nuclear peddler, that it 
just--I do not know why we are going through these kind of 
semantic games and diplomatic dances.
    Share with me, help clarify, some why.
    Mr. Wolf. Thank you, Senator, and thank you for reminding 
me of something that I should have said.
    I think it is very clear that I was saying no nuclear 
weapons on the Korean Peninsula, but let me be very clear, No 
nuclear weapons. That is the end state we want.
    And thank you also for reminding me, because it is part of 
the stated policy and it is also in my written testimony, all 
options are on the table. But the course that we are on is a 
diplomatic course. And the administration has had intense 
discussions about how we might proceed forward. And it is our 
view this is not the U.S.' problem, and as much as Pyongyang 
might like to bilateralize the issue, we are going to work with 
South Korea and Japan, and we are going to work with the other 
members of the P-5, that everybody has to share in creating a 
course through this, and everybody has to have a vested 
interest in the outcome of it.
    We have tried alternatives before. We tried the bilateral 
before. We tried in 1994. The Agreed Framework. North Korea 
violated their agreement with us. It did not matter--you know, 
to the rest of the world, Well, gee, that is too bad. This 
time, wherever we go, we want to be sure that there is buy-in 
by the neighbors, buy-in by the other major countries that have 
an interest in the peace and security of the Korean Peninsula, 
have the same interest that you have expressed in ensuring that 
North Korea not be a nuclear peddler. And this is the course we 
are on. We are trying to create this multilateral path toward 
dialog.
    You know, you do not see progress until there is progress. 
And we are trying very hard, and sometimes we see some 
favorable augurs and sometimes we do not, but we are going to 
be patient, we are going to be persistent. The end state is a 
denuclearized Korean Peninsula. All options are on the table, 
but that is not the path we are going down now.
    Senator Nelson. Well, you have my good wishes and my hopes 
and my prayers for you. I think that there is nothing more 
important at this point, besides us going after the terrorist 
networks, to get the situation straightened out with North 
Korea. Otherwise, we are going to rue the day.
    We know they are peddlers. Look at what they are trying to 
do with their rockets. Why we did not, when we intercepted the 
rockets going to Yemen, keep those is beyond me, because it 
just fosters this image that they can do what they want, and 
now the next step is to start peddling nuclear material. And 
this is just so devastatingly important to the interests of the 
United States, and I just do not know why you all would not be 
engaging one on one.
    But I am a Senator; I am not President. If I were, I would 
be doing something about it, but, Mr. Chairman, I am not 
running for President.
    Mr. Wolf. Thank you, Senator.
    The Chairman. Well, thank you very much for that line of 
questioning.
    I will not prolong, but we did have a good hearing with 
Assistant Secretary Kelly, and he was in the audience two 
nights ago when I was privileged to address the Heritage 
Foundation in Asian Studies' 20th Anniversary and review once 
again the North Korean negotiations. And I suppose, just simply 
for sake of argument, there may be a difference between 
bilateral talks and direct talks, but within the context of 
other people sitting around the table or in the room, however 
we can arrange it. I would hope that that has not been ruled 
out, and I appreciate the Senator, once again, pursuing that.
    I want to pursue one more thing while you are here, 
Secretary Wolf. I would like to get your views on the Jjoint 
Convention on the Safety of Spent Fuel and Radioactive Waste 
Management currently being considered by our committee. We have 
been working closely with the State Department and come to an 
agreement on a resolution of ratification that protects Senate 
prerogatives while providing our advice and consent to 
ratification. It is my hope the treaty can be ratified before 
an April 6 organizational meeting of the parties. Ratification 
prior to this date will permit the administration to influence 
the organization of the peer-review process and fully 
participate in the November 2003 meeting. And I have expressed 
my thanks to Senator Biden and his staff for working closely 
with staff on our side to meet this goal.
    Let me just ask, What is the purpose of the Joint 
Convention? And why is the convention important to United 
States foreign policy interests?
    Mr. Wolf. Thank you, Mr. Chairman, and I will make a brief 
comment. And if I might ask Dick Stratford, who actually was 
our chief negotiator and the architect, to join me at the 
table, I think he will be able to do a lot better with the 
details than I.
    The Chairman. I would ask him to come forward.
    Mr. Wolf. But as you say, it is designed to achieve a high 
level of safety for spent fuel and radioactive waste, and it 
matches and is part of the--you know, it matches the Convention 
on Nuclear Safety. This is the back end of the front end that 
we have been talking about. It is consistent with our policy to 
support safety as a top priority. It is one of the five goals 
that I have in the Nonproliferation Bureau, is to ensure that 
nuclear power can be used safely. But if it is to be used 
safely and if the public is to have confidence, we need to have 
some processes and some practices that show that the operators 
are, in fact, operating in a safe way.
    But if I might defer to Mr. Stratford, he might make 
additional comments.
    The Chairman. Yes. Mr. Stratford.
    Mr. Stratford. Thank you, Mr. Chairman.
    Mr. Chairman, just for the record, my name is Dick 
Stratford, and I am the Director of Nuclear Energy Affairs in 
the Nonproliferation Bureau. I was the U.S. head of delegation 
for negotiation of both the Waste Convention and its 
predecessor, the Nuclear Safety Convention.
    In brief, what we tried to do was to establish an 
international obligation to create a regulatory regime for 
waste management around the world and then create an obligation 
for countries to prepare national reports, which, in essence, 
say, ``This is how we are going about meeting those 
obligations,'' and then to establish a peer-review system for 
the review of those reports.
    It turns out that the Convention on Nuclear Safety, to 
which we are a party, has done that very well, and I think my 
colleagues at the Nuclear Regulatory Commission, in particular, 
would say that they were impressed with the peer-review process 
and it gave them an opportunity to have a very strong input on 
programs of other countries. If we are a party to the Waste 
Convention,, we will have the opportunity to do the same thing 
this fall at the November meeting of the parties.
    So, in short, what it does is gives us a shot at taking a 
good, hard look at what the other parties are doing in terms of 
dealing with radioactive waste and spent fuel.
    The Chairman. Well, I thank you for that answer. I 
congratulate you on your work as our chief negotiator. And I 
think it is a constructive and positive development. And, as I 
have admitted, I wanted to take advantage of the presence of 
both of you today to have this testimony for the record, 
because--I will consult with the distinguished ranking member, 
Senator Biden, but I suspect it would be our hope to progress 
with this at a business session of the committee in the near 
future to meet the deadlines that you have stipulated.
    Mr. Wolf. Thank you very much, and we thank you for your 
support and Senator Biden's in the variety of things that we 
are doing. I know the passion that you have for 
nonproliferation. I often go around in other countries saying 
one of the problems we find is that there is not enough emotion 
and enough passion in the discussion that we have with other 
nations. They deal with it almost pro forma, but I do not think 
I find that, Mr. Chairman, in your committee.
    The Chairman. No.
    Mr. Wolf. So I thank you for keeping us on our toes, and I 
thank you for the support that you give to us in our efforts.
    The Chairman. Oh, thank you. Never pro forma here. Very 
genuine passion not only on the part of the chairman, but, as 
you can tell from our members who participated today. And we 
appreciate your coming, Mr. Secretary, Mr. Stratford.
    Mr. Wolf. Yes, sir.
    The Chairman. And we will now call upon our second panel.
    Senator Nelson. Mr. Chairman, is it possible that I could 
ask one further quick question?
    The Chairman. Of course. Let me just inject, because I 
should have already, Senator Biden would like to submit 
questions for the record on the treaty that we were just 
discussing, and, obviously, we will support his doing that, and 
we also will support your responding to them promptly so that 
we can progress.
    Mr. Wolf. We will, thank you, sir.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I wanted to bring up the issue of Iran, us trying to keep 
them from becoming a nuclear power, and particularly with their 
association with Hezbollah and how that could complicate things 
for us. Would you share with us your thoughts about Iran?
    Mr. Wolf. Thank you, Senator.
    This is one of the situation-bad-and-getting-worse problems 
that I was talking about at the start of my discussion. We have 
not been taken by surprise. We have been watching the evolution 
of the Iranian program over some period of time. We have 
consulted with our counterparts in the Nuclear Suppliers Group. 
We have briefed the Nuclear Suppliers Group. We have briefed 
the IAEA. We have talked to the EU, we have actually had Iran 
in our so-called 721 Report on Nonproliferation put out by the 
Central Intelligence Agency, so we have worked with the 
Russians and the Chinese and others, and we are. But what we 
saw, starting last summer when opposition group NCRI published 
their photographs of several facilities, this has raised the 
public awareness. The Director General ElBaradei's trip to Iran 
a couple of weeks ago only peeled back further the clandestine 
cover that Iran has been keeping over bold, almost aggressive 
development of a nuclear fuel cycle that can make no sense at 
all in terms of where Iran is and what makes sense for a 
country. It only fits, in our view, with a nuclear weapons 
program.
    So we have had active consultations with the IAEA and with 
the Board of Governors, which has met in Vienna. The IAEA Board 
of Governors met this week. There was an initial report. There 
is an IAEA team that was following up Dr. ElBaradei's visit, 
and they will be reporting back shortly. We will be very active 
in our discussions with our partners and others about the steps 
that we can take both to limit the access that Iran has to 
foreign technology, although one of the sobering points from 
Dr. ElBaradei's trip report is that the Iranians seem to be 
able to do a lot themselves now.
    Senator Nelson. And what are those steps?
    Mr. Wolf. Well, we are working in the Nuclear Suppliers 
Group to cutoff--we are trying to convince countries to cutoff, 
monitor, and not to sell the kinds of technologies which might 
facilitate Iran's development. We want people to understand 
that it is possible to operate a nuclear program under 
safeguards, as Iran does, even while they are developing a 
clandestine nuclear capability, which they have also been 
doing.
    We are working with the IAEA and others on the kinds of 
safeguard procedures that could be applied to the kinds of 
facilities that Iran has so far identified, although I suspect 
that what they have identified to the IAEA is only a portion of 
what they have. But we are working on new safeguards 
techniques.
    We have a very active discussion with the Russians, who 
have been supporting the development of the Bushehr reactor. We 
think that is a mistake, all the more so because of the 
revelations that have come out.
    Our policies are still evolving, because, in part, there 
was not an adequate international acceptance. There was an 
awareness, because we have been talking, but not an 
international acceptance. And I think, as you said about North 
Korea, so we would say also about Iran, that it is really not, 
it is just not on, to see Iran develop a nuclear weapons 
capability. That would be a profound danger in that part of the 
world, a profound danger to our friends in that part of the 
world. And I think, for the reasons that you say, among others, 
it would be a profound danger to us, as well.
    Senator Nelson. Mr. Chairman, perhaps you will consider a 
hearing on this at some future time. The steps, as outlined by 
the Secretary--cut off the technology and other supplies to 
Iran, spread the word, publicize it, third, work through the 
IAEA, and, fourth, work with the Russians--those are all 
positive steps, but----
    Mr. Wolf. And the Chinese.
    Senator Nelson [continuing]. But I am not sure, at the end 
of the day, that that is going to do it. So perhaps we need to 
keep focusing on this and encourage the administration to keep 
moving in that direction.
    The Chairman. Well, the Senator's point is well taken, and 
the committee, as the Senator knows, is a very active member in 
all these hearings trying to keep the focus of the 
administration on a number of things, and I think we are in 
agreement, the administration is, that it can handle a number 
of things simultaneously. We will need to, because these are 
dangerous predicaments in the world and, for better or for 
worse, fall into your shop, Assistant Secretary Wolf, at this 
moment in history.
    Mr. Wolf. Thank you, Mr. Chairman. We welcome your support 
and the support of your committee, and we welcome when you 
rivet our attention on these things, because these are not 
trivial issues. These are important to the safety and security 
of the United States, but they are important to the safety and 
security of friends and allies all around the world. And so the 
Secretary told me a long time ago, I think, when he offered me 
the job, this is an area where we cannot afford to get it 
wrong. But getting it right is hard work, and we just have to 
keep working at it, and we have to get it right.
    The Chairman. Well, as your partners, with our oversight 
function, we have these hearings.
    Mr. Wolf. Thank you.
    The Chairman. They are well attended by people who have 
come today to hear your testimony, hear our other witnesses, by 
the press, who magnify, at least, whatever occurs here, 
largely, to the American people. And so it is important that 
all of us remain focused.
    Mr. Wolf. Thank you. It is helpful to us. I mean, it helps 
us to focus, too, and just to step back for a moment and 
present our report card of what we have been doing, where we 
are going, where we have problems, where can ask you both for 
advice and where we can ask you for tangible help. And I know 
when we come here that we will get both.
    The Chairman. Thank you very much.
    The Chair would like now to call on our second panel of 
witnesses. They will include the Honorable Rose E. 
Gottemoeller, senior associate, Carnegie Endowment for 
International Peace in Washington, DC, the Honorable Charles B. 
Curtis, president and chief operating officer of the Nuclear 
Threat Initiative in Washington, DC, and Dr. Amy E. Smithson, 
senior associate, The Henry L. Stimson Center in Washington, 
DC.
    It is a real privilege to welcome each of you before the 
committee today. I would admit that I am not a disinterested 
observer. All of you are friends, and you have been working in 
this field for many, many years in various responsibilities and 
perspectives. So we appreciate your giving this time and your 
expertise today.
    As with the previous panel, I would indicate that all of 
your statements will be published in the record in full. I will 
ask each of you to proceed to summarize or to present your 
views in whatever form you find most satisfying. And I will ask 
you to testify in the order that I introduced you, and that 
would be, first of all, Dr. Gottemoeller, then Secretary 
Curtis, and then Dr. Smithson.
    Secretary Gottemoeller.

   STATEMENT OF HON. ROSE E. GOTTEMOELLER, SENIOR ASSOCIATE, 
   CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, WASHINGTON, DC

    Ms. Gottemoeller. Thank you very much, Mr. Chairman. And 
indeed, it is a great honor and a pleasure to appear before you 
today. I appreciate very much your offer for me to place my 
full statement in the record. I would really like to 
concentrate my remarks on three points today and then conclude 
by underscoring, as I see it, the importance of 
internationalization of these programs.
    First of all, I very much agree with the assessment 
Assistant Secretary Wolf made an hour ago that this is a dire 
situation. And indeed, I open my testimony by recalling the 
Baker-Cutler report from January 2001 that weapons of mass 
destruction proliferation represents the most urgent unmet 
national security threat. That is still true today and, in my 
view, is becoming worse. We have accomplished much in our 
threat reduction programs and nonproliferation cooperation, 
particularly with Russia and the countries of the former Soviet 
Union, but there is still much to be done.
    As I said, I would like to summarize my testimony by 
emphasizing three points--one on the budget, one on management 
of the programs, and one on resolving barriers and impediments.
    On the budget, first of all, we should concentrate on 
making these programs an incontrovertible priority in our 
Federal budget. I applaud the Bush administration for 
increasing the budgets overall and, furthermore, for expanding 
the time line for the programs out in their commitment to the 
so-called 10 plus 10 over 10 initiative. They have committed to 
spend a billion dollars per year over the next 10 years as long 
as the funds are matched by our G-8 partners. I think, indeed, 
that this kind of stable and long-term commitment is very 
important and will not, I believe, be money ill spent.
    We do not need to have an enormous budget in this arena, 
but we need to have a stable and long-term commitment, and I 
believe we are well on our way in that direction, but I would 
note that it is an area that we still need to do some work on.
    I also stated in my testimony, and I believe it is very 
important, that we need to continue to develop other sources, 
as well. The new commitments of the G-8 at Kananaskis were 
important. And furthermore, I think private-sector funding, as 
well as the Russian Federal budget should be considered 
increasingly as sources for funding these kinds of programs, 
particularly, in this case, in the Russian Federation. As the 
Russian Federal budget improves, I believe Moscow can take on 
increasing commitments in this area.
    Second point, Mr. Chairman, on management. I am stressing 
in my testimony that I believe no one-size-fits-all approach 
will resolve all of our management problems in this arena. And 
I noted, with some amusement, Secretary Wolf's comments in the 
previous session about trying to get the interagency process 
right over the last 200-plus years. Indeed, that has been a 
problem.
    Nevertheless, I am not, myself, a great fan of a single 
kind of solution to our problems in this area when we have 
extraordinarily urgent projects already that need to be worked 
on, such as returning reactor fuel from Soviet-built research 
reactors around the world. That is the reason why I say we 
should not be stuck on one fix, such as the so-called czar 
approach, but should be thinking of a number of flexible 
approaches for resolving problems. And in my testimony, I take 
note of the way we used a so-called tiger team during the 
Sapphire Operation in 1994 with a number of experts working 
against very tough deadlines to get work done within a short 
period of time. And that is the kind of flexible approach I 
think we should be looking at across the board.
    Third point, on resolving barriers and impediments. Here, 
too, I believe we should not be stuck on a one-size-fits-all 
solution to our problems in this area. Personally, as Deputy 
Under Secretary of Energy responsible for nonproliferation 
programs, I felt stymied often by the kinds of barriers and 
impediments thrown in our way by both the Russian Federation 
and sometimes by my own colleagues here in Washington. I think 
it is important that we think about a number of ways to work 
these problems and not be overly dependent on any one 
mechanism. I note in my testimony that I think over-dependence 
on the CTR umbrella agreement might be a difficulty. We need to 
be looking at a number of legal mechanisms that will help us to 
resolve issues in the area of barriers and impediments, areas 
such as access, liability, intellectual property rights, and so 
forth. I think the proof has been in the way we have had 
success across very large projects that the Federal Government 
has undertaken over the years. There have been a number of 
legal approaches that have worked, so we need to be able to 
cast the net quite wide.
    And furthermore, Mr. Chairman--and here I am segueing into 
my concluding point--as we expand to new regions to carry 
forward our nonproliferation cooperation, I think that we have 
extraordinarily important and useful precedents in the work we 
have done over the years under the Cooperative Threat Reduction 
umbrella agreement and under our extant threat reduction 
programs. However, I do think it will be very important to 
think about how we might develop further our mechanisms for 
working in different regions of the world where legal 
arrangements might be very different. And so I would urge all 
of us to be considering broader ways to address some of these 
barriers and impediments, because I think it will help us to 
move into internationalization of these programs.
    Mr. Chairman, I would like to end with a bit of good news. 
Over the past year, both you, sir, as well as I--you, at a very 
high level, of course--but you have been very interested in 
taking these programs and expanding them out into other areas 
of the world where there are proliferation problems. I make 
note in my testimony of the Lugar Doctrine, which you launched 
in December over a year ago. Consonant with your efforts, I 
have been working on looking at how we might take the 
experience of working in the former Soviet Union and expand it 
to other areas of the world. This work I have now briefed in 
Moscow, in Beijing, among other G-8 countries and other 
partners, in addition to countries in South Asia, and I wanted 
to convey to you, sir, that, in my view, there is a wide range 
of interest among potential international partners in working 
with us on proliferation cooperation. And so I think we can, in 
the coming year, think very seriously about specific agenda 
items in this arena, and I would certainly urge your committee, 
as well as the Federal Government, to continue to look to ways 
to expand this work into other regions of the world.
    Thank you, sir.
    [The prepared statement of Ms. Gottemoeller follows:]

    Prepared Statement of Hon. Rose Gottemoeller, Senior Associate, 
               Carnegie Endowment for International Peace

    Mr. Chairman and Distinguished Members of the Committee, thank you 
for the honor of testifying before you today on this most critical 
topic, the range of proliferation threats the United States is likely 
to face in the future, as well as the current set of proliferation 
problems. They do indeed present an opportunity for evaluating current 
U.S. nonproliferation programs, to design their future structure and 
substance for maximum effectiveness in confronting these dangerous, 
unpredictable threats to the United States.
    I would like to begin by recalling that, in 2000, Senator Howard 
Baker and the Honorable Lloyd Cutler co-chaired a bipartisan task force 
that produced a study, ``A Report Card on the Department of Energy's 
Nonproliferation Programs with Russia,'' in January 2001. I have a 
particularly strong knowledge of this study, because it was undertaken 
to review programs that were under my responsibility when I was the 
Deputy Undersecretary of Energy for Defense Nuclear Nonproliferation. 
The task force produced three main conclusions:

          1. The most urgent unmet national security threat to the 
        United States today is the danger that weapons of mass 
        destruction or weapons-usable material in Russia could be 
        stolen and sold to terrorists or hostile nation states and used 
        against American troops abroad or citizens at home.

          2. Current nonproliferation programs in the Department of 
        Energy, the Department of Defense, and related agencies have 
        achieved impressive results thus far, but their limited mandate 
        and funding fall short of what is required to address 
        adequately the threat.

          3. The new President and leaders of the 107th Congress face 
        the urgent national security challenge of devising an enhanced 
        response proportionate to the threat. That enhanced response 
        should include: a net assessment of threat; a clear achievable 
        mission statement; the development of a strategy with specific 
        goals and measurable objectives; a more centralized command of 
        the financial and human resources required to do the job; and 
        an identification of criteria for measuring the benefits for 
        Russia, the United States, and the entire world.\1\
---------------------------------------------------------------------------
    \1\ ``A Report Card on the Department of Energy's Nonproliferation 
Programs with Russia,'' January 10, 2001; Howard Baker and Lloyd 
Cutler, Co-Chairs of the Russia Task Force, The Secretary of Energy 
Advisory Board, United States Department of Energy.

    Mr. Chairman and Members of the Committee, these conclusions were 
published on January 10, 2001, almost nine months to the day before the 
terrible attacks of September 11, 2001. They were sadly prescient, and 
remain extraordinarily valid today. Likewise, the enhanced response 
that the Task Force proposed is largely achievable, with the proper 
leadership and focus in the Bush Administration and in this Congress.
    Indeed, the greatest concern that I have today is not that the 
agenda is uncertain, but that its leadership is unfocused. The 
impending conflict in Iraq and the potential for attacks on U.S. 
homeland targets are real, and therefore preparations for fighting a 
war and for defending the U.S. homeland are vigorous. However, the 
possibility that weapons of mass destruction might get into the wrong 
hands and endanger our troops in Iraq or our public at home is also 
very real, and must be tackled with equal vigor. The threat to U.S. 
troops abroad and U.S. homeland targets is in fact sharply exacerbated 
by proliferation of weapons of mass destruction.
    Mr. Chairman, you have been prominent in calling our 
nonproliferation cooperation programs ``the first line of defense'' of 
the United States. I strongly agree with this assessment, and would 
further state that the nonproliferation cooperation programs should 
have the same degree of attention in the policy process as do our 
troops in the field and our homeland defenders. Quite simply, our 
soldiers and defenders will have an easier time in achieving the 
military and national security goals that we have placed on their 
shoulders if we succeed in reducing the proliferation threat through 
our cooperative programs.

                               LEADERSHIP

    To focus leadership in this arena, I would propose a basic step:

  <bullet> Establish an effective interagency that can respond quickly 
        and flexibly, in several forms, to new challenges and urgent 
        crises.

    A ``one-size-fits-all'' approach to interagency cooperation is not 
the answer to the leadership problems in this arena. In my view, the 
classic interagency working group, which meets regularly and is chaired 
by the National Security Council, is the basic mechanism that is 
effective in achieving results. However, when crises and the need for 
quick action arise, other mechanisms should be readily available to top 
decision-makers. A case in point is the 1994 Sapphire operation, when 
the United States cooperated with Kazakhstan to remove 600 kilograms of 
highly enriched uranium (HEU) out of harm's way in that country, to 
safe storage in the United States.
    To achieve quick results, a ``tiger team'' mechanism was used to 
break through bureaucratic barriers and coordinate the very complex 
operation. This team operated under the aegis of the interagency 
working group at the NSC. However, unlike a classic interagency working 
group, the members met on a daily basis, sometimes for many hours at a 
time, performing against a highly demanding deadline--removing the HEU 
before snow started to fall in central Kazakhstan in the autumn of 
1994. With guidance and help from senior levels in the interagency 
working group, the tiger team succeeded admirably. The HEU was removed 
from Kazakhstan within a very short time period before the end of 
November 1994.
    Flexible approaches of this type should be in constant use, making 
use of talented experts under high-level guidance. The proliferation 
problems that we face are urgent, and need more full-time, priority 
attention than the interagency leadership, saddled with many 
simultaneous demands and responsibilities, can give them.
    More flexibility in management arrangements will also be important 
as public-private partnerships take hold in the nonproliferation policy 
arena. The 2002 cooperation between the U.S. government and the Nuclear 
Threat Initiative (NTI) to remove nuclear material from the Vinca 
reactor site in Belgrade was a signal success, which I hope will be 
repeated in future cooperative ventures. A high-ranking team from the 
USG, NTI and the International Atomic Energy Agency undertook the 
management of this project. While they achieved admirable results on 
this occasion, they probably would benefit in future from having a 
mechanism such as a public-private tiger team. An expert team, with 
proper guidance, authority and deadlines, could work through the 
details of nuclear material transfers and save higher level decision-
makers much time and effort.

                                 BUDGET

    Mr. Chairman and Distinguished Members, I am often asked whether I 
think that the budget for our nonproliferation cooperation programs is 
adequate. Consistent with the point I made at the outset, I believe 
that these programs should receive the highest priority in the national 
budget process, as do other defense and homeland security programs. The 
cooperative programs are, once again, the first line of defense of the 
United States, and therefore should receive significant additional 
resources. I welcomed the ten-year commitment that the Bush 
Administration made to these programs in the so-called ``ten plus ten 
over ten'' initiative--ten billion dollars to be spent over ten years, 
matched by an additional ten billion from other members of the Group of 
Eight (G-8) industrialized countries. However, I would note that a 
billion dollars annually is a small fraction of the annual U.S. defense 
budget, which for FY 03 was at $355 billion.
    I am not arguing that nonproliferation programs should be funded at 
the same level as the overall defense budget, but that they should be 
considered a priority as incontrovertible in the budget process as 
defense spending. As to amount of increase, my view is that the 
programs could easily absorb a doubling of the billion dollars to two 
billion dollars per year, matched by the billion dollars per year from 
the rest of the G-8. The total, $3 billion per year over the next ten 
years, is consistent with the amount suggested by the Baker-Cutler Task 
Force. The Task Force believed that this level of funding would allow 
for an acceleration of the programs and their completion within the 
ten-year period.
    At the same time, I would like to stress that the U.S. federal 
budget should not be the only source used to support these programs. I 
have already noted the positive nature of the new G-8 initiative, which 
is formally known as the Global Partnership Against the Spread of 
Weapons and Materials of Mass Destruction. Agreed during the G-8 summit 
at Kananaskis, Canada in June 2002, the initiative for the first time 
is drawing the G-8 together as a coherent group committed to funding 
such nonproliferation cooperation, in the first instance in the Russian 
Federation, but also potentially extending to other regions of the 
world.
    The new Global Partnership is also serving as an additional focal 
point for countries such as Norway, which have long been committed to 
tackling problems related to the break-up of the Soviet nuclear arsenal 
in their own regions. Norway has been enormously effective, for 
example, in developing cooperative programs to handle radioactive waste 
disposal in the Northern Fleet/Arctic region, and is examining large-
scale future projects such as dismantlement of general-purpose nuclear 
submarines no longer operational in the Russian Navy. Cooperation and 
coordination among G-8 and other countries committed to these programs 
should be encouraged and advanced.
    General-purpose submarine dismantlement can be used to highlight 
another potential funding approach for these cooperative projects--the 
private sector. Reactor fuel withdrawn from Russian general-purpose 
submarines is currently processed at Russian facilities and fabricated 
into fuel for nuclear power plants in Russia. It is possible, in 
future, that such submarine reactor fuel could be processed and 
fabricated into fuel for foreign customers, thus generating a revenue 
stream via the private sector that could be used to partially fund 
further dismantlement of general-purpose submarines.
    A partial self-financing approach has been successful, although not 
completely so, in the implementation of the highly enriched uranium 
purchase agreement (the HEU agreement). It is high time that the 
concept be further developed and applied to other projects, recognizing 
that due care need be taken not to perturb ongoing efforts such as the 
HEU agreement.
    The concept of self-financing highlights an additional point about 
future funding for the programs: If the Russian economy continues to 
improve, the Russians should be asked to contribute more resources to 
these programs from their own national budget. Take the example cited 
above: currently, foreign partners make no demands on the Russian 
Federation with regard to nuclear fuel withdrawn from either strategic 
or general purpose submarines. It remains an asset for Russia to 
dispose of as it wishes, in part by processing and fabricating it into 
fuel for Russian civilian nuclear power plants.
    Although not all fuel removed from Russian submarines would be 
appropriate for processing and commercial re-sale, some of it is likely 
to be. This could be a partial funding stream for Russian general-
purpose submarine dismantlement, a Russian contribution to the effort.
    Before I leave the budget topic, I would like to reiterate my 
conviction that this money is well spent in preserving and 
strengthening U.S. national security. To back up the point, I was 
impressed to read the recent testimony of GAO Director Joseph Christoff 
before the House Committee on Armed Services. Mr. Christoff asserted 
that within two years of beginning a program to help the Russian Navy 
secure its nuclear warheads, the Department of Energy had begun 
installing security systems at 41 of 42 Navy sites in Russia.\2\ When 
we are getting fast results of this kind, we are bolstering our 
security on a real-time basis. Both the Department of Energy and the 
Russian Navy can be proud to be making such a strong contribution to 
the security of the United States and the Russian Federation. When we 
are encountering delays and difficulties, as I know has been a concern 
to many members of Congress, we must stay the course and work through 
the issues. I am convinced that when both partners believe the 
cooperation is equally in their interests, they can perform rapidly and 
efficiently to get the job done. Furthermore, barriers and impediments 
to cooperation can be overcome.
---------------------------------------------------------------------------
    \2\ Statement of Joseph A. Christoff, Director, International 
Affairs and Trade, General Accounting Office: ``Weapons of Mass 
Destruction: Observations on U.S. Threat Reduction and Nonproliferation 
Programs in Russia,'' GAO-03-526T, March 5, 2003.
---------------------------------------------------------------------------

                        BARRIERS AND IMPEDIMENTS

    Mr. Chairman and Distinguished Members, the G-8 global partnership 
calls on all participating countries to measure up to certain 
guidelines, which among others include effective monitoring of funds 
expended, adequate access for donors to work sites, open and 
transparent procurement practices, adequate liability protection, and 
effective protection of intellectual property.\3\ These guidelines are 
important, because in the past, issues related to access, intellectual 
property, liability, etc. have essentially stymied progress in our 
nonproliferation cooperation with the Russian Federation.
---------------------------------------------------------------------------
    \3\ Statement by G-8 Leaders, ``The G-8 Global Partnership Against 
the Spread of Weapons and Materials of Mass Destruction,'' Kananaskis, 
Canada, June 2002.
---------------------------------------------------------------------------
    I have personally experienced many of these barriers and 
impediments over the years that I worked with the Russian Federation as 
an official of the U.S. government. It is frustrating to be stymied 
from accomplishing important nonproliferation work that both sides 
agree is vital to the national security of both Russia and the United 
States. In fairness, I must stress that barriers and impediments to 
cooperation also occur on the U.S. side. My comments, therefore, apply 
to both parties.
    Impediments to the implementation of joint nonproliferation and 
threat reduction programs are both problematic and counterproductive. 
These impediments to cooperation, and the political, bureaucratic, and 
structural problems that are behind them, are so complex and interwoven 
that no one solution will solve all the problems. As in the case of 
interagency leadership, there can be no ``one-size-fits-all'' approach. 
Instead, decision-makers need a variety of options upon which they can 
draw to address specific problems.
    One of the reasons why such a flexible approach is necessary is 
that the Russian legal and regulatory system is under development. If 
one were to wait until Russian liability or intellectual property law 
``settled down'' into a uniform code, then one would likely be waiting 
for many years to carry forward nonproliferation project work. We 
should be looking for legal but imaginative ways to move forward. At 
the same time, we can embrace the opportunities that this state of 
development provides to inform Russian counterparts about various legal 
approaches that have worked equally well in different realms such as 
liability law. There are also opportunities to influence Russian legal 
development, such as suggesting a certain legislative approach to a 
particular problem.
    My conviction that there can be no ``one-size-fits-all'' approach 
to resolving barriers and impediments extends to overuse of the 
Cooperative Threat Reduction umbrella agreement. The CTR agreement has 
been an invaluable foundation for nonproliferation projects in the 
Russian Federation, serving as the basic legal document underpinning a 
number of implementing agreements for both Department of Defense and 
Department of Energy programs.
    But while the CTR agreement has played a tremendous role and will 
continue to do so, it is not the only possible approach to resolving 
differences in a way that makes legal sense in both U.S. and Russian 
contexts. Even today, for example, liability for certain Department of 
Energy projects is successfully handled through arrangements that do 
not involve the CTR agreement. By considering how different legal 
approaches might be used, we open up new opportunities for partnership, 
not only with Russia, but also with other partners in Europe and around 
the world. A flexible and more global perspective, in the legal as in 
other contexts, will be increasingly important as we consider ways to 
extend the experience of our nonproliferation cooperation with Russia 
to other countries and regions of the world.

        ``INTERNATIONALIZATION'' OF NONPROLIFERATION COOPERATION

    Mr. Chairman, over one year ago you began to articulate the ``Lugar 
Doctrine'', calling on countries to cooperate to improve the protection 
of weapons of mass destruction and their constituent materials and 
components. You and Senator Sam Nunn have since proposed a ``Global 
Coalition Against Catastrophic Terrorism,'' which has done an enormous 
amount to raise international awareness of the need to protect 
potentially vulnerable weapons of mass destruction assets.
    Consonant with your efforts, I have spent much of the past year 
examining how the experience of U.S.-Russian threat reduction and 
nonproliferation cooperation might be extended to other regions of the 
world. This work resulted in a Carnegie Endowment study, ``Enhancing 
Nuclear Security in the Counter-terrorism Struggle,'' \4\ which I have 
briefed in whole or in part in Washington, Moscow, Beijing, with other 
G-8 partners and in South Asia. I am pleased to report to you that, in 
my view, there is a significant amount of international interest in how 
we might mine our ten-year experience in Russia and other states of the 
former Soviet Union to inform and structure nonproliferation 
cooperation in other parts of the world.
---------------------------------------------------------------------------
    \4\ Rose Gottemoeller with Rebecca Longsworth, ``Enhancing Nuclear 
Security in the Counter-Terrorism Struggle: India and Pakistan as a New 
Region for Cooperation,'' Working Paper No. 29, August 2002, Carnegie 
Endowment for International Peace, Global Policy Program, Non-
Proliferation Project. The author gratefully acknowledges that this 
work was funded by the John D. and Catherine T. MacArthur Foundation.
---------------------------------------------------------------------------
    I would like to use the opportunity of this testimony to highlight 
a number of themes and issues that I believe are particularly relevant 
to the internationalization goal. To begin with, I would like to note 
that I have often found it important to emphasize how long it has taken 
to establish nonproliferation cooperation with Russia. It took nearly 
five years to engage key interest groups, for example in the Ministry 
of Atomic Energy, and even longer to gain access to critical facilities 
storing weapons-usable nuclear materials and warheads. Indeed, even 
today, access to such facilities is still being developed. I conclude 
from this experience that in many new regions and countries where we 
would like to establish such cooperation, we will have to be patient. 
Unless there is an unfolding crisis--for example, an acceleration of 
thefts by facility insiders due to economic crisis in the country as a 
whole--it will take time to establish the trust and mutual confidence 
that is necessary to carry these programs forward.
    Following this initial comment, I would like to offer a few 
streamlined rules that I believe will be important for engaging 
countries beyond the former Soviet Union in nonproliferation 
cooperation:

          1. We are likely to have to start with civilian nuclear 
        facilities, rather than with ``more critical'' military 
        facilities, because that is what the political traffic will 
        bear in the target countries. We should not shy away from this 
        reality, for two reasons. First, work carried out at civilian 
        facilities will have a demonstration effect that will be 
        ``taken home'' to military facilities whether or not we are 
        present there; second, confidence-building will ensue among key 
        political elites, which is likely to result in more critical 
        facilities being offered up for cooperation.

          2. We should take proactive steps to accelerate this 
        confidence-building among key political elites, in order to 
        accelerate the potential for cooperation. Some useful steps in 
        this regard are: exchanging best practices in the nuclear 
        security arena; using indigenous companies to provide goods and 
        services to cooperative projects; establishing cooperative 
        projects that are beneficial to the political system as a 
        whole, e.g. situation and crisis centers that are useful in 
        national emergency response; and establishing pilot projects on 
        a trial basis, with no long-term commitment. In the U.S.-
        Russian context, we found that the pilot project approach was 
        especially effective in developing confidence in the 
        cooperation. Almost invariably, pilot projects positively 
        influenced decisions about further cooperation.

          3. We should ``keep our eye on the prize,'' constantly asking 
        ourselves what we need to achieve to solve the most urgent 
        nuclear security problems. Thus, we should be willing to work 
        with a country to improve physical protection even of 
        unsafeguarded nuclear facilities, if they are subject to urgent 
        security threats.

    Some of these points are controversial, but they are realistic. The 
experience of cooperating with Russia and the states of the former 
Soviet Union to reduce nuclear threats has produced important 
precedents, but they are not perfect models for working in other 
regions of the world. For one thing, the Russian Federation is a 
nuclear weapons state under the Non-Proliferation Treaty, and therefore 
U.S.-Russia cooperation on nuclear security projects is a rather 
straightforward affair. For other countries and in other regions, we 
will have to consider carefully how to develop the cooperation in a way 
that does not undermine the NPT regime. Nevertheless, I am confident 
that the legal and policy space exists for joint projects to go forward 
on the physical protection of nuclear assets in any country and at any 
facility where the cooperation can be established.
    Mr. Chairman and Members of the Committee, we are embarked on a 
difficult period, when the established UN system and its accompanying 
regimes such as the Non-Proliferation Treaty are being seriously 
shaken. We have much work to do to ensure that they retain their 
authority and influence in international affairs.
    In this troubled period, I would like to draw your attention to a 
hopeful possibility: might it not be possible to use the experience 
that we have gained in the past ten years of U.S.-Russian cooperation 
to fashion new methods for the nonproliferation regime? In future, 
might it not be possible to give special credit to countries that 
facilitate nonproliferation cooperation inside their nuclear 
facilities? For example, if a country is cooperating with an 
international team to enhance protection of nuclear fuel at its power 
plants, and that team has regular access to those facilities, might we 
not consider those facilities to be in good standing in the 
nonproliferation regime? Naturally, this standing would only remain in 
place for as long as the cooperation remained intact. Again, these are 
new ideas, but I believe that they are worth exploring.
    Thank you, Mr. Chairman, for the opportunity to give this 
testimony. I look forward to your questions and comments.

    The Chairman. Well, thank you very much, Dr. Gottemoeller.
    Let me say, in introduction further of Secretary Curtis, 
that the work of the Nuclear Threat Initiative in the Vinca 
situation that has already been mentioned by Assistant 
Secretary Wolf was really exemplary. And the facts are that $5 
million of NTI money and about $2 million of money from the 
Federal Government was involved in that affair. And in part, 
that division came because of restrictions in our programs of 
what money can be used for. Very specifically, there have 
always been prohibitions against environmental work. Obviously, 
people who have laboratories and have difficulties have 
environmental problems in the quid pro quo. Secretary Curtis 
can go into this further. Part of our mission in getting a hold 
of the spent fuel is to clean up the problem.
    So this flexibility that you have talked about, Dr. 
Gottemoeller, really comes home in spades. In a very specific 
instance, it has been widely applauded. Nevertheless, as a case 
in point, perhaps we need to have some chance in our own 
legislation and in our work at bureaus.
    Now, with all of that, Secretary Curtis, let me recognize 
you. And we appreciate, again, your coming today.

   STATEMENT OF HON. CHARLES B. CURTIS, PRESIDENT AND CHIEF 
  OPERATING OFFICER, NUCLEAR THREAT INITIATIVE, WASHINGTON, DC

    Mr. Curtis. Thank you, Mr. Chairman. I appreciate the kind 
words about Vinca. Let me reflectively offer kind words to the 
Departments of Energy and State, whose operational expertise 
and partnership helped pull that off. We had an important, but 
a relatively minor, contributive role to what was a very 
important nonproliferation action.
    You know, Secretary Wolf spoke earlier about a partnership, 
that those who know these dangers, who know the urgency of 
these problems, must really be engaged in an effective 
partnership to reduce the threats from weapons of mass 
destruction. We at NTI view our role as just that, as 
partnering, where possible, with our government and with other 
actors to meaningfully address the threats that we face and 
help close the gap that we see between dangers that we face and 
the response that we have marshalled, both domestically and 
internationally, to those dangers.
    As my remarks will make clear, though, NTI sees its role 
not only as a partner, but as an assistant conscience on these 
matters, and I will have some comments toward that end.
    Mr. Chairman, I would like to begin my testimony by 
recalling, for emphasis, the words President Bush used in 
introducing the latest version of the U.S. national security 
strategy, words which, in part, you quoted in your opening 
remarks, ``The gravest danger our Nation faces lies at the 
crossroads of radicalism and in technology. Our enemies have 
openly declared they are seeking weapons of mass destruction, 
and evidence indicates they are doing so with determination. 
The United States will not allow these efforts to succeed. We 
will cooperate with other nations to deny, contain, and curtail 
our enemies' efforts to acquire these dangerous technologies.''
    I have been encouraged to hear these and other Presidential 
statements confirmed as correct assessment of the dangers we 
face, but our actions, as yet, are falling far short of our 
words. That is not to say that we do not have competent 
individuals who approach their jobs in this field with enormous 
determination and creativity. As your opening remarks 
indicated, Secretary Abraham, in particular, and Litton Brooks, 
the team at the Department of Energy, have made significant 
progress in their tenure on the job. The people who selflessly 
devote themselves to this noble cause deserve our praise and 
support, but they also deserve our objectivity. And in the 
spirit of objectivity, it is fair to say that they must quicken 
the pace and expand the scope of what they strive every day to 
accomplish.
    The President's strategy to combat weapons of mass 
destruction must be translated into a concrete prioritized plan 
with carefully defined elements for nuclear, chemical, and 
biological weapons, with clearly defined milestones, and 
clearly defined accountability. For this to happen, the 
President must make crystal-clear that what he has called his 
number-one security priority, keeping the world's most 
destructive weapons out of the hands of the world's most 
dangerous people, is, in words and in practice, the No. 1 
priority of this administration. And the President, himself, 
must exercise direct and sustained leadership on these matters 
and put someone specifically in charge of this essential 
mission, someone who has and is seen to have the President's 
and his national security advisors' full confidence.
    Mr. Chairman, as you and your colleagues well know, much 
remains to be done in meeting this priority. Russia's nuclear 
weapons and weapons materials are still dangerously insecure. 
By the Energy Department's own account, security upgrades work 
has not even begun on more than 120 metric tons of plutonium 
and highly enriched uranium. Not even yet begun. Moreover, we 
have no accounting for Russia's nonstrategic weapons and still 
have factors of uncertainty over how many they have or how 
secure they are. Hundreds of thousands of weapons, chemical 
weapons, await destruction at Shchuch'ye and other venues. And 
thousands of Russia's, former Soviet Union, bio-weapons 
scientists, which our own intelligence community classifies as 
security risks, are yet to find sustained, peaceful work.
    Mr. Chairman, I wanted to congratulate the efforts that you 
have made to grant the executive branch permanent waiver 
authority so that the Nunn-Lugar program, which performs vital 
work in cooperation with Russia and other former Soviet states, 
can continue without interruption. If the President concludes 
our national security interest is served by such a waiver, he 
must be able to exercise that judgment in a manner that ensures 
Nunn-Lugar's programmatic integrity. Should we ever suffer 
attack by terrorists with weapons obtained from unsecure stores 
of weapons and materials from the former Soviet Union, the 
American people will be unforgiving to learn that programs 
designed to prevent this occurrence were interrupted or 
weakened because the President was constrained in his ability 
to act in the best security interest of the United States. I 
encourage the Congress to act decisively on this issue this 
session.
    At the same time, we would do well to remember that 
unsecured nuclear, biological, and chemical weapons and 
materials reside outside the territory of the former Soviet 
Union. Twenty metric tons of highly enriched uranium were 
distributed to over 130 civilian reactors and other facilities 
in 40 countries around the world in the last 50 years. We have 
to get our hands around this problem and clean out the material 
at risk. We know of at least two dozen circumstances requiring 
our immediate attention, yet three-quarters of a year after the 
removal of two bombs worth of highly enriched uranium from 
Belgrade, Yugoslavia, we have yet to remove a single additional 
kilogram from any other of these 24 high-risk circumstances. 
Unsecured nuclear bomb material anywhere is a threat to 
everyone everywhere, and the approach and the pace of these 
programs is simply inadequate to the threat.
    The point comes across clearly in a report published last 
week by a team at Harvard University entitled ``Controlling 
Nuclear Warheads and Materials,'' a report that you are very 
familiar with, sir. While the focus of this report is on 
nuclear weapons and materials, the same can be said about 
chemical and biological weapons. We need a prioritized plan to 
keep the world's most dangerous weapons out of the hands of the 
world's most dangerous people, and we have to act on it with 
high purpose and direct Presidential attention.
    For us to succeed in meeting the proliferation challenges 
facing our Nation, we will need an unprecedented level of 
international security cooperation. With all of our might, the 
United States cannot carry this mission out alone. It requires 
all nations, all nations, to make sure that every nation with 
nuclear, biological, and chemical weapons materials or know-how 
accounts for what it has, secures what it has, and pledges that 
no other nation or group will be allowed access. Mr. Chairman, 
you will recognize those words. They are yours. This 
straightforwardly stated objective, an objective which you set 
forth in an article in the Washington Post over a year ago, 
must be our No. 1 diplomatic priority. It should lead the 
talking points of every interaction by our State Department, 
with other nations, and by every interaction our President has 
with other leaders. It needs to be the central organizing 
principle of security in the 21st century.
    As such, it is imperative that we expand the scope of 
successful programs, such as Nunn-Lugar, the Department of 
Energy's Material Protection Control and Accounting Program, 
and the Department of State's Science center, export control 
and border security activities. The lessons we have learned 
during the last decade in working with the Russians and other 
former Soviet states in a cooperative effort to reduce threats 
can be applied in other regions of the world that face 
instability and the prospect of open conflict. Making the Nunn-
Lugar concept global and extending its programmatic reach to 
other nations and to the world's regional ``hot-spots'' is the 
most important step Congress can take to deny terrorists access 
to weapons of mass destruction and to reduce the potential that 
these weapons may ever be used by states or non-state actors. I 
strongly endorse the efforts to extend Nunn-Lugar globally, 
beyond the borders of the former Soviet Union.
    Mr. Chairman, in closing, I want to mention the G-8 Global 
Partnership Against the Spread of Weapons and Materials of Mass 
Destruction which the G-8 launched last summer in Canada. The 
establishment of the G-8 Global Partnership and the leadership 
commitments by member states to spend $20 billion on these 
matters over the next 10 years, as you have noted, is a great 
achievement. However, the G-8 makes many commitments at its 
annual meetings. We must continue to invest the diplomatic 
energy to make the G-8 Global Partnership real and to turn 
shared principles into a clear set of priorities, to establish 
a time line to guide the work, and make sure they devote 
adequate resources to the work needed. And we need to press the 
G-8 governments to make the Global Partnership truly global, to 
include every nation with something to safeguard or that can 
make a contribution to safeguarding it. Your persistent 
oversight of these efforts through this committee will do much 
to make the G-8 partnership real and to make the Global 
Partnership truly a global coalition of nations.
    Mr. Chairman, we often ask, at NTI and sometimes in the 
hearing rooms of our Congress, if, pray to God, a terrorist 
attack on the United States is launched with a weapon of mass 
destruction, we would ask what should we have done to prevent 
it and why are we not doing that now. Similarly, I think I 
should ask what would I wish I had said when I had the 
opportunity to say it. This is an opportunity, and what I must 
say is we are not doing as much as we can or as much as we 
must. And I say that with full respect and admiration for the 
people who have come to this table today and who are working in 
the trenches in the Departments of Energy, State, and Defense. 
We are simply not addressing this problem with the urgency it 
requires, the resources they require, or the planning attention 
of our government and the international community it requires.
    As I conclude these remarks, let me acknowledge, of course, 
that there are other issues of weapons of mass destruction 
policy that involve the vital security interest of our country 
and the world, particularly the related matters of North 
Korean, Iran, and Iraq, and I would be happy to address those 
matters in questions which are to follow.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Curtis follows:]

Prepared Statement of Hon. Charles B. Curtis, President, Nuclear Threat 
                               Initiative

             PROLIFERATION THREATS FACING THE UNITED STATES

    Mr. Chairman, members of the Committee, I want to thank you for the 
opportunity to share my thoughts and concerns about the gravest danger 
facing our world today. I appear before you as the President and Chief 
Operating Officer of the Nuclear Threat Initiative (NTI)--a charitable 
organization committed to helping make the world safer from the threats 
of nuclear, biological and chemical weapons. Former Senator Sam Nunn 
and Ted Turner co-chair NTI and we are proud to say that our foundation 
benefits regularly from your guidance, Mr. Chairman, in your capacity 
as a member of our Board of Directors. We are also thankful for Senator 
Domenici's leadership on these issues as another member of our Board. I 
should make clear, however, that my testimony is my own and has not 
been reviewed or approved by NTI's Board of Directors.
    Mr. Chairman, I would like to begin my testimony by recalling the 
words President Bush used to introduce the latest version of the U.S. 
National Security Strategy:

          The gravest danger our Nation faces lies at the crossroads of 
        radicalism and technology. Our enemies have openly declared 
        that they are seeking weapons of mass destruction, and evidence 
        indicates that they are doing so with determination. The United 
        States will not allow these efforts to succeed . . . We will 
        cooperate with other nations to deny, contain, and curtail our 
        enemies' efforts to acquire dangerous technologies.

    I have been encouraged to hear these and other Presidential 
statements confirm this correct assessment of the dangers we face and 
the need for international cooperation to mount an effective defense. 
The U.S. government has now enshrined those words in a six-page 
document entitled, ``National Security Strategy to Combat Weapons of 
Mass Destruction.'' But our actions, as yet, are falling far short of 
our words. If keeping weapons of mass destruction out of the hands of 
our enemies is our number one security threat--who is in charge of this 
important mission? Who's accountable? What is our plan? What, in fact, 
``new'' is being done to deny those who intend us harm access to these 
weapons, weapons materials and know-how? Information is scant, but, I 
regret to say, I am increasingly concerned that the President's 
``bureaucratic troops'' do not yet display the planning, coordination, 
and degree of urgency this mission requires.
    This is not to say that we do not have competent individuals who 
approach their jobs in this field with enormous determination and 
creativity. I know and respect many of them. They deserve your praise 
and the praise of the American people. But they also deserve our 
objectivity. Every day these individuals make a positive difference in 
reducing the threats that face all nations. But we must do much more. 
We must quicken the pace and expand the scope of what we seek to 
accomplish. For, in spite of the President's words, keeping the world's 
most dangerous weapons out of the hands of the world's most dangerous 
people is not yet a budget priority. There is still a dangerous lag 
between the President's words and our expenditures. Programs at the 
Department of Defense, the Department of Energy and the Department of 
State focused on securing vulnerable weapons and materials in Russia 
and states of the former Soviet Union where much of the risk resides 
are proceeding, at best, on a ``status quo plus'' basis.\1\
---------------------------------------------------------------------------
    \1\ Running at $1 billion per year or roughly 1/3 of one percent of 
the 2003 Department of Defense appropriation.
---------------------------------------------------------------------------
    Russia's nuclear weapons and weapons materials are still 
dangerously insecure. By the Energy Department's own account, security 
upgrades work has not even begun on more than 120 metric tons of 
plutonium and highly enriched uranium. As is widely known, it takes 
mere pounds to make a nuclear device with the devastating effect of the 
bomb exploded over Hiroshima. Moreover, we have no accounting for 
Russia's non-strategic weapons and still have factors of uncertainty 
over how many they have, and how secure they are. And for reasons 
having to do more with political science than political foresight, we 
stalled out the Nunn-Lugar Cooperative Threat Reduction program for 
almost a full fiscal year, while Congress considered different versions 
of a waiver authority for the executive branch.
    Mr. Chairman, I want to congratulate the efforts you have made to 
grant the executive branch permanent waiver authority so that this 
vital work can continue without interruption. If the President 
concludes our national security interest is served by such a waiver, he 
must be able to exercise that judgment in a manner that ensures the 
programmatic integrity of Nunn-Lugar. A gap in program administration 
opens an opportunity for terrorists and creates a gap in our own 
security. To again recall the President's words, ``Our enemies have 
openly declared they are seeking weapons of mass destruction and 
evidence indicates they are doing so with determination.'' I encourage 
this Congress to speak and act decisively on this issue--this session. 
Should we ever suffer attack by terrorists with weapons obtained from 
unsecured stores of weapons and materials from the former Soviet Union, 
the American people will be unforgiving to learn that programs designed 
to prevent this occurrence were interrupted or weakened because the 
President was constrained in this ability to act in the best security 
interest of the United States.
    At a fundamental level, we must ask ourselves whether conditions on 
security assistance to Russia and other former Soviet states--some of 
which were put in place almost a decade ago--remain relevant in light 
of the changed nature of the threats we face after September 11th. I 
don't believe so. But at the very least, I believe the President must 
have unqualified authority to waive those conditions in the interest of 
national security as circumstances demand. The Nunn-Lugar program and 
its counterparts at the Departments of Energy and State served the 
security interest of this country well in the post-Cold War period. In 
the post 9-11 era, Nunn-Lugar and its counterparts are needed ``now 
more than ever.''
    At the same time, we do well to remember that unsecured nuclear, 
biological and chemical weapons and materials reside outside the 
territory of the former Soviet Union. Our near-term security focus 
should look beyond these borders. Twenty metric tons of highly enriched 
uranium were distributed to over 130 civilian reactors and other 
facilities in 40 countries around the world in the last 50 years, under 
the ``Atoms for Peace'' program. Much of the material remains broadly 
distributed throughout the globe at inadequately guarded sites. We have 
to get our hands around this problem and clean out the material at 
risk. We know of at least two dozen circumstances requiring our 
immediate attention. We at NTI are pleased to have had a role in 
addressing the most serious of these circumstances in Belgrade, 
Yugoslavia, last year. The U.S. State Department, the Department of 
Energy and Russia's Minatom deserve high marks for this operation, 
which removed two and a half bombs worth of highly enriched uranium 
from a research reactor near Belgrade to a secure location where it 
will be blended down so it cannot be used in nuclear weapons. Yet we 
have only just begun to do what needs to be done.
    Unsecured nuclear bomb material anywhere is a threat to everyone, 
everywhere and the approach and pace of these programs is inadequate to 
the threat. This point comes across clearly in a report published last 
week by a team at Harvard University entitled ``Controlling Nuclear 
Warheads and Materials.'' \2\ This report, which was commissioned by 
NTI, focuses attention on the requirements for sustained Presidential 
leadership on these issues and on the need for an integrated, 
prioritized plan for blocking the terrorist pathway to the bomb. While 
the focus of this report is on nuclear weapons and materials, the same 
can be said about biological and chemical weapons.
---------------------------------------------------------------------------
    \2\ Matthew Bunn, Anthony Wier, John P. Holdren, ``Controlling 
Nuclear Warheads and Materials--A Report Card and Action Plan,'' March 
2003, Harvard University. Available at www.nti.org/cnwmj
---------------------------------------------------------------------------
    We must fix our priorities so the greatest dangers draw our 
greatest investments. Admittedly, designing an effective defense 
against the full range of risks is a formidable challenge. To succeed, 
we must begin with an objective, comprehensive national security 
estimate that assesses each risk, ranks each threat, computes every 
cost, and confronts the full range of dangers. From this analysis can 
be constructed a broad-based, common ground strategy and measured 
defense--one that would allow us to direct the most resources to 
prevent threats that are the most immediate, the most likely, and the 
most potentially devastating. In the absence of an infinite budget, 
relative risk analysis must be the beginning point in shaping our 
strategy and allocating our resources--to defend our citizens at home 
and abroad. If such an assessment exists, we have not seen it. Without 
it, I suggest it will be extremely difficult for the President or the 
Congress to get our spending and program priorities right.
    President Bush has an historic opportunity to dramatically reduce 
the threat from weapons of mass destruction within the next two years 
of his Administration. The good news is that he is served by a number 
of highly dedicated and competent appointed and career officials. They 
are taking important steps in reducing the dangers from weapons of mass 
destruction. But we need giant strides and, as I noted earlier, a much 
greater high-level focus and coordination of this urgent mission. The 
President's strategy to combat weapons of mass destruction must be 
translated into a concrete plan with clearly differentiated elements 
for nuclear, chemical and biological weapons, with clearly defined 
milestones and clearly defined accountability. For this to happen, the 
President must make crystal clear that what he has called his number 
one security priority--``keeping the world's most destructive weapons 
out of the hands of the world's most dangerous people''--is, in words 
and practice, the number one priority of his Administration. If this is 
done, programmatic priorities will become Presidential priorities, and 
the money will follow.
    And getting our programmatic and spending priorities right is but 
one piece of a larger mosaic. To counter the threat from catastrophic 
terrorism, we will need an unprecedented level of international 
security cooperation. This will require getting our diplomatic 
priorities right. And here, too, I am concerned that we are trying to 
do too many things simultaneously without sufficient focus on the 
closest snakes.
    Mr. Chairman, I would like to associate myself with the words you 
wrote not long ago in The Washington Post: We have to make sure that 
every nation with nuclear, biological, or chemical weapons, materials 
or know-how accounts for what it has, secures what it has, and pledges 
that no other nation or group will be allowed access. That 
straightforwardly stated objective must be our number one diplomatic 
priority. As such, it is imperative that we expand the scope of 
successful programs such as Nunn-Lugar, the Department of Energy's 
Material Protection, Control and Accounting Program, and the Department 
of State's science center, export control and border security 
activities. I am confident that the lessons we have learned during the 
last decade in working with the Russians and other states in a 
cooperative effort to reduce threats can be applied in other regions of 
the world that face instability and the prospect of open conflict. 
Making the Nunn-Lugar concept global and extending its programmatic 
reach to other nations and to the world's regional ``hot spots'' is the 
most singularly important step the Congress can take to deny terrorists 
access to weapons of mass destruction and to reduce the potential that 
these weapons may ever be used by states or non-state actors. I 
strongly endorse the efforts to extend Nunn-Lugar globally beyond the 
Russian Federation and other states of the former Soviet Union.
    As we talk with our allies and with all nations--we must underscore 
the importance of working closely together to meet the threat posed by 
catastrophic terrorism--the kind of terrorism that has the capacity to 
stagger societies and destroy lives oceans away from ground zero. It is 
the brand of terrorism that truly threatens everyone, and so it is the 
brand of terrorism with the best chance to arouse a cohesive global 
opposition. And here again, we are taking important steps, but not yet 
the giant strides required.
    Last summer, G-8 leaders met in Canada and took a particularly 
important step. At that meeting, the leaders declared (and I quote): 
``we commit ourselves to prevent terrorists, or those that harbor them, 
from acquiring or developing nuclear, chemical, radiological and 
biological weapons; missiles; and related materials, equipment and 
technology.'' To implement these principles, they established the ``G-8 
Global Partnership Against the Spread of Weapons and Materials of Mass 
Destruction,'' committed $20 billion over ten years, and established a 
six-element program to guide their work.
    The establishment of the G-8 Global Partnership and the leadership 
pledges achieved in Kananaskis are welcome and important developments. 
One should recognize, however, that the G-8 makes many commitments at 
its annual meetings. We now have to invest the diplomatic energy to 
make the Global Partnership real. NTI is working with the Center for 
Strategic and International Studies and 15 non-governmental 
organizations in North America, Russia, Europe and Japan to build the 
intellectual and political support required to strengthen the 
Partnership.
    We need to press the G-8 governments to turn those principles into 
a clear set of priorities, to establish a timeline to guide their work, 
and make sure they devote adequate resources to the work.
    And we need to press the G-8 governments to make the Global 
Partnership truly global--to include every nation with something to 
safeguard or that can make a contribution to safeguarding it. Today, 
this G-8 agreement is all but invisible--to the press, to Congress and 
to nations around the world. For this coalition to extend itself from 
eight nations to all nations, the President of the United States is 
going to have to promote it with the full authority of his office.
    To achieve a global coalition, we will have to make this a 
diplomatic priority--something that leads the set of talking points 
whenever the President or an American diplomat of any rank up to the 
Secretary of State sits down to talk with officials of other nations. 
And why should it not be? The final section of the National Security 
Strategy released by the White House in September says: ``The United 
States must and will maintain the capability to defeat any attempt by 
an enemy--whether a state or non-state actor--to impose its will on the 
United States, our allies, or our friends.'' That promise cannot be 
fulfilled without denying terrorists weapons of mass destruction, and 
that cannot be achieved without the very kind of international 
cooperation envisioned in a full scope global partnership.
    Mr. Chairman, in these remarks I have tried to outline briefly a 
set of domestic and international initiatives for how we should go 
about dealing with the threats from weapons of mass destruction. There 
are, of course, other issues of weapons of mass destruction policy that 
involve the vital security interests of our country and the world--
particularly the related matters of North Korea, Iran and Iraq. I would 
be happy to address these matters in the question and answer period 
which follows these formal remarks. Thank you.

    The Chairman. Thank you very much, Secretary Curtis.
    Dr. Smithson.

  STATEMENT OF AMY E. SMITHSON, PH.D., SENIOR ASSOCIATE, THE 
  HENRY L. STIMSON CENTER, DIRECTOR, CHEMICAL AND BIOLOGICAL 
        WEAPONS NONPROLIFERATION PROJECT, WASHINGTON, DC

    Dr. Smithson. Mr. Chairman, it is, indeed, a pleasure to be 
here with you today, as well as with my colleagues on this 
panel. However, we cannot ignore that we are on the eve of a 
war with Iraq, a country stigmatized by its use of poison gas, 
a country that for over a decade has been anything but truthful 
and cooperative with international inspectors about its bio-
weapons program. Even if this war unfolds without the use of 
unconventional weapons and concludes swiftly, the struggle to 
thwart the proliferation of chemical, biological, and nuclear 
arms will endure indefinitely.
    You are so knowledgeable about the proliferation threat 
that I think I will let my written remarks speak, to the most 
part, about the nature of that threat, but I would point out 
that we have had some discussion here today about the nuclear 
threat emanating from North Korea. If you will look in tables 1 
and 2 \2\ of my statement, you will also see that there are a 
number of countries, including North Korea, that are known to 
have chemical and biological weapons capabilities.
---------------------------------------------------------------------------
    \2\ Tables 1 and 2 can be found in Dr. Smithson's prepared 
statement on pages 67-68.
---------------------------------------------------------------------------
    When it comes to the terrorist-level threat, they can 
obtain many of the ingredients and equipment on the open 
marketplace, which can then be put toward a chemical or 
biological weapons capability. What will frustrate terrorists 
most are the technical hurdles associated with large-scale 
production of chemical agents and with post-production and 
dispersal of biological agents.
    A terrorist seeking to overcome those technical hurdles, 
would probably turn, first and foremost, to the former Soviet 
Union, to the more than 60 facilities that were involved in the 
research development, testing, production, and storage of the 
Soviet Union's chemical and biological weapons. You know the 
tale there all too well. Russia has declared 40,000 metric tons 
of chemical agent and we also know, from the whistle-blower, 
Dr. Vil Mirzayanov, that the Soviets tested and produced a 
small quantity of a new generation of nerve agents far more 
deadly than anything that is in the U.S. arsenal which is now 
being destroyed. The Soviets had a prodigious bio-weapons 
program involving over 65,000 weapons scientists and 
technicians. They weaponized contagious diseases, hardened 
others against antibiotic treatment, and had robust 
capabilities in anti-crop and anti-livestock agents.
    Without a doubt, this reservoir of talent is the deepest in 
the world, and I fear that terrorists may, indeed, go there for 
help. We know that Aum Shinrikyo knocked on those doors.
    So, Iraq is clearly not the only chemical and biological 
threat in the world. Therefore, and I think you have heard this 
panel say loudly, nonproliferation should be a priority, not an 
afterthought. What remains to be seen is whether Washington 
will press forward vigorously with a panoply of 
nonproliferation tools. I will turn first to those that apply 
to the former Soviet Union.
    Mr. Chairman, I cannot help but salute you and former 
Senator Nunn for having the foresight and the courage to 
inaugurate the Cooperative Threat Reduction program. With your 
permission, since these efforts sometimes do not receive the 
attention that the nuclear efforts do, I would like to 
highlight a few of the impressive accomplishments of the CTR 
programs, the Freedom Support Act effort, as well as the 
Initiatives for Proliferation Prevention, with regard to the 
chemical and biological weapons institutes.
    For example, these funds have helped to dismantle the 
mammoth chemical and biological weapons production facilities 
in the former Soviet Union, such as Volgograd and 
Novocheboksarsk, which made the USSR's nerve agents, and 
Stepnogorsk, which was built to churn out anthrax by the ton. 
Also completed are the demilitarization and cleanup of chemical 
and biological weapons testing facilities at Nukus and on 
Vorozhdeniye Island in the Aral Sea region of Uzbekistan.
    I would point to the improvement of security at Russia's 
chemical weapons storage sites and also at several biological 
institutes, so that these dangerous seed-culture collections 
can be consolidated under higher protection. I would also 
highlight the construction of an analytical laboratory to 
support Russia's chemical weapons destruction program and the 
conduct of collaborative research with bio-weaponeers, 
particularly the work being done on dangerous pathogens. This 
work is doubly important because it will enable a better 
understanding of the Soviet germ-weapons program, which is 
necessary to improve U.S. military and civilian defenses.
    I could go on, but I think you get the picture. I also 
think you know that much work remains to be done in what I have 
called the ``toxic archipelago.''
    To further reduce proliferation threats, I would recommend 
additional investments to tighten security at Russia's chemical 
weapons storage sites, to enhance safety and security at the 
biological institutes, and to enable the dismantlement of 
specialized infrastructure at both chemical and biological 
institutes. Full funding, once and for all, of the Shchuch'ye 
destruction facility is in order so that the elimination of 
Russia's 32,000 metric tons of nerve agent can begin as soon as 
possible. I would echo your sentiment, sir, that perfection 
should not be the enemy of the good when it comes to the 
certification process interfering with these important threat-
reduction programs.
    I would ask for increased funding for collaborative 
research with chemical weaponeers until the 3,500 critical 
proliferation-risk scientists that the U.S. Government believes 
would be threatening if they cooperated with other governments 
or terrorists can be supported at least at the poverty level.
    And finally, some believe that cooperative activities 
should be curtailed until Russia grants access to the military 
biological institutes. Mr. Chairman, you have had trouble 
getting into Kirov. The three other closed institutes would be 
located at Yekaterinburg, Sergiev Posad, and St. Petersburg.
    I would strongly argue against cutting back Freedom Support 
Act or CTR funds for work with bioweaponeers because these 
facilities remain closed. Rather, such funds should continue to 
rise until U.S. officials can confidently tell Congress that 
all proliferation risk bioweaponeers have been reached. This 
work slowly builds the trust that will enable ever-more 
cooperative defensive efforts in the years ahead, including the 
opening of these military facilities.
    Less than half a year from the first anniversary of the G-8 
Global Partnership, more concrete plans need to be announced, 
funding priorities need to be agreed, and Russia needs to 
clarify how it will facilitate accelerated CTR programming. In 
addition, we have already had discussion of the importance of 
expanded CTR programming beyond the borders of the former 
Soviet Union. Certainly I would agree that there are a number 
of healthy candidates for this type of assistance, and I can 
point to efforts like enhanced disease surveillance as examples 
where such funds might make a positive nonproliferation 
contribution. This type of aid can be administered bilaterally 
or on a more widespread basis.
    In November 2002, the Bush administration asked other 
nations to take whatever steps they deemed appropriate to 
stiffen bio-safety, bio-security, and oversight of genetic 
engineering research, an approach that does little to compel 
governments to take worthwhile action. Moreover, largely at 
Washington's behest, the international community now convenes 
only once a year to consider important biological weapons 
nonproliferation proposals.
    Rather than this anemic approach, U.S. security interests 
would be better served by advocating tougher mandatory 
standards with noncompliance penalties for bio-safety, bio-
security, and oversight of genetic engineering research. The 
models for these types of standards can be found in the 
regulations of the Centers for Disease Control and Prevention 
and the National Institutes of Health.
    In addition to promoting revised proposals along these 
lines, I would also ask the committee to direct the executive 
branch to intensify the pace of these negotiations. Otherwise, 
the nonproliferation benefits from these tools, which are aimed 
mainly at the terrorist-level threat, will certainly not be 
realized for years to come.
    Mr. Chairman, Senators, my written statement contains 
recommendations to sharpen additional nonproliferation tools. 
This to-do list for chemical and biological weapons 
nonproliferation is lengthy. But unlike any of the chores that 
perpetually await many of us on the weekend, the consequences 
of ignoring these to-do tasks or for doing them in a half-
hearted manner could be grave, indeed, for U.S. soldiers and 
citizens. So, it is vital that Washington and the international 
community spare no effort to reduce the chemical and biological 
weapons threat at the nation-state level. Hindering terrorist 
acquisition of these weapons will require even more ingenuity, 
collaboration, and determination.
    I look forward to your questions. Thank you.
    [The prepared statement of Dr. Smithson follows:]

 Prepared Statement of Amy E. Smithson, Ph.D., Director, Chemical and 
  Biological Weapons Nonproliferation Project, Henry L. Stimson Center

    With America on the precipice of war with Iraq, a country known to 
have used chemical weapons in its war with Iran and believed to be in 
possession of considerable biological and chemical weapons 
capabilities, this committee's inquiry into the status of efforts to 
retard the proliferation of unconventional weapons could not be more 
timely. Even if a war with Iraq unfolds without the use of 
unconventional weapons and comes to a swift conclusion, the struggle to 
thwart the proliferation of chemical, biological, and nuclear arms will 
endure indefinitely. Unlike nuclear weapons, which can be developed 
from scratch only at considerable cost and technical skill, chemical 
and biological weaponry can be acquired at significantly lesser cost, 
using equipment and materials commonly employed in commercial 
industries. While there are appreciable technical hurdles involved in 
the manufacture and dispersion of biological and chemical agents, 
poison gas remains the lowest on the weapons of mass destruction food 
chain, with germ weapons coming next and nuclear weapons at the top. 
Nations seeking unconventional weapons have traditionally scaled the 
ladder, starting with chemical weapons. Moreover, when unconventional 
weapons have been employed, mankind has turned most frequently to 
poison gas, as World Wars I and II and more recently the 1980s Iran-
Iraq War, have demonstrated. Therefore, it is vital that the US 
government and the international community spare no effort to reduce 
the chemical and biological weapons threat at the nation state level. 
Hindering terrorist acquisition of these weapons will require even more 
ingenuity, collaboration, and determination.
    In my testimony, I will provide an overview of chemical and 
biological weapons proliferations concerns, followed by an accounting 
of the tools that can be employed to stem the proliferation tide. The 
good news is that such tools are relatively plentiful; the bad news is 
that none of them will do the job in its entirety and several of them 
enjoy lackluster support, including from various decisionmakers in this 
capital.

 AN OVERVIEW OF CHEMICAL AND BIOLOGICAL WEAPONS PROLIFERATION CONCERNS

    A review of the status of chemical weapons programs worldwide would 
begin with the stipulation that four nations, namely Russia, the United 
States, India, and South Korea, have declared possessing chemical 
arsenals and are in the process of destroying those munitions under the 
supervision of international inspectors who monitor compliance with the 
treaty that bans poison gas, the 1997 Chemical Weapons Convention 
(CWC). According to the US government, an additional sixteen countries 
are involved in some level of offensive chemical weapons activity. 
Besides Iraq, North Korea and Syria have reportedly stockpiled chemical 
weapons, as Israel may have done. While Egypt is described as having 
chemical agent production capabilities, Taiwan and Myanmar may not have 
progressed past research, development, and testing. Several additional 
countries that the US government cites as being of proliferation 
concern are members of the CWC, namely China, Ethiopia, Iran, South 
Africa, Sudan, Pakistan, Vietnam, and Yugoslavia. Another country with 
a checkered past regarding chemical weapons is Libya, which reportedly 
is on the verge of acceding to the CWC. Upon joining the CWC, as Table 
1 below shows, six of these nations declared having former chemical 
weapons production facilities. Since mid- 1997, CWC inspectors have 
systematically padlocked and begun certifying the destruction of these 
facilities or their conversion to peaceful purposes.
    When the USSR collapsed, Russia inherited the world's largest and 
most sophisticated chemical weapons capability. Moscow is a member of 
the CWC and has declared a 40,000 metric ton arsenal. Slightly over 
eighty percent of that stockpile consists of nerve agents, which are 
stored at five different facilities. Two other storage sites house 
mustard and lewisite. In December 2002, Russia began destroying mustard 
gas at its Gorny storage site. Russia also declared 24 production 
facilities to the CWC's international inspectorate, of which six have 
been destroyed and another seven converted to peaceful uses under the 
watchful eye of inspectors. US- and European-funded programs, which 
will be discussed later, have propelled these destruction and 
conversion activities.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Actual weapons materials aside, another proliferation problem 
concerns human expertise. ``Brain drain'' is linguistic short hand for 
the possibility that governments or terrorists attempting to acquire 
nuclear, biological, chemical, or missile capabilities might siphon off 
the human expertise behind the USSR's weapons of mass destruction. A 
26-year veteran of the Soviet chemical weapons program, Dr. Vil 
Mirzayanov, estimates that at its height the USSR employed roughly 
6,000 scientists and technicians to conduct research, development, and 
testing of chemical weapons. Of that number, the US government 
conservatively estimates that 3,500 would pose a serious proliferation 
risk if they were to collaborate with proliferating governments or 
terrorists. That proliferation dilemma is underscored by the 
unparalleled amount of chemical weapons expertise that resides in 
Russia. In 1991, Dr. Mirzayanov blew the whistle on an ultra-secret 
Soviet program that successfully developed, tested, and produced in 
small quantities an entirely new generation of nerve agents, known as 
the novichok agents.
    In my view, the US government and the international community have 
yet to reward Dr. Mirzayanov's valor by bringing Moscow to full account 
for the novichok program. The reasons for this sad state of affairs are 
complicated and perhaps better discussed another day, but when 
considering chemical weapons proliferation concerns, one must be 
mindful that a proven design exists for a turn-key chemical weapons 
production capacity that could be buried in the agro-chemical industry 
and within a relatively short period of time begin churning out 
chemical agents five to eight times as deadly as VX and ten times as 
lethal as soman.
    Given the fact that the formulas of chemical weapons have been in 
public literature for over half a century and the necessary equipment 
and ingredients are the backbone of a global chemical industry, 
terrorists could obtain several essential components of a chemical 
weapons capability without too much trouble. However, should they 
attempt to produce the large quantities of chemical agent necessary to 
cause massive casualties, they could be tripped up by the same 
technical complexities that apparently foiled the efforts of the 
Japanese cult Aum Shinrikyo to inaugurate sarin production at its $10 
million, state-of-the-art production facility near Mount Fuji. Briefly, 
Aum Shinrikyo was the group that released the nerve agent sarin on 
Tokyo's subway in mid-March 1995, killing a dozen commuters, seriously 
injuring several dozen more, and frightening thousands who rode the 
subway that day. After this attack, which garnered headlines around the 
world, predictions of mass casualty chemical terrorist attacks 
abounded. Many of the initial assessments of Aum Shinrikyo's activities 
failed to appreciate that while the cult's corps of scientists 
successfully produced several chemical agents in beaker quantities, as 
one might expect, they subsequently experienced serious mishaps when 
they attempted to ramp their sarin production facility up to full 
speed. The technical difficulties associated with full-scale production 
and aerosolization and delivery of agents may explain why only 
governments have overcome those technical hurdles.
    When it comes to biological weapons, the proliferation picture is 
also grim. For quite some time, the number of nations suspected of 
harboring biological weapons programs has hovered at a dozen. As with 
chemical weapons, much of the equipment, ingredients, and know-how 
needed to make biological weapons is integral to the pharmaceutical and 
biotechnology industries. Therefore, governments can mask a biological 
weapons program in an industrial setting, as did the USSR and Iraq. 
These two cases aside, public statements from US officials about the 
individual countries on its proliferation watch list tend to be light 
on specifics. Of the countries named in Table 2 below, however, the US 
government has asserted that Iran may have crossed the line from 
offensive research and development to production and stockpiling of 
germ weapons. Depending on which report one consults, Libya and North 
Korea may also have crossed that line.
    Other than Iraq, the country listed below that generates especially 
pressing proliferation concerns is Russia. In blatant violation of the 
international treaty outlawing biological weapons, the Biological and 
Toxin Weapons Convention (BWC) for over two decades, the USSR redefined 
the horizons of germ warfare with a massive bioweapons effort that 
involved approximately 65,000 scientists and technicians at over fifty 
research, development, testing, and production sites. The Soviets 
harnessed over fifty diseases for military purposes. Not only did the 
USSR harden some anti-human agents against medical treatment, it 
weaponized contagious diseases such as plague, smallpox, and Marburg, a 
hemorrhagic fever. The Soviets also put some 10,000 scientists to work 
on anti-crop and anti-livestock bioweapons. Nonproliferation programs 
need to reach into this vast bioweapons complex to secure key assets 
and to ensure that the bioweaponeers have viable peaceful alternatives 
to continued weapons work, perhaps at the behest of other governments 
or terrorist groups proliferating germ weapons.

  Table 2: Possible Government Sources of Biological Seed Cultures and
                           Weapons Expertise.
------------------------------------------------------------------------
                      Status as a
     Country       State Sponsor of          Overview of Biowarfare
                      Terrorism*                 Capabilities
------------------------------------------------------------------------
China              No                <bullet> Suspected offensive
                                      weapons program involving
                                      acquisition, development,
                                      production, stockpiling of
                                      biological agents
                   ................  <bullet> Possesses infrastructure
                                      necessary for biological warfare
                                      program
------------------------------------------------------------------------
Egypt              No                <bullet> Military-applied research
                                      program
                   ................  <bullet> National research center
                                      investigating agent production and
                                      refinement techniques
                   ................  <bullet> Research centers engaged
                                      in cooperative biological research
                                      with US civilian and military
                                      laboratories
                   ................  <bullet> No evidence of significant
                                      or widespread research or activity
------------------------------------------------------------------------
India              No                <bullet> Five military centers
                                      thought to be involved in
                                      biological program
                   ................  <bullet> Research and development
                                      efforts geared mainly to defense
                   ................  <bullet> Possesses biotechnology
                                      infrastructure
------------------------------------------------------------------------
Iran               Yes               <bullet> Military-applied research
                                      program, including possible
                                      possession of small stocks of
                                      biological agent
                   ................  <bullet> Documented attempts to
                                      acquire dual-use equipment and
                                      materials
                   ................  <bullet> Mycotoxins received
                                      initial research attention;
                                      research subsequently expanded to
                                      other biological agents
                   ................  <bullet> Program anchored in
                                      biotechnology and pharmaceutical
                                      industries, an infrastructure
                                      sufficient to mask and support a
                                      significant program; medical,
                                      education and scientific research
                                      organizations also used for agent
                                      procurement, research, and
                                      production
------------------------------------------------------------------------
Iraq               Yes               <bullet> Five key sites affiliated
                                      with research, development, and
                                      production
                   ................  <bullet> United Nations Special
                                      Commission monitored five vaccine
                                      or pharmaceutical facilities;
                                      thirty-five research or university
                                      sites with relevant equipment;
                                      thirteen breweries, distilleries
                                      or dairies; eight diagnostic labs;
                                      five acquisition and distribution
                                      sites for biological supplies;
                                      four facilities associated with
                                      biological equipment development;
                                      and four product development
                                      organizations
                   ................  <bullet> Worked with anthrax,
                                      botulinum toxin, aflatoxin, ricin,
                                      Clostridium perfringens,
                                      trichothecene mycotoxin, wheat
                                      cover smut
                   ................  <bullet> Declared production of
                                      19,000 liters of botulinum toxin;
                                      8,500 liters of anthrax; and 2,200
                                      liters of aflatoxin; all
                                      quantities declared destroyed but
                                      not verified
                   ................  <bullet> Filled bombs and missile
                                      warheads with anthrax, botulinum
                                      toxin, and aflatoxin; spray tanks
                                      also developed as delivery
                                      mechanism
------------------------------------------------------------------------
Israel             No                <bullet> Conducting biological
                                      defense research
                   ................  <bullet> Robust civilian
                                      biotechnology sector
                   ................  <bullet> Program likely to mimic
                                      former US and Soviet programs
------------------------------------------------------------------------
Libya              Yes               <bullet> Engaged in initial testing
                                      and research; trying to develop
                                      agent weaponization capacity
                   ................  <bullet> Possible production of
                                      laboratory quantities of agent
                   ................  <bullet> Interested in funding
                                      joint biological ventures with
                                      international partners
                   ................  <bullet> Program slowed by
                                      inadequate biotechnology
                                      infrastructure
                   ................  <bullet> Has capacity to produce
                                      small quantities of biological
                                      equipment
------------------------------------------------------------------------
North Korea        Yes               <bullet> Conducting military-
                                      applied research at universities,
                                      medical and specialized institutes
                   ................  <bullet> Research involves anthrax,
                                      cholera, bubonic plague
                   ................  <bullet> Possible testing on island
                                      territories
                   ................  <bullet> Likely able to produce
                                      limited quantities of biological
                                      warfare agents
                   ................  <bullet> Wide means of delivery
                                      available
------------------------------------------------------------------------
Pakistan           No                <bullet> Infrastructure might be
                                      able to support a limited
                                      biological program
                   ................  <bullet> Conducting research and
                                      development with potential
                                      application for a biological
                                      warfare program
                   ................  <bullet> Research at scientific
                                      centers includes work in
                                      microbiology
------------------------------------------------------------------------
Russia             No                <bullet> Over fifty research,
                                      testing, and production facilities
                   ................  <bullet> Roughly 65,000 weapons
                                      scientists and technicians; at
                                      least 7,000 deemed critical
                                      weaponeers
                   ................  <bullet> Weaponization of smallpox,
                                      Marburg, anthrax, plague, and many
                                      other diseases
                   ................  <bullet> Genetic engineering of
                                      diseases to strengthen them
                                      against medical treatments,
                                      vaccines
                   ................  <bullet> Crossing of diseases to
                                      create new, more deadly weapons
                   ................  <bullet> Advanced dissemination and
                                      weapons delivery capabilities
------------------------------------------------------------------------
Syria              Yes               <bullet> Sufficient biotechnology
                                      infrastructure to support small
                                      program
                   ................  <bullet> Robust program would
                                      require foreign assistance
------------------------------------------------------------------------
Taiwan             No                <bullet> Significant biotechnology
                                      capabilities and sophisticated
                                      equipment from abroad
                   ................  <bullet> Possible military-applied
                                      research in biology
------------------------------------------------------------------------


    As 1992 began, tens of thousands of former Soviet bioweaponeers 
also found themselves without a source of income. Like their chemical 
counterparts, these skilled scientists and technicians are the living 
legacy of the prodigious Soviet biological weapons programs and 
constitute no less a proliferation threat than the actual weapons that 
they developed and produced. Many are under the impression that 
terrorists could easily cause massive casualties with disease. Should 
terrorists persuade former Soviet bioweaponeers to accept lucrative 
payoffs in exchange for their knowledge or bioweapons seed cultures, 
such deals could jumpstart terrorists' biological weapons programs. 
While fermenting biological agents is not that difficult, major 
technical hurdles arise in the post-production and dispersal processes, 
where the technical intricacies are such that the USSR mustered a 
virtual army of scientists and technicians to master biological 
weaponry. According to the conservative estimates of US government 
officials, some 7,000 of those scientists would pose a grave 
proliferation risk were they to cooperate with other governments or 
terrorist groups.
    The challenges facing potential bioterrorists are further 
illustrated by Aum Shinrikyo's biological weapons failures. This cult 
is erroneously credited with having successfully dispersed anthrax and 
botulinum toxin, when in fact the cult's scientists came nowhere near 
that feat. Aum Shinrikyo's bioweapons program was not nearly as large 
as its chemical weapons program, but it was nonetheless very well 
funded and involved roughly a dozen scientists who worked for several 
years to conquer the technical obstacles of bioweaponeering.
    From this overview, it should be clear that a successful 
prosecution of a war with Iraq would not bring to an end the chemical 
and biological threats facing the United States. Seen in this light, 
nonproliferation efforts should be a priority, not an afterthought. 
According to one adage, recognition of a problem is half of the 
solution to it. Surely, with all of the words uttered by US 
policymakers about the chemical and biological weapons threat since 11 
September 2001, the problems have been recognized. What remains to be 
seen is whether the Washington will press forward with a panoply of 
nonproliferation tools. The safety of US soldiers and citizens will 
depend on the determination with which Washington approaches this task.

                   A MENU OF NONPROLIFERATION OPTIONS

    Aside from international legal mechanisms, such as the CWC and the 
BWC, a number of tools can be applied to reduce the chemical and 
biological weapons threat. An array of proliferation problems reside in 
the former USSR, so this discussion will turn first to the tools that 
apply principally to that area of the globe, followed by a review of 
nonproliferation tools that have a wider geographic applicability, such 
as enhanced disease surveillance, strengthened regulations overseeing 
biological safety, security, and oversight of genetic engineering 
research, and export controls like those administered by the Australia 
Group.

Cooperative Threat Reduction Efforts Related to the Safety, Security, 
        and Dismantlement of the former Soviet Chemical and Biological 
        Weapons Complexes
    A decade ago, when policy makers around the world were scrambling 
to comprehend the security implications of the USSR's collapse, 
Senators Richard Lugar (R-Indiana) and Sam Nunn (D-Georgia, ret.) moved 
boldly forward to inaugurate the Cooperative Threat Reduction (CTR) 
Program. The purpose of CTR was to help the fledgling governments that 
materialized out of the former Soviet empire to secure and dismantle 
their nuclear, biological, chemical, and missile capabilities. CTR's 
accomplishments related to former Soviet nuclear weaponry have garnered 
a fair amount of attention. However, CTR's achievements related to the 
string of chemical and biological weapons facilities scattered across 
some eight former Soviet states--a veritable toxic archipelago--are 
similarly impressive. The following discussion will first address CTR 
efforts devoted to the elimination of segments of Russia's chemical 
weapons capability before moving on to the work done to secure and 
dismantle the former Soviet bioweapons complex.
    As was previously indicated, the USSR built an enormous weapons 
complex and left Russia with the world's biggest chemical arsenal. CTR 
funds have been instrumental in beginning to dismantle that 
infrastructure. Plants at Volgograd and Novocheboksarsk produced the 
USSR's nerve agents, while blister agents were made at Dzershinsk. With 
CTR monies, some 15 buildings at Volgograd have been destroyed. At 
Novocheboksarsk, a munitions preparation building has been 
demilitarized and preparations are underway to do the same with a jumbo 
production and filling building at that site. CTR funds have also 
driven the safe dismantlement and destruction of a chemical weapons 
production plant and testing facility located at Nukus, Uzbekistan.
    Another important facet of CTR programming is directed at enhancing 
the security at Russia's chemical weapons storage facilities. The lack 
of security around these seven facilities was a problem that I aired in 
1995 Stimson Center report. Given the low sums paid to the guards at 
the storage sites and their inferior physical security safeguards, I 
was concerned then, and, quite frankly, I continue to worry that bribes 
and crowbars could spring loose some of the man-portable munitions at 
these sites. With CTR funding, efforts are underway to strengthen the 
physical security at Shchuch'ye and Kizner. Given the delayed 
initiation of Russia's chemical weapons destruction program, it is 
reasonable to assume that more than a decade could pass before Russia's 
declared chemical arsenal is eliminated. Additional investments in 
security to lower the risks of insider theft and to harden these 
storage sites against outside attack would be wise.
    Next, on 30 July 1992, the US government pledged to help Russia get 
its chemical weapons destruction program off the ground, later opting 
to build a destruction facility at Shchuch'ye. CTR funds were first 
used to build an analytical laboratory in Moscow that would permit 
stringent performance and environmental monitoring of chemical weapons 
destruction. Years slipped by as US governmental officials worked with 
their Russian counterparts to iron out the engineering plans and myriad 
logistical details for Shchuch'ye. Certainly, blame can be cast on both 
sides of the Atlantic for the delays that have handicapped the 
Shchuch'ye project. For their part, US officials noted that Russia was 
not doing its share to build the socio-economic infrastructure that 
would enable the project to move forward, but since 2000, Moscow has 
allotted much higher sums for that purpose. Bulldozers cleared the 
property, but again over $132 million in construction funds were held 
up over Executive Branch certifications related to Russian treaty 
compliance.
    At long last, Washington has put to rest its internal political 
squabbles related to certification and CTR. Just under $900 million 
will be needed to construct the Shchuch'ye destruction facility, which, 
once built, will begin destroying 32,000 metric tons of nerve agent. 
The Russian government wants to proceed with this project, and it is in 
US security interests that Russia's stockpile be eliminated. The 2004 
budget request for Shchuch'ye is $200 million. Once and for all, 
Congress and the Executive Branch should throw their full fiscal and 
political support behind the Shchuch'ye project so that the destruction 
of Russia's stocks of nerve agent can begin as soon as possible.
    Giving credit where it is due, European nations have singly and in 
combination provided significant funding to the Russian chemical 
weapons destruction program, enabling the opening of the Gorny 
destruction facility, the demilitarization of the Dzershinsk production 
plant, the initial steps to construct another lewisite destruction 
facility at Kambarka, and the provision of monies for socio-economic 
infrastructure projects at Shchuch'ye. Heading the list of major 
contributors is Germany, which put $50 million into the destruction 
plant at Gorny. The United Kingdom has given over $11 million, the 
Netherlands $10 million, the Italians just under $7 million, Norway $2 
million, and the European Union over $16 million.
    With regard to the former Soviet bioweapons complex, CTR funds have 
made headway destroying infrastructure and enhancing security at some 
of biological institutes. For example, significant components of the 
gargantuan anthrax production facility at Stepnogorsk, Kazakhstan, have 
been dismantled. At the biowarfare agent testing site on Vorozhdeniya 
Island in the Aral Sea Region of Uzbekistan, CTR funding allowed 
specialists to engage in additional decontamination of the pits where 
materials had been buried, ensuring that no residual pathogenic 
materials remained. In addition, projects are underway to eliminate 
infrastructure (e.g., air-handling capacity) and specialized equipment 
at the State Research Center for Virology and Biotechnology at 
Koltsovo, known by its VECTOR acronym. Similar projects are on the 
drawing boards for the State Research Center for Applied Microbiology 
at Obolensk, the All-Russian Institute of Phytopathology at Golitsino, 
and the Pokrov Plant of Biopreparations.
    A principal objective of another facet of CTR programming is to 
enhance biosafety practices and physical security at select biological 
institutes so that the pathogenic culture collections can be 
consolidated at fewer locations, under higher protection. Work to that 
effect is already underway at VECTOR, Obolensk, Golitsino, and Pokrov 
in Russia; the Institute of Virology at Tashkent and the Institute of 
Veterinary Sciences at Samarkand in Uzbekistan; and the State Research 
Agricultural Institute and the Kazakh Institute for Research Plague 
Control in Kazakhstan. Additional biological threat reduction projects 
are slated for facilities in Georgia and Ukraine.
    Given the sheer number of facilities in the toxic archipelago, many 
of which have yet to see much, if anything, in the way of physical 
infrastructure improvements, a clear argument can be made for 
increasing US funds for projects that will strengthen security at 
chemical weapons storage sites, enhance safety and security at 
biological institutes, and enable dismantlement of more specialized 
infrastructure at both chemical and biological institutes. Should 
Congress decide to increase such funds, it should likewise up the 
number of government staffers responsible for managing the 
implementation of these programs. In uncertain and dangerous times, 
most Americans would characterize this as dollars well spent.

Brain Drain Prevention Efforts
    Efforts to prevent the leakage of weapons expertise are another 
important aspect of nonproliferation programming. Brain drain 
prevention programs began in 1994 with the International Science and 
Technology Center's (ISTC's) first collaborative research grants to 
former weapons scientists. Fairly soon, the ISTC, which is funded 
through the Freedom Support Act, was joined by sister organizations, 
namely the Science and Technology Center in Ukraine (STCU), the 
Civilian Research and Development Foundation (CRDF), and the Department 
of Energy's Initiatives for Proliferation Prevention (IPP) program. The 
ISTC and other grant programs were charged with convincing thousands of 
skilled weapons scientists, most with barely a ruble in their pockets, 
that the possibility of receiving collaborative research grants was 
preferable to the certainty of a lucrative job in a proliferating 
country, several of which could be expected to seek their services. 
Through February 2003, the ISTC alone has funded 1,704 projects valued 
at $498 million, providing grant payments to over 58,000 nuclear, 
missile, biological, and chemical weapons experts.
    From the outset, grant assistance to biological and chemical 
weapons scientists was meager in comparison to the grants to nuclear 
and missile weapons specialists. At first, it was easier to reach into 
the nuclear and missile weapons communities given their previous 
interactions with their counterparts in the United States and 
elsewhere. In comparison, the US intelligence community knew less about 
the former Soviet biological and chemical weapons complexes. Moreover, 
the dual-use nature of chemical and biological facilities made it more 
difficult to discern where military-related activities left off and 
purely commercial work began. Since issuing a Stimson Center study 
about the status of brain drain prevention efforts in 1999, I have 
advocated increased funding for chemical and biological brain drain 
prevention grants.
    US funding for collaborative research with bioweapons scientists 
began a gradual rise in 1997 that has become more pronounced in 
subsequent years. Not only are monies flowing through the Freedom 
Support Act for collaborative research with the former bioweaponeers, 
CTR funds are supporting collaborative, closely monitored, dangerous 
pathogens research at Obolensk, VECTOR, the Research Center for 
Molecular Diagnostics and Therapy in Moscow, the Research Center of 
Toxicology and Hygienic Reglementation of Biopreparations at Serpukhov, 
and the State Research Institute of Highly Pure Biopreparations in St. 
Petersburg. In the not too distant future, CTR funds could be devoted 
to similar work at several additional Russian biological institutes, as 
well as institutes in Uzbekistan and Kazakhstan.
    Of particular concern to advocates of transparency, Russia has yet 
to allow access to four key military biological institutes: the Center 
of Military-Technical Problems of Biological Defense at Yekaterinburg; 
the Center for Virology at Sergiev Posad; the Scientific Research 
Institute of Military Medicine at St. Petersburg; and the Scientific 
Research Institute at Kirov. In late 1999, US officials overseeing 
brain drain prevention programming were hopeful that limited access 
would soon begin to occur. Since that has not come to pass, Washington 
must now consider whether some cooperative activities should be 
curtailed until limited or full access is granted.
    For my part, I would strongly argue against cutting back on any 
Freedom Support Act or CTR biological brain drain prevention funds. 
Rather, such funds should continue to rise until US officials can 
confidently tell Congress that these programs have reached all of the 
bioweaponeers of proliferation concern. The US government needs to 
understand what transpired in the former Soviet bioweapons program to 
be able to enhance US military and civilian defenses. Continued 
collaborative research activities with the bioweaponeers therefore hits 
two birds with one stone, keeping these scientists engaged in peaceful 
research and slowly building the bonds of trust that will enable ever 
more cooperative defense efforts in the years ahead, including the 
opening of the closed military institutes.
    Like their biological counterparts, former Soviet chemical 
weaponeers could accelerate the rudimentary chemical warfare programs 
of other countries or terrorist groups to lethal maturity. While more 
brain drain prevention funds have begun flowing to biological grants in 
the past several years, the amounts going into chemical grants have 
remained relatively static. From 1994 to mid-1999, the US government 
was averaging $1.37 million in annual funds for chemical grants through 
the ISTC, the STCU, the CRDF, and the IPP. In 2001, the most recent 
year for which complete ISTC statistics are available, the ISTC alone 
was administering $3 million in grants to chemical weapons scientists. 
While the IPP, STCU, and CRDF programs have some collaborative research 
efforts directed at chemical weapons scientists, their level of effort 
is generally less substantial than the ISTC's work. The ISTC grants 
alone would be inadequate to allow the 3,500 scientists that the US 
government deems to be of critical proliferation risk to support a 
family of four at the poverty line, which stood at $41 per month. 
Consequently, a dedicated increase in grant aid to chemical weaponeers 
is advisable.
    Several other steps could be taken to improve the administration of 
brain drain prevention programs. For instance, Russia should continue 
to clean house of the hardline Soviet holdovers who are primarily 
concerned with perpetuating a weapons capability and their own personal 
influence to the detriment of efforts to transform the weapons 
institutes to peaceful, commercial research and manufacturing centers. 
Since the launch of new research grants can take over two years, the 
ISTC should enact reforms to lessen the time needed to kickoff new 
projects, including shorter deadlines for proposal review by the host 
and funding governments, the formation of expert advisory committees to 
pre-screen grant proposals prior to ISTC processing, and the 
modification of the policy regarding work plan approval. Finally, 
Washington still needs to improve the overall architecture for brain 
drain programming, at the least identifying benchmarks that will enable 
progress to be measured.

Cooperative Threat Reduction Programs Beyond the 10-Year Anniversary
    While there is much to celebrate about the first ten years of CTR 
programs, the preceding discussion underscores that significant tasks 
remain. In July 2002, the leaders of the G-8 countries announced a 
Global Partnership Against the Spread of Weapons and Material of Mass 
Destruction that over the current decade would increase the $10 billion 
the US government has pledged toward CTR programming by another $10 
billion from the remaining G-8 nations. The funds will apply to threat 
reduction across nuclear, missile, biological, and chemical weapons 
programs. Most of the pertinent US programming has been touched upon in 
the previous pages. Continuing its track record in chemical or 
biological threat reduction activities, Germany has promised $33 
million for the chemical weapons destruction facility at Kambarka.
    The sooner that individual G-8 nations specify their intentions, 
the easier it will be to identify possible gaps in threat reduction 
programming. Less than half a year from the first anniversary of this 
global partnership's debut, the time has come for more concrete plans 
to be announced, for agreement on funding priorities, and for Russia to 
clarify how it will provide the support necessary to facilitate 
accelerated CTR programming.
    In addition to this G-8 partnership, Senators Lugar and Nunn have 
proposed expansion of CTR-like programming beyond the borders of the 
former Soviet Union. As the preceding review of the proliferation 
threat revealed, there are several other nations that could be 
considered healthy candidates for assistance to help secure, convert, 
and dismantle chemical and biological weapons facilities and 
capabilities. CTR-like assistance could be particularly helpful in 
enhancing disease surveillance, biosecurity, biosafety, and research 
oversight. Such aid could be administered bilaterally for specialized 
projects or on a more widespread basis.

Enhanced Disease Surveillance
    Another constructive biological threat reduction approach involves 
the enhancement of disease surveillance around the world. The 
attractiveness of this particular tool is that it can be applied on a 
globally or in a more targeted fashion with select countries. Providing 
technical and financial assistance that helps nations improve their 
disease surveillance capabilities is also a dual-purpose threat 
reduction tool. First, such aid would enable foreign countries to 
detect disease outbreaks as rapidly as possible, increasing the ability 
of the public health and medical communities to take life-saving 
intervention. The short time frames involved in international travel 
make it all the more critical that US public health authorities have as 
much notice as possible of disease outbreaks overseas. Depending on the 
disease in question, public health officials may trigger any number of 
measures intended to prevent the disease from migrating to US shores or 
to limit its spread should infected individuals already have arrived in 
America. The current outbreak of severe acute respiratory syndrome 
illustrates the importance of having well-equipped, well-trained 
professionals in the public health service worldwide.
    The second threat reduction dimension of disease surveillance 
assistance relates to the links that would be established and the 
possible access that such US aid could enable. Many public health 
laboratories in developing countries are barely equipped with basic 
equipment. Installing more advanced diagnostic and communications 
equipment would certainly improve the capabilities of such 
laboratories, benefiting the health and well-being of the recipient 
nation's citizenry. Moreover, if foreign microbiologists and 
epidemiologists receive advanced training at US institutions, their 
instruction can include inculcation of the responsibilities associated 
with dangerous pathogens work, as well as proper safety and security 
techniques. Such programs may facilitate subsequent US access to 
overseas facilities where US-trained personnel are working. While one 
does not want to overplay this second dimension of US disease 
surveillance aid, it could foster a better understanding of what is 
happening in overseas laboratories.
    Last year, with these benefits in mind, the Senate passed the 
Global Pathogen Surveillance Act of 2002, legislation originating with 
Senators Joseph Biden (D-Delaware) and Jesse Helms (R-North Carolina, 
ret.). The House of Representatives has yet to schedule action on this 
bill. Also, the current request for CTR funding includes $23 million 
for expanded cooperation with the ministries of health in Kazakhstan, 
Uzbekistan, Georgia, and Ukraine that would strengthen disease 
surveillance capabilities and consolidate dangerous pathogen 
collections in secure facilities that US personnel would be able to 
access.

More Purposeful Steps to Strengthen Biosafety, Biosecurity, and 
        Research Oversight
    In November 2002, the Bush administration debuted initiatives that 
were supposed to move the international community toward stiffer 
security surrounding dangerous pathogens, better biosafety practices, 
and oversight of genetic engineering research. These proposals warrant 
separate consideration because, if properly formulated and given 
sufficient political backing, they could hinder the ability of 
terrorists and government-level proliferators to acquire dangerous 
pathogens, reduce the potential for accidents at high-level biosafety 
facilities, and help police research activities. The current US 
proposals call for individual nations to take whatever steps they deem 
appropriate in these respective areas.
    My counsel to the committee on these issues draws on a braintrust 
of US industry professionals who collectively have over 280 years of 
experience, with specialties ranging from drug research and development 
to process scale-up and manufacture of medicines. Their views on all 
eight US biological weapons nonproliferation proposals are conveyed in 
the Stimson Center's 2002 report, ``Compliance Through Science: US 
Pharmaceutical Industry Experts on a Strengthened Bioweapons 
Nonproliferation Regime.'' The US proposals related to biosafety, 
biosecurity, and research oversight suffer from the same handicap, 
namely the failure to articulate an international standard that 
governments would be expected to meet. Absent identification of and 
agreement on such standards, governments will have little to compel 
them to take action. Many governments will enact measures that fall 
short of worthwhile standards either unintentionally, because they 
cannot decipher the existing discrepant regulatory concepts, or 
intentionally, because they seek to perpetuate illicit activities. The 
let-each-government-do-as-it-pleases approach would further foster an 
uneven patchwork of domestic laws and practices that might have little 
near-term value and could prove difficult to harmonize in the future. 
All of these outcomes are unsatisfactory.
    The industry experts did not consider allowing governments to set 
their own arbitrary standards to be a constructive step forward. 
Therefore, they recommended that states adopt mandatory practices in 
each of these areas. The industry group cited as models for uniform 
standards the pertinent regulations issued by the Centers for Disease 
Control and Prevention (CDC) and the National Institutes of Health 
(NIH).
    Establishing select lists of pathogens, including toxins that are 
dangerous to humans, animals, and plants, would facilitate the 
implementation of biosafety, biosecurity, and research oversight 
standards. For example, the CDC employs a select list to govern 
transfer of some human pathogens. Risk-stratified lists of human, 
animal, and plant pathogens need to be agreed upon to help anchor the 
standards. Such lists could change over time, but it would be 
counterproductive if too many agents were inappropriately categorized 
as high risk.
    Sound reasons exist for establishing universal biosecurity 
standards. Biosecurity regulations currently vary in strength--some 
incorporate oversight and penalties for noncompliance, others do not. 
Other biosecurity regulations apply only to very limited areas of 
activity (e.g., shipping). The industry experts identified as an 
appropriate model for a minimum global standard the US access, 
transfer, and chain-of-custody regulations for select pathogens and 
toxins, or their equivalent.
    Access and transfer restrictions alone are insufficient in that 
they do not even begin to account for the dangerous pathogens and 
toxins that are already present in organizations worldwide. Therefore, 
the industry group recommended a companion biosecurity measure: a 
``house cleaning'' activity. Around the world, academic and research 
institutions, industry facilities, culture collections, and other 
facilities should be required to conduct a thorough inventory of the 
strains that they possess; declare to the appropriate authorities those 
delineated on the select agent lists of dangerous human, animal, and 
plant pathogens; and, in consultation with authorities, dispose of 
them, as appropriate.
    The industry experts recognized that the effective implementation 
of any standards hinges on training, which should be conveyed first in 
universities and colleges and regularly reinforced in the workplace. 
The second foundation of implementing tougher standards begins at the 
level of the individual organizations that are working with dangerous 
pathogens or conducting research with genetically modified organisms. 
At universities, research institutes, industrial and government 
facilities, the appropriate infrastructure must be put in place to 
oversee these activities. For example, designated individual(s) at a 
facility would be responsible for proper training of personnel; review 
of research proposals involving genetically modified organisms; and 
evaluation of the sufficiency of risk assessments and containment for 
proposed projects. Where a governing infrastructure does not already 
exist, national regulations should require its creation along the lines 
laid out in the NIH Guidelines for Research Involving Recombinant DNA 
Molecules.
    Next, the only way to ensure that standards are being uniformly 
applied nationwide is for countries to establish a national capacity to 
oversee facilities working with dangerous pathogens and engaged in 
research involving genetically modified organisms. This regulatory body 
would:

  <bullet> Receive declarations about pertinent activities and 
        capabilities from academic, research, industry, and government 
        organizations;

  <bullet> Certify biosafety and biosecurity practices at these 
        facilities;

  <bullet> Review, approve, and track all projects involving 
        genetically modified organisms; and,

  <bullet> Enforce research oversight, biosafety, and access, transfer, 
        and clean house regulations.

    The industry group strongly urged that noncompliance penalties 
(e.g., loss of job, loss of government grants, suspension of licenses) 
be incorporated in agreed international standards. Absent the 
stipulation and enforcement of considerable penalties for 
noncompliance, some individuals or organizations would make only a 
minimal effort to abide by the regulations.
    The culminating step in the implementation of global biosafety, 
biosecurity, and research oversight standards would be to create an 
international body to coordinate, promote, and administer these 
activities, including the updating of standards, as appropriate.
    Singly, research oversight, biosafety, and biosecurity enhancement 
measures will not go far in thwarting nations or terrorists from 
engaging in wayward research, experiencing leaks at covert weapons 
facilities, or gaining access to dangerous pathogens. Collectively, 
however, global adoption of the CDC/NIH guidelines or their equivalent 
would raise the bar, hampering the ability of aspiring proliferators to 
achieve an offensive weapons capability.
    Largely at the behest of the US government, the international 
community now plans to convene only once a year to discuss important 
bioweapons nonproliferation proposals. Technical talks are to last two 
weeks, followed by a one-week policy discussion. Biosecurity will be 
discussed this fall, with the topic of enhanced disease surveillance 
not on the agenda until 2004. The current schedule does not even 
include discussions of biosafety or oversight of genetic engineering 
research.
    Senators, not only are several of the Bush administration's 
bioweapons nonproliferation proposals anemic, to the international 
community US political will to see constructive action taken in these 
important areas appears sadly lacking. This city abounds with rhetoric 
about the dangers of biological weapons proliferation. Surely, the US 
government can mount a more useful and concerted approach to stricter 
international biosafety, biosecurity, and research oversight measures. 
Given the Bush administration's actions thus far, the burden for 
instigating a more purposeful effort rests with you and your colleagues 
in the House of Representatives.
The Australia Group
    Another tactic that can be used to hinder proliferation of chemical 
and biological weaponry is to cut proliferators off from specialized 
equipment and materials that would abet their proliferation goals. With 
that purpose in mind, the Australia Group was established in the mid-
1980s. The creation of this export control cooperative was spurred by 
the slow recognition of Western governments that commercial trade in 
dual-use chemicals and expertise was fueling programs to develop and 
produce chemical weapons. Out of greed, ignorance, or complacency, 
companies and individuals from Germany, Great Britain, Japan, Austria, 
Belgium, the Netherlands, Italy, Switzerland, France, and the United 
States, among other countries, had sold Iraq and Libya products that 
facilitated their proliferation aims. As these nations individually 
began to enact export controls in the mid-1980s, Australian analysts 
were among the first to recognize that proliferators were selectively 
shopping for desired items among Western suppliers, requesting sales 
from one nation when turned down by another. Australia proposed that 
supplier nations meeting to discuss the problem in April 1985.
    From an original fifteen member countries and agreement to 
harmonize export controls on a handful of chemical weapons precursors, 
the Australia Group has matured to include thirty-three member 
governments, plus the European Commission, that exercise coordinated 
export controls on 54 precursor chemicals; dual-use chemical 
manufacturing facilities, equipment, and related technology; plant 
pathogens, animal pathogens, biological agents; and dual-use biological 
equipment. If companies operating on the territory of an Australia 
Group member are approached with a purchase request for any of the 
items on these common control lists, the sale is not to proceed without 
a licensing review by that government. That review process hinges on 
the proliferation implications of the individual sale in question. 
Should an Australia Group member deny a license, that decision is 
shared with other Australia Group members to reduce the possibility 
that the item in question could be obtained elsewhere. Australia Group 
members meet yearly to update each other on pertinent activities and to 
consider whether the control lists need adjustment or other steps need 
to be taken to make the export controls more effective.
    Proponents of export controls argue that the cause of 
nonproliferation is served by severing the ability of proliferators to 
purchase the equipment and materials that are central to a weapons 
capability. Detractors, largely from developing countries, counter that 
export controls are discriminatory. Developing countries assert that 
nations that belong to the CWC and/or the BWC should be considered 
members in good standing of the international community, allowed full 
access to trade in chemical and biological goods, unless noncompliance 
charges are raised. They further argue that the Australia Group's 
controls have a negative effect on the economic well-being of 
developing countries. Therefore, since its inception, the Australia 
Group has been controversial.
    In a June 1995 article, entitled ``Rethinking Export Controls on 
Dual-Use Materials and Technologies: From Trade Restraints to Trade 
Enablers,'' US analyst Brad Roberts addressed the arguments raised by 
the Australia Group's critics. According to Roberts' survey of trade 
data, the existence of select export controls liberates trade between 
supplier and developing nations. In the absence of export controls, 
supplier companies worried that certain transactions might somehow 
assist proliferators tend to err on the overly cautious side, cutting 
trade entirely with some nations. However, with governments shouldering 
the burden of making the proliferation risk assessment on controlled 
items, those same companies are free to engage in trade in non- control 
list items, which by far constitute the majority of materials and 
equipment available or trade.
    If the controversy surrounding the Australia Group and other export 
control endeavors is ever to be laid to rest, the relationship between 
export controls and trade must be further explored. Doing so could 
dispel objections from developing countries that may be based more on 
emotion than fact. Ideally, law-abiding governments around the world 
would then become more vigilant about trade in dual-use chemical and 
biological equipment and materials. The route to the more global 
practice of export controls lies in factual evidence about the effect 
of export controls on overall trade patterns.

                        CONCLUDING OBSERVATIONS

    Senators, the ``to-do'' list for chemical and biological weapons 
nonproliferation programs remains quite lengthy. Unlike the list of 
housekeeping chores that perpetually awaits many on the weekend, the 
consequences of ignoring any of these to-do items or for doing them in 
a half-hearted manner could be grave indeed for US soldiers and 
citizens. For years on end, the sitting members of this committee have 
been stalwart supporters of common-sense nonproliferation programming. 
With that in mind, the following nonproliferation chores should be 
accomplished with all possible dispatch:

  <bullet> Persist, as champions of CTR programs, with support for 
        funds to dismantle infrastructure, upgrade security, and 
        discourage brain drain from the former Soviet chemical and 
        biological weapons facilities;

  <bullet> Insist, in particular, on full US funding for the 
        construction of a nerve agent destruction facility at 
        Shchuch'ye;

  <bullet> Encourage the exploration of opportunities to export CTR-
        like programs beyond the borders of the former Soviet empire, 
        to other nations of proliferation concern;

  <bullet> Continue to support a US campaign to enhance disease 
        surveillance bilaterally and worldwide, reaching across the 
        capitol to encourage the House of Representatives to consider 
        the Global Pathogen Surveillance Act soon;

  <bullet> Promote the revision of US policies related to the global 
        strengthening of biosafety, biosecurity, and oversight of 
        genetic engineering research, directing the Executive Branch to 
        conduct more intense negotiations of rigorous, mandatory 
        international standards; and

  <bullet> Request that the Executive Branch to issue a report 
        providing statistics and analysis associated with the trade 
        effects of export controls.

    The nonproliferation battle is fought step by step, one country at 
a time, one facility at a time, one scientist at a time, and literally 
one day at a time. Given the significant challenges facing 
nonproliferation programs, the odds always appear stacked against 
success. That is, until one recognizes how many former Soviet 
weaponeers have chosen peaceful research over continued weapons work, 
how many times export controls have derailed the plans of 
proliferators, and how much weapons-tainted infrastructure has been 
destroyed within the former Soviet chemical and bioweapons complexes, 
at sites such as Stepnogorsk and Novocheboksarsk.
    Though the costs of nonproliferation programs will mount over time, 
such programs constitute an ounce of prevention that could short-
circuit biological and chemical weapons proliferation. Moreover, those 
costs are insignificant in comparison to the loss in human and animal 
life, as well as the devastation to crops, should governments or 
terrorists elect to use biological or chemical weapons.

    The Chairman. Thank you very much, Dr. Smithson.
    I would like to recognize Senator Sarbanes for questions 
that he might have of the panel.
    Senator Sarbanes. Well, Mr. Chairman, thank you very much. 
Unfortunately, I am going to have to depart for another 
meeting, but first I want to thank you for holding this 
hearing. I think this is an extremely important subject.
    I have a sort of a question I ought to know the answer to, 
presumably, but maybe you can help me. Suppose I am country z 
and I decide I want to have nuclear weapons. What are the 
international legal strictures that would keep me from doing 
that, if any?
    Ms. Gottemoeller. Perhaps I will start, Senator, and my 
colleagues may wish to add on. It would depend if country z is 
a member of the Nonproliferation Treaty regime or not. If it is 
a non-nuclear weapons state under the Nonproliferation Treaty, 
then there would be safeguards arrangements that would enable 
it to proceed with the development of peaceful uses for nuclear 
power, for nuclear materials, in agricultural and medical 
applications, for example. But there would be a constraint on 
it acquiring nuclear materials for military uses.
    If a country is not a member of the Nonproliferation Treaty 
regime, then those same kinds of international legal 
constraints clearly do not exist. But that is a very, very 
small group currently, including India, Pakistan, and Israel.
    Mr. Curtis. May I add just one thing to that? The Nuclear 
Nonproliferation Treaty is, by signature countries, the 
largest-participant treaty in history. So it has--almost all 
nations are participant.
    Senator Sarbanes. But I gather you can withdraw from it. Is 
that right?
    Mr. Curtis. Well, that is unclear. But interesting North 
Korea is a member, a signature member, of the Nonproliferation 
Treaty, as was Iraq and as is Iran. And in signing to the 
treaty, they all agreed not to develop nuclear weapons. They 
are treaty-bound not to, and those treaty pledges are 
enforceable through the Security Council of the United Nations, 
which is why the IAEA has certified the issue to the United 
Nations. Specifically, there is some dispute whether one can 
withdraw from the treaty or not and then claim that they are 
not subject to the international community's disciplines 
exercised by sanctions or otherwise through the Security 
Council of the United Nations. But it is probably not a very 
consequential point, because if you were to withdraw and claim 
that you are no longer subject, the U.N. still may impose 
sanctions on you as an unlawful state.
    Senator Sarbanes. And were the existing nuclear powers 
grandfathered when the treaty was developed and signed?
    Mr. Curtis. No, sir. They are all signatures of that 
treaty. And under Article 6 of that treaty, they have made 
certain undertakings to ultimately dispose of their nuclear 
weapons over time.
    Senator Sarbanes. So if I have signed the treaty--suppose I 
say to myself, as country z, You know, given the kind of world 
we now seem to be living in, maybe I should get some nuclear 
weapons to, sort of, provide a defensive counter for myself. If 
I am in the treaty, it is your view that I cannot really get 
out of it, so I cannot go down that path. Is that correct?
    Mr. Curtis. It is my view that whether you can get out or 
not, that the international community may very well, and ought 
to, impose severe sanctions against that type of conduct.
    Senator Sarbanes. Thank you very much.
    The Chairman. Thank you very much, Senator Sarbanes.
    Let me mention at the outset that each of the statements 
that you have made, I think, are a real contribution to the 
arguments that we are all having and the progress of this. This 
is why we want to make certain that they are included in the 
record that will be published and that people who are not with 
us today ca read, because it seems to me this is a good 
summation from experts of where we are, as well as of your 
recommendations of where we should be going.
    I just want to comment further on a point that you made, 
Dr. Gottemoeller, that the Russian contribution to this is 
increasing. In correspondence that I have had just in the past 
week with Foreign Minister Ivanov in response to a meeting that 
we held in room S-116 a couple of months ago during one of his 
visits to the United States, he has mentioned, particularly at 
Shchuch'ye, which was a case in point of our conversation with 
the Foreign Minister, that the Russians are doing a lot more, 
and he specified the amount. And that is important, because 
this is cooperative threat reduction. That is, the United 
States and Russia, in this particular endeavor, are working 
together. This is not the United States' endeavor. The risks to 
Russians from accidents, whether they be nuclear, chemical, or 
biological, are substantial, and they recognize that. The 
security problems that occur in that country most likely would 
affect people who are fairly close at first Russians recognize 
that.
    I recall, Dr. Smithson, your invaluable contributions when 
we were having the floor debate on the chemical weapons 
convention and the information that your institute provided. I 
would just simply say that, as I pointed out in direct 
conversation with President Bush, we are 5 years through the 
10-years that both Russia and the United States were given, 
through their ratification of this treaty, to destroy all 
chemical weapons. We are at halftime.
    The NTI newsletters are invaluable each day in picking up 
traces at various other locations that have chemical weapons. 
Some work done by our European friends in these areas, 
estimates that, at best, a few hundred tons out of the 40,000 
metric tons that were declared may have been destroyed to this 
point. I just note incrementally, and I always tear these 
sheets out of the NTI newsletter, if a hundred tons has been 
disposed of on that day and somebody records it, this is 
significant. But the fact is, by any stretch of the 
imagination, half of 40,000 is 20,000; it is not a few hundred.
    Now, people ask, well, why are the Russians not fulfilling 
their obligations? After all, the Duma considered this just as 
the U.S. Senate did. The United States is busy, even in my home 
State out at Newport, trying to work through deadly pathogens 
out there. And even then, we may be stretched, as all of you 
have testified in various other fora, to complete our 
obligation in 10 years with all the expertise, the 
appropriations, and what have you, as well as with the urgency 
of local populations who want this done right and who 
contribute a great deal of testimony about that.
    In Russia, all of us understand that the money to do this 
simply was not there from the beginning; and, therefore, 
certain understandings occurred as the treaty was being 
ratified as to the United States' assistance. That was true, 
likewise, of certain technical expertise, notwithstanding the 
delegation of Dr. Pak by President Putin to take hold of 
Russian bureaucracy here. I believe he has done well, and he 
visits with us often, with all of us in this room today, to try 
to coordinate those efforts.
    If we are serious about the treaty that we just ratified, 
the Moscow Treaty, essentially this calls for both of our 
countries to reduce nuclear warheads, or at least to displace 
them, from missiles, make them inoperative in various ways to 
go from the roughly 6,000 level each to somewhere between 2,100 
and 1,800 over the course of a period until 2012. I expressed 
directly to President Bush that this is clearly going to be 
impossible without having either Cooperative Threat Reduction 
money or some other comparable program that may be named to 
take care of the Russian treaty. To enter into this thing with 
any other understanding is to be disappointed--to have the 
persons taking a look at the record in 2012 and saying, How did 
we fail? or Who failed? or Who failed whom?--when we knew at 
the beginning that we have a very sizable management problem 
that really has to be articulated and thought through with the 
Russian friends.
    Now, I mention all this because I suspect that the Russian 
treaty is not going to work out without constant oversight by 
this committee and by your newsletters and by testimony and so 
forth. The sums of money are substantial. The requirements of 
the American people for other things are substantial. There 
will be an annual appropriation discussion and debate about 
priorities.
    If this is, in fact, the number-one security problem facing 
the United States of America, we will have to continue to 
reiterate that, I suspect. People may forget from month to 
month what the major problem was. Your constancy is exemplary, 
and the record that you have created today is important, 
really, as a reminder of that.
    Now, having said all of that, the fact is that you have 
expressed in various ways--you started with this, Dr. 
Gottemoeller--the need for extraordinary flexibility in trying 
to understand what the challenges may be. Project Sapphire, in 
1994, is an excellent case in point. Who would have anticipated 
that the President of Pakistan or his subordinates, finding 
sheds or enclosures of nuclear material, would have called us? 
We are grateful he did, as opposed to calling some other 
country and notifying it of the availability of this stash that 
the President of Kazakhstan was unaware of, apparently. But 
what did we do about it? What we did, that you have suggested, 
and many of you were involved in this, was to first of all get 
out there to Kazakhstan, to get American aircraft out there, 
really, ultimately to pick it up and take it to Oak Ridge, 
Tennessee, after several legal and potential intervening steps. 
And we got it out of there, out of a place of great 
vulnerability, where proliferation could have occurred or, 
worse, just wholesale merchandising that might have met the 
purposes of that country.
    Who knows where the next thing will show up? You pointed 
out that we have had success in Belgrade and maybe 20-plus 
other locations--not much movement even though we understand 
the problem. In part, this is because of our own legislation or 
interpretations of that, the flexibility that is there. We 
contemplate why Yugoslavia, in this case, would, in fact, give 
up the spent fuel. Now, they wanted money for clean-up. Well, 
our laws and interpretations did not allow that. We said we are 
not environmentalists. We are looking at nuclear threat, the 
hard stuff, and this is what our government deals with. But we 
would not have gotten the hard stuff out of there if we had not 
been able to contemplate the environmental situation and had 
that flexibility through the NTI moneys and expertise that came 
into this.
    My point, again, is please help us as we fashion an 
extension of legislation this year. You can tell from the 
hearing that we are about trying to extend this beyond Russia. 
The flexibility that you are talking about, these certification 
requirements, the waivers, the roadblocks that come from our 
own debates--what is the path of wisdom in attempting at least 
to modify, where we can, our own legislative history and 
language so that we make it possible for the President, as 
Commander in Chief, to act fairly swiftly if he gets a call 
from the President of Kazakhstan or from somewhere else?
    I am here to testify that if he got such a call today, in 
some areas the President's hands would be tied. He would be 
visiting with some of us and asking, What can you do to help 
me? Well, we could introduce legislation. We want to do that, 
because I take seriously Secretary Curtis' point. If there are 
horrible incidents in this country involving weapons of mass 
destruction, people are going to ask, Where were you, you 
people who are responsible? As they did. I have served in the 
joint committees of people wanting to know what happened on 9/
11. Why didn't the intelligence committees, why didn't our 
intelligence services, why didn't somebody understand, stop 
this so Americans would not be killed and American areas 
severely damaged, and American psyche damaged by the fact of an 
attack on our own country? People are unforgiving with these 
things.
    Now, we are all going in eyes wide open today, and we are 
saying, ``This is the most important threat.'' But we have to 
always be thoughtful in inventorying what physically we ought 
to be doing. So the thought that some of you have suggested 
specific measures--I think you said, Secretary Curtis, in notes 
that I have taken and that I found in a portion of your 
testimony in which this appears--specific timetables or an 
inventory, sort of ad seriatim, of these situations. Now, that 
clearly is not there now. And, each year, we in our various 
departments, try to do a number of things that are important. 
But in terms of a comprehensive grasp of how much is there--are 
there 40,000 metric tons of chemical weaponry out there in 
Russia? And if so, how do we plan to get through the 40,000? In 
what timetable and in what locations and with whom? Who are our 
other partners? Others are prepared to contribute to this if we 
are wise enough and diplomatic enough to ask them or to 
contrive circumstances; not only the 10 Plus 10 Over 10, but 
with very specific indicators.
    Now, finally, let me just ask each one of you--Senator 
Sarbanes has raised the question, and some of my colleagues, 
likewise in various areas, about certain issues that are--I 
would not call them topical, but in our interest in Iraq. Much 
has been said about weapons of mass destruction and very 
unreliable leadership and potential proliferation. Other 
instances of this have arisen, North Korea and Iran being 
conspicuous, but probably not unique. How should we proceed? 
You cannot help all of this in terms of the foreign policy 
situation imposed as President of the United States today, but 
as you heard Secretary Wolf trying to handle these questions, 
well, each one of these is different, they are different 
policies. And fair enough, no tailor-made situation.
    But for example, let us take the case of North Korea. 
Secretary Wolf was pinned down by Senator Nelson to say, in 
essence, it is unacceptable that North Korea would have nuclear 
weapons, that the Korean Peninsula is nuclearized. Well, maybe 
so, maybe not. There are certain voices that have been public--
I am not sure where they come from--who suggest that this is 
rather inevitable if you do not have military action, for 
example. Now, you might say, well, it is not inevitable if your 
diplomacy is adept and somehow or other somebody does 
something. But let us take the worst-case scenario, that the 
sort of direct talks that I have advocated, and Senator Nelson 
and others advocated, happened and the North Koreans sit down, 
as they did with Assistant Secretary Kelly last October, and 
simply indicate, We are a sovereign Nation, and we reserve the 
right to build nuclear weapons if we want to do so. And as a 
matter of fact, we are building them, and we plan to build some 
more, as a matter of fact. And we see this as a major way in 
which our country is going to be defended in case somebody 
comes after us, including you, the United States, quite apart 
from anybody else in the neighborhood, because they will 
respect the fact that we have these nuclear weapons; and, 
therefore, they will remove the military option from the table 
because of the awesome situation. And they might add, although 
we see it as awesome, too; nevertheless, it is our country, it 
is our sovereign entity that is at stake, our government, our 
regime, all of that. So we are prepared to use them.
    Now, that is the kind of predicament that we might face 
despite optimistic scenarios in which some type of conversation 
occurs about the sixth iteration, a nonaggression pact, the 
need for some humanitarian assistance, the need for this or 
that or so forth. Others might contribute. At that point, some 
in our government might say, well, we are not going to appease 
nuclear violators, people who have already broken the Agreed 
Framework, in our judgment, people who are unreliable. So it is 
not really clear what we would do, even if such suggestions 
were forthcoming, to avoid the thought of appeasement, or 
reiterating what some have thought is a failed agreement from 
1994.
    Can any of you elaborate, sort of, given this invitation, 
which may be beyond the scope slightly, of expansion of 
Cooperative Threat Reduction, or other programs to other 
countries--but we are getting very close to that, because let 
us say we came up with a solution in North Korea. It may very 
well be that we will want to work there, or in Iran or in 
Pakistan or wherever, with the equivalent of the ISTC, 
International Science and Technology Committee. In other words, 
we may want to find something for people who have been employed 
in these areas to do something else. You know, there may be 
other parts of our programs that offer some assistance in 
securing it to begin with and in destroying it. And here, in 
the case of North Korea, just as a common example, they may 
say, these weapons, or even the fissile material, even the 
plutonium chipped off the rods, are a useful, lucrative 
commodity. This is an export potential for us, as a poor state, 
that needs the cash, that needs the international flow.
    So if we are to give this up, however nefarious you think 
it is, really how do we proceed with something that offers a 
way out of our economic predicament?
    Well, with all of these leading questions, Dr. 
Gottemoeller, do you have a thought today on any of this?
    Mr. Curtis. We are trying to figure out who is going to 
volunteer to take this question, Mr. Chairman.
    The Chairman. All right. Well, any of you.
    Mr. Curtis. Let me start, though as I know each of my 
colleagues will have useful observations, I think.
    I think the North Korean, Iranian, and Iraqi situations are 
all different. And undoubtedly, an effective engagement of 
those circumstances will require different means and strategies 
and actions. But they do bear one important common 
characteristic, and that is that if Iraq, Iran, or North Korea 
were to gain a nuclear weapons capability, it would be 
intolerably destabilizing in the regions in which they are 
situated. It is not to be accepted that it is inevitable that 
either Iran or North Korea gain nuclear weapons, as it is not 
acceptable that Iraq gain that capability.
    I think while all weapons of mass destruction have a common 
in terror effect, there is nothing quite like a nuclear weapon 
for its sheer destructive power in a single incident. As Amy's 
comments may illuminate, perhaps the great challenge in the 
21st century will prove to be bio-weapons, but today it is the 
nuclear threat that organizes and concentrates the diplomacy of 
nations.
    In the case of North Korea, specifically, I think we first 
characterized that situation as not a crisis, and the North 
Koreans seem to take that as a challenge and they have been, by 
their actions, demonstrating it really is. I do not believe the 
American people will be very much impressed with the niceties 
of diplomatic stratagems if things go very badly wrong there. 
If we are to rely on diplomacy first with North Korea, it seems 
to me diplomacy without talking is an empty strategy. Relying 
on the People's Republic of China as our principal intermediary 
is a curious reliance, in my judgment. I think if we could 
achieve a nuclear disarmament, a confident nuclear disarmament, 
and a limitation on North Korea's export of missile technology, 
it would be certainly worth direct discussions with North 
Korea. It is not an appeasement to discuss. It depends on the 
content and outcome of those discussions whether the 
appeasement vocabulary is even relevant.
    If we were to denuclearize North Korea confidently and 
assuredly, it is almost certainly something that we would have 
to, the United States and other nations, finance. If we were 
to--and here is where extension of Nunn-Lugar really comes in--
because there would be no more effective weapons system that we 
could conceive than a Nunn-Lugar cooperative effort on the 
Korean Peninsula that would denuclearize North Korea. That 
would be an enormous accomplishment. So having it ready, having 
the authority in the President and the ability to access funds 
to simplify the appropriation, if you will, judgment of the 
Congress if it were to come to it, I think is an important tool 
in the President's quiver, and the President should have that.
    The President should have that tool to deal with other 
situations. I mean, ultimately, we will need to engage, by 
effective bilateral means, India, Pakistan, and China in 
securing weapons and weapons material and know-how. Again, the 
instruments of cooperation can most effectively be exercised 
against the experience base that has been the Cooperative 
Threat Reduction program in Russia and the former Soviet Union 
under your and former Senator Nunn's original concept and 
extension of that concept.
    In dealing with Iran, I agree entirely with John Wolf's 
earlier statement that the presence of a uranium enrichment 
capability--which incidently, under the Nonproliferation Treaty 
is perfectly legal--but its presence is a clear manifestation 
of Iran's nuclear weapons ambitions. It is not whether it is 
illegal; it is whether it is tolerable in the regional security 
interests of the globe. It is not tolerable for Iran to develop 
a nuclear weapons capability, and we should draw a very bright 
line to make that clear, and we should engage an effective 
tailor-made strategy to address that with great energy and 
urgency.
    In the case of both North Korea and Iran, I do think that 
Russia can play an effective or important role. Russia was the 
supplier of North Korea's weapons capability on the plutonium 
side. Russia is the supplier of technologies necessary to 
complete Bushehr. Pakistan's role in both Iran and North Korea, 
as is emerging from public accounts of intelligence reporting--
I have not seen the classified material--is a tremendously 
worrisome circumstance. And so, again, it means an urgent 
engagement. If we are to be joined with Pakistan against a war 
against terrorism, we have to be similarly insistently joined 
with Pakistan against stemming proliferation to dangerous 
circumstance, and both are very, very dangerous circumstance.
    Consequences of a nuclear-armed North Korea have been well 
described by you and by others. It seems to me that that is--
``crisis`` is a proper characterization of that threat, and 
Iran is making itself a near crisis if it proceeds on its 
current path. And of course, we are already in the ultimate 
form of crisis, or on the threshold of it, in Iraq. To 
recognize that it is in our security interest in the United 
States, it is in the security interest of peaceful nations 
everywhere, that nations not acquire nuclear weapons in 
circumstances, perhaps now in any circumstances, is a 
recognition that should be--that should be--a matter to 
organize collective and sometimes coercive international 
cooperation. That we did not achieve that in the United Nations 
Security Council has made the world much less safe, and it will 
make the aftermath of any action in Iraq much more complicated 
and less safe. We ought not to allow it to repeat in Iran and 
North Korea, as well.
    The Chairman. Thank you very much, Secretary Curtis.
    Dr. Gottemoeller.
    Ms. Gottemoeller. Perhaps I will pick up where Secretary 
Curtis left off, Mr. Chairman, and that is to underscore, as I 
note in my testimony, that we are truly embarked on a difficult 
period now where the U.N. system and its accompanying regimes, 
such as the Nonproliferation Treaty, are being very seriously 
shaken. And we have a lot of work to do to ensure that they 
retain their authority and influence in international affairs.
    I believe that strengthening enforcement is going to be an 
arena that occupies many of us in the months and, indeed, years 
to come. I welcomed very much, after 1991, that the IAEA's 
safeguards regime was bolstered by the so-called strengthened 
safeguards. I think that is a very positive step. We need to 
continue to press countries such as Iran to sign the additional 
protocol and embrace additional safeguards. That is very 
important.
    But I want to also note that, at a more positive end of the 
spectrum, I believe that from the experience we have gained in 
nonproliferation cooperation, threat reduction cooperation, 
over the years, we know that when we engage with countries on 
these kinds of programs, a certain amount of what I call 
natural transparency ensues. We become deeply involved, as we 
have with the Russians in working at their naval bases, for 
example, to dismantle submarines, and we know that those 
submarines are being dismantled. So I would urge that we also 
think, when we are talking about strengthening enforcement, 
about some additional and more positive aspects of enforcement; 
that it need not only be punitive in its nature, but that we 
think about ways to engage and perhaps reward countries who are 
willing to cooperate on nonproliferation projects of the threat 
reduction type. And this is a direction I think is very hopeful 
for the future and could perhaps provide a type of incentive 
for cooperation among countries who are not vigorously involved 
today on nonproliferation cooperation.
    I would like to further note that, with regard to North 
Korea, Iran, Iraq, and other countries that are a proliferation 
concern, nuclear weapons become less relevant to them when 
solutions are found for their larger security problems, whether 
in their region or internationally, and that is why I urge that 
we think in those terms when we are considering, for example, 
North Korea.
    You are aware, Mr. Chairman, that I was intimately involved 
in the denuclearization of Ukraine, and I recall what factors 
were especially important in that context. First of all, the 
United States was willing to embark on a close security 
relationship with Ukraine involving the extension of security 
assurances to Ukraine--very important, I think, also in the 
North Korea case. Second, we were willing to help them to 
eliminate the weapons systems on their soil through the threat 
reduction Nunn-Lugar program--again, extraordinarily important. 
Third, we were willing to extend to them additional assistance 
in areas that they found very important, and that was energy 
assistance--again, very relevant to the North Korea case. And 
finally, that we had additional partners that we could engage 
to help us with some of the more difficult problems and the 
heavy lifting. In the case of Ukraine, it was Russia. Of 
course, Russia agreed to take back the nuclear warheads on 
Ukrainian territory and eliminate them quickly and 
expeditiously in Russian warhead elimination facilities.
    I think, again, that we should very much be looking at this 
example and precedent when we consider North Korea. It makes 
eminent sense to me that the Russian Federation should take 
back the plutonium fuel rods that it was helpful, as Secretary 
Curtis noted, in extending as assistance to North Korea in the 
first place, and it should be willing to store and otherwise 
dispose of that material from North Korea.
    So, to conclude, I will only say that I see a package 
before us. The structure of the deal is not all that difficult, 
as far as I am concerned. But we do have to take into account 
very seriously the larger security concerns of North Korea and 
be willing to work them very directly and intensively.
    Thank you.
    The Chairman. Well, your testimony from the Ukraine 
instance is very helpful.
    Dr. Smithson.
    Dr. Smithson. Your question was phrased in terms of Iraq, 
Iran, and North Korea. While Secretary Curtis and I might have 
a debate about which should garner more priority, nuclear or 
biological weapomry, let us just say they are both two very 
important security problems, and I am here to carry the 
biological standard today.
    Among the first orders of post-conflict business in Iraq, I 
would argue that the United States should begin rebuilding the 
public health infrastructure in that country. This is a service 
to the citizens of Iraq, who have suffered grievously for far 
too long under Saddam Hussein's leadership. But we should also 
give very serious consideration to enhancing the disease 
surveillance capabilities of North Korea and Iran, for example 
by providing better laboratory equipment. The individuals that 
work in their public health labs could probably use more 
training, training that includes an inculcation of good bio-
safety standards; which would help reduce the potential for 
accidents; good security procedures for dangerous pathogens; 
and certainly better oversight procedures for research projects 
that involve genetic engineering.
    The reason this is so important is because of the way 
people live in very large population concentrations today. 
Public health officials need to quickly catch disease 
outbreaks, whether they are intentional or naturally erupting. 
There is a situation right now in the world with acute 
respiratory distress syndrome that is causing some concern that 
illustrates my point. Diseases can hop from continent to 
continent literally overnight, and if they do not detect the 
eruption quickly, authorities will not have the time to take as 
much life-saving intervention as they otherwise might have if 
the United States had conducted this type of expanded CTR 
assistance to these countries.
    I would also argue that we should consider taking this type 
of programming to places like South Africa, Egypt, Pakistan and 
India. Indeed, there are so many on the list of countries of 
proliferation concern that could benefit from this type of 
assistance. This effort is not just about doing a public 
service for the citizens of these countries. This is about 
protecting U.S. citizens, given the speed with which disease 
can spread. And it is also about facilitating transparency and 
gaining a better understanding of what is happening in 
laboratories around the world. If the United States is training 
these scientists and equipping these laboratories, it is 
arguable that the United States would probably have better 
access to these facilities and, again, a better understanding 
of what is taking place. That is just one illustration of where 
you might begin to expand CTR programming.
    The Chairman. I thank you for that very important 
suggestion.
    It has come to the attention of the committee that the 
Reader's Digest has published today for its April 2003 issue an 
article called ``Search and Destroy, The Mission to Find 
Unsecured Weapons of Mass Destruction Before Terrorists Do,'' 
which is especially appropriate for our hearing this morning. 
So I will include that in the record so that it will be a part 
of our discussion.
    [The article referred to follows:]

                   [From Reader's Digest, April 2003]

                           Search and Destroy

          The mission to find unsecured weapons of mass destruction 
        before terrorists do

                          (By Michael Crowley)

    In the early morning hours of August 22, 2002, the race to protect 
America from nuclear destruction focused on an aging building in 
Eastern Europe. Under cover of darkness, a paramilitary operation 
unfolded in the area around the Vinca Institute, home to a Soviet-era 
nuclear reactor in the Serbian capital of Belgrade. Soldiers and police 
closed off nearby streets. Snipers took up rooftop positions. 
Counterterrorism commandos stood on high alert. Their mission was to 
protect a cargo of terrifying potency: some 100 pounds of highly 
enriched uranium-spent fuel from the reactor that could be used to 
develop up to three nuclear bombs.
    For years the fuel had been stored at Vinca under conditions that 
made American officials uneasy. Security amounted to one or two armed 
guards. The fuel itself was stored in containers light enough for a man 
to carry, but not radioactive enough to kill him quickly. Within months 
of such a theft, a nation or terrorist group employing a few skilled 
scientists and some fairly basic equipment could be ready to devastate 
the city of its choice.
    Project Vinca, as it was called by the State Department, ended that 
threat. The uranium was loaded into one of three identical trucks, two 
of which acted as decoys. With an armed escort and helicopters hovering 
overhead, the convoy traveled along 22 miles of closed roads to 
Belgrade's international airport. From there the radioactive cargo was 
flown to its destination: Russia, where it would be converted into a 
form of uranium unsuitable for a nuclear bomb.
    The world is now dotted with places like Vinca, where terrorists 
might secure the ingredients to make weapons of mass destruction. 
Thirteen countries are known to possess chemical, biological or nuclear 
weapons. Perhaps 25 in all have such weapons programs going full-
throttle. More than 40 nations, meanwhile, have nuclear research 
facilities that store either enriched uranium or plutonium. But the 
most dangerous places are weapons sites where security is abysmal or 
where scientists could be available to the highest bidder. And the 
majority of these are tucked away in remote areas of the former Soviet 
Union.
    The stakes were made clear on September 11, 2001. As Thomas 
Friedman, foreign affairs columnist for The New York Times, has said, 
technology now enables a superpower like the United States to be 
attacked by ``super-empowered'' individuals such as Osama bin Laden. He 
can communicate easily through the Internet and satellite telephones to 
form virtual Al Qaeda cells that can become all too real as they carry 
out their nefarious deeds.
    Project Vinca is a good example of what the future of America's 
battle against terrorism will look like. Even as the FBI, CIA and NSA 
hunt down terrorists around the world, a parallel effort is underway to 
make the raw ingredients of mass terror secure--whether they are 
chemical agents like sarin, VX nerve gas and mustard gas; biological 
agents like anthrax and ricin; or the essential ingredients of nuclear 
weapons, highly enriched, uranium or plutonium.
    Last spring, this quest took Senate Foreign Relations Committee 
Chairman Richard Lugar to a massive Russian chemical-weapons complex at 
Shchuch'ye, an impoverished town in Western Siberia. Inside the 
corroded buildings, some with deteriorated roofs, are nearly two 
million artillery shells. Stacked snugly in racks, they could be 
mistaken for an enormous collection of wine. But the containers are 
filled with two of the most lethal substances known to man: sarin and 
VX nerve gas.
    Iraq has already shown the world what nerve agents can do: In 1988, 
Saddam Hussein slaughtered 5,000 Kurds in a northern Iraqi town with a 
cocktail of sarin, tabun and VX gas, along with mustard gas. Years 
later, many survivors have permanent, crippling nerve damage and 
respiratory problems. Even more devastating, their babies are being 
born with birth defects and mental retardation.
    Many of the shells at the Shchuch'ye warehouses are easy to carry 
off. Lugar fit one into an ordinary briefcase. ``The Russians claim 
that this single shell would kill all in a stadium of 85,000 people,'' 
says Lugar. ``And this is just one of the smallest shells.''
    Russian soldiers stand guard at the Shchuch'ye facility. But most 
Russian military men are paid poorly, making them susceptible to bribes 
from peopie who might want to buy or steal shells.
    ``The concern at the moment is an inside job by someone who wants 
to feed his family,'' explains Ken Myers, a Lugar staffer who has 
visited Shchuch'ye.
    The Russians have an inventory of Shchuch'ye's cache, but if one 
shell out of two million were to go missing, who would notice? Nor is 
there a shortage of potential buyers in the area. Shchuch'ye is located 
near the Russian border with Kazakhstan, reportedly a base of 
operations for Al Qaeda terrorist's over the years.
    Tracking down and keeping tabs on substances like the nerve gas in 
Shchuch'ye is extremely difficult and expensive work that will stretch 
across nearly every populated continent. But the task is being 
undertaken, largely thanks to the pioneering efforts of Senator Lugar 
and former Senator Sam Nunn, who now heads the Nuclear Threat 
Initiative, based in Washington, D.C.
    Through their decade-old Nunn-Lugar program, the U.S. government 
has been spending $1 billion a year to secure and destroy weapons of 
mass destruction in the former Soviet Republics and employ, in peaceful 
work, cash-strapped weapons scientists who might otherwise go to work 
for rogue states or terrorists.
    So far, the program has deactivated more than 6,000 nuclear 
warheads, destroyed hundreds of weapons such as ballistic missiles, and 
found jobs for tens of thousands of scientists. Still, the risk has 
been diminished only slightly. Chemical weapons stockpiles--some 40,000 
metric tons in Russia alone--have barely been touched; security at many 
of the former biological weapons facilities remains lax; and nuclear 
materials (200 metric tons of plutonium and 1,200 metric tons of 
uranium in Russia) have been completely secured at fewer than half of 
the facilities that house them.
    It's clear why Nunn and Lugar have focused their efforts to date on 
the former Soviet Union. Georgia, Ukraine, Kazakhstan, Uzbekistan and 
Belarus--all being former Soviet Republics--have stores of chemical, 
biological or nuclear materials. And Russia itself contains the mother 
lode of the world's super-deadly materials. This is what remains of the 
crumbling Soviet Cold War arsenal.
    The old Soviet bloc is not the only problem. Several countries that 
have spawned or supported terrorists, including Egypt, Iran, Libya and 
Sudan, are believed to have germ-weapons programs--and little is known 
about the security of their laboratories and the allegiances of their 
scientists. Meanwhile, nations as diverse as Syria, Congo and Bulgaria 
have nuclear ``research'' reactors, like the one at the Vinca 
Institute, that are believed to account for some 20 tons of uranium. 
(Italian authorities, in fact, caught Mafia operatives in 1998 trying 
to sell a uranium rod that had been stolen from a reactor in Kinshasa, 
Congo. The plant manager had not even known the rod was missing.)
    It is through the work of Nunn and Lugar in the former Soviet 
Union, however, that we can see most clearly what the dangers look 
like. Consider the Pokrov Biologics Plant southeast of Moscow. Pokrov 
was ostensibly built during the Cold War to produce animal vaccines. 
But it had another secret purpose: to brew killer germs capable of 
wiping out America's livestock en masse. The refrigerators at Pokrov 
still store a wide variety of virulent germs, including anthrax. But as 
of last spring, the plant's security-alarm system was 30 years old and 
not working properly. And a building housing viruses was guarded by a 
lone man with a German shepherd. Inside, Senator Lugar found a 
refrigerator with its ``security'' amounting to a piece of string with 
a wax seal. Another refrigerator with deadly viruses stood in a second-
floor room by a window, accessible to anyone with a ladder.
    Thanks to the Nunn-Lugar program, security is being upgraded at 
places like Pokrov. And, in a model for future efforts, the plant is 
being converted to peaceful uses. One of the facility's old biological 
fermenters now churns out a shampoo, of all things, sold under the 
label ``Green Mama.'' But experts say shoddy security is still the norm 
at chemical, biological and nuclear facilities throughout Russia.
    It's not just the germs, but also the know-how of the makers, that 
have officials worried. Many Russian bio-scientists work in labs with 
no heat, and are paid as little as a few hundred dollars a month. 
Several top Russian germ scientists have said they were approached in 
the 1990s by Iranian officials, offering them salaries five times 
greater than what they were earning. Some are believed to have 
accepted. Countries like Iraq and North Korea are reported to have made 
similar offers--a serious problem, given that the Soviets employed some 
65,000 scientists in their germ-weapons program.
    Finally, there is the nuclear material available in the former 
Soviet Union-some 20,000 weapons, and enough bomb-grade uranium and 
plutonium (much of it in non-weapons nuclear facilities) to build 
40,000 more. In one chilling case, two kilograms of highly enriched 
uranium were stolen from a nuclear research institute in Sukhumi, 
Georgia, in the early '90s. That uranium has never been recovered.
    Authorities have reported that dozens of attempts to smuggle 
nuclear material have been thwarted, including the arrest in 1998 of 
workers at a Russian nuclear-weapons facility who had plotted to steal 
18.5 kilograms of highly enriched uranium--possibly enough to build a 
bomb.
    Even more recent attempts, in Bulgaria and Georgia, indicate that, 
nuclear material may increasingly be destined for the Middle East or 
Asia. This would square with a finding of a recent commission led by 
former Senator Howard Baker and former White House counsel Lloyd 
Cutler: ``The task force was advised that buyers from Iraq, Iran and 
other countries have actively sought nuclear-weapons-usable material 
from Russian sites.''
    A facility of particular concern is the Kharkiv Institute of 
Physics and Technology in Ukraine, which houses about two-thirds more 
bomb-grade uranium than the Vinca Institute did. Workers at Kharkiv 
typically earn the equivalent of $150 per month, and heat and lights 
are often turned off to cut utility bills. These facts are surely not 
lost on those interested in acquiring nuclear weapons; in 1998, Saddam 
Hussein dispatched an Iraqi delegation to Kharkiv, supposedly to 
explore business opportunities there (no nuclear material is thought to 
have been transferred).
    Ensuring that reactors like Kharkiv don't become black-market 
outlets for terrorists won't be easy. Even a top-priority mission like 
Project Vinca required more than a year of planning and intensive 
diplomacy, and it ultimately cost the U.S. taxpayer millions of 
dollars. What's more, the federal government failed to fund critical 
parts of the job. Only a private grant of $5 million from the Nuclear 
Threat Initiative--which is funded by CNN mogul Ted Turner--made 
Project Vinca possible.
    Other efforts of the Nunn-Lugar program often run afoul of 
Congress, where members suspect that American dollars may be wasted. A 
priority of Nunn and Lugar, for instance, has been to construct 
machinery to neutralize the stockpile of nerve gas at Shchuch'ye. In a 
speech last year, President Bush called this project ``a vital 
mission.'' But since then, progress has been held up by bickering in 
Congress over the extent of the threat. Meanwhile, the shells sit in 
Shchuch'ye, gathering dust. Or so we hope.
    More upbeat news came at the 2002 ``G8'' summit meeting of the 
world's leading industrialized nations, where heads of state pledged 
$20 billion over ten years to address the worldwide threat. But even 
that support seems shaky: Experts complain that the plan lacked both 
specifics and hard commitments.
    ``Preventing the spread and use of nuclear, biological and chemical 
weapons should be the central organizing principle on security for the 
21st century,'' says Sam Nunn. Yet he also fears that securing these 
weapons ``doesn't even come close to being a high enough priority for 
our nation and the world.'' Nunn likens the United States and its 
allies to a gazelle running from a cheetah--moving in the right 
direction, but not nearly fast enough. He hates to think what it might 
take to drive the point home.

    The Chairman. I just have one final query, and it follows 
on from your testimony, Dr. Smithson, but, likewise, from 
programmatic work that I know is part of the NTI agenda. We 
were at the Ultrapure Laboratory in St. Petersburg this summer. 
First of all it is an example of a conversion by very dedicated 
scientists. They are doing something else. I have to take on 
faith the representations of how many scientists were there, as 
well as how many are there now and their budget and so forth. 
Essentially they said to our group that they had 300 scientists 
there at one point working on nefarious activities. There may 
be 150 scientists or a few more there now, with well over half 
of their budget taken care of by three pharmaceutical products 
that they have created and that they are selling to hospitals 
in the St. Petersburg area.
    Now, in addition to that, a member of the Duma was present, 
because he wanted to extol the research they were doing on HIV/
AIDS. They were in several tangents of inquiry there, and the 
Duma member wanted to point out the importance of that given 
the spread of HIV/AIDS in Russia, a point in which some 
Russians are in denial. He simply wanted, as a public official, 
to indicate how extensive it was and how important this 
research was.
    The thing that attracted my attention even beyond that was 
that they were attempting to do work with regard to the immune 
system of human beings as they might be affected by biological 
pathogens. Now, I know, at NTI, that Dr. Hamburg and perhaps 
others have had an interest in this same question. It is a big 
question. Can the human immune system--not be altered, but be 
affected by treatments or by inputs or so forth in such a way 
that most biological pathogens, as we know them, do not become 
fatal or deadly to a human being. If so, this is likely to 
change the course of biological warfare very, very 
substantially.
    Now, this is not a panacea offered this morning to suggest 
that we stop attempting to keep track of what is occurring in 
that area in which a lot of countries are in denial. But, at 
the same time, it indicates what I believe is a very important 
path to be pursued, at least in terms in our research, both 
with Russian friends who are working in an ISTC project at the 
Ultrapure Laboratory in St. Petersburg, as well as Americans 
who may be working constructively here.
    Do any of you have any further information or any testimony 
about this? Dr. Curtis, do you, or Dr. Smithson, do you want to 
proceed?
    Dr. Smithson. Thank you, Senator.
    First, I would note that when I began discussing the 
layoffs of scientists with individuals from a number of these 
institutes, the numbers that I was given about the staffing 
level of Institute for Highly Pure Bio-Preparations in St. 
Petersburg was that, in 1990, they had 500 scientists.
    The Chairman. Five hundred.
    Dr. Smithson. Whereas, in 1999, they were down to roughly 
250 which gives you some indication of why I share your 
concerns about brain drain.
    With regard to the type of research that you described, 
traditionally the strategy has been to look for cures to 
diseases one disease at a time. Some scientists will try to 
tackle anthrax, others will try to tackle smallpox, and so on. 
But, there is research underway even in this country, if my 
memory is correct, sponsored by the Defense Advance Research 
Projects Agency, where scientists are looking for commonalities 
between dangerous pathogens so that perhaps we might come up 
with one antibiotic or one vaccination that would be able to 
address several diseases.
    I would join you in encouraging our government to 
collaborate with these Russian scientists on these very 
difficult research problems. I would also hope that our 
industry, our pharmaceutical and biotechnology industries, 
would come off the sidelines and begin to help in the 
conversion of these former weapons facilities.
    These weapons scientists explored and developed so many 
agents that we do not fully understand yet, and they took 
different strategies to achieve the goals that they set out for 
their weapons programs. From these scientists, I think we have 
a lot to learn for the benefit of United States defenses as 
well as for commercial medicine and other disease problems that 
confront Americans and the world.
    So that would be my response to your question.
    The Chairman. Well, when you mention that our firms should 
come off the sidelines, do you mean to say they are sitting out 
there in the spectator seats sort of hoping for something to 
happen, or what is the dilemma here?
    Dr. Smithson. Senator, some U.S. companies did take trips 
to the former Soviet Union right after the collapse, and they 
took one look at these institutes and were very discouraged at 
the prospects for conducting collaborative research or for 
initiating production of medicines at these facilities. The 
reasons are rather straightforward. These Russian scientists 
were working according to their practices. In the United States 
and in Europe, the Food and Drug Administration and other 
organizations set very strict regulations for the research, 
development, testing and production of medicines. So the 
Russians had quite a way to go in scaling the learning curves 
not just about how to do business, how to market themselves, 
but how to conduct research, how to do testing with animals for 
the certification of medicines and how to maintain the good 
laboratory practices and manufacturing practices that are 
observed in the West. With the assistance of the International 
Science and Technology Center, the Initiatives for 
Proliferation Prevention, and Cooperative Threat Reduction 
programs, the former weaponeers have gone a long way in 
beginning to understand and actually incorporate Western 
standards into these facilities.
    So the potential is quite ripe for the U.S. industry now. 
Launching joint ventures is not just good nonproliferation 
policy; it is good business sense. There are many opportunities 
for U.S. industry to collaborate profitably with these 
biological institutes.
    The Chairman. Yes, sir.
    Mr. Curtis. Can I offer just an observation? The advances 
in bioscience are the ultimate dual-use technology. The very 
advances that we depend upon to improve our health defenses may 
also be used to weaponized biological agents, as we have seen 
repeatedly. During the Soviet era, we know very well that 
advances in bioscience for a weapons purpose were taken much 
farther in the Soviet system than anywhere else in the world. 
We have to find a way to harness that expertise in ways that 
improve our bio-defenses against the modern threats that we 
face, and we have to find a way of engaging those scientists in 
peaceful, sustaining peaceful, work.
    I mentioned in my testimony there are 7,000 scientists in 
the Biopreparat apparatus in the former Soviet Union that our 
security services classify as security risks.
    The Chairman. Yes.
    Mr. Curtis. We cannot tolerate those folks engaged in an 
international commerce of their knowledge. So we have to do two 
things. We have to engage them effectively with our pharma 
industry, hopefully in useful advances in bioscience to improve 
health and human progress, and, at the same time, we have to 
take advantage where it is presented of that science in 
constructing better bio-defenses. And working in partnership, 
our scientists and theirs together, we think we can make 
meaningful progress in doing that.
    The Chairman. I appreciate this discussion, and it is an 
extremely difficult problem, as are most of these problems. But 
like some that we have worked before, we have gotten into this 
a bit with regard to Presidential waiver today and stipulations 
of various sorts. Clearly, in the biosciences there are very, 
very well-drawn stipulations with regard to health and safety, 
as well as maybe security risk. And the dilemma for us is that 
out there somewhere is knowledge that may save the lives of a 
lot of Americans. So while we are busy reciting a lot of our 
laws, our difficulties as to why we cannot move on any of these 
things, some of these people will still ask, What are you doing 
to reduce the risk? And without being melodramatic about it, 
after all, this particular building is relatively secure, but 
the one in which my office is, in the Hart building across the 
way, was subject to one of the largest anthrax attacks that the 
world has ever seen. And about 5,000 people, more or less, who 
are staff members and constituents who had the misfortune of 
visiting us on that particular day that the envelope was in 
Senator Daschle's office two floors above me, the finely ground 
spores went up into the ventilation system, and all of our 
folks were swept out of the building over into this building--
this is sort of the safe ground--throats swabbed, 3 days of 
Cipro tablets issued. Fortunately, the tablets worked for this 
particular strain of anthrax and everybody lived. Not so for 
postal workers, who were not too far away who had handled these 
letters who did not know in time exactly what had hit them and 
did not have the same prescription. So this was for real, not a 
hypothetical situation. It occurred within a few feet of where 
we are now.
    Now, it is of interest that people talk about developing 
other strains of anthrax, maybe not the variety that went up 
through the ventilators here. And did the Cipro work there? 
Maybe so, maybe not. As you have all suggested, in the 
deviousness of this research, either Russians or other 
scientists in other countries may, in fact, have developed 
pathogens that, in fact, go well beyond anything that we have 
contrived to offer a safety zone. That is not beyond our 
imagination. And having visited--not Ultrapure, but another 
laboratory in Russia, where they were working on various 
strains of smallpox or monkeypox or various of other sorts of 
pox, you see all the possibilities for evading all that we know 
with regard to antidotes.
    So this is a very, very serious issue, in my judgment, and 
one not easily handled in the normal ways that we deal with 
legislation here, nor by an administration which says, We're 
hog-tied because the laws prevent us from going there.
    So this is why I take your creative imagination today to 
supplement that which others are offering, because it seems to 
me that, in our own legislative way, that we have to authorize 
our administration, at least the President of the United States 
to be able to go places that are very difficult on behalf of 
American people, of saving life in an area where we do not have 
conventional warfare of nation-states. And as the President and 
others have been pointing out, individual persons or small 
groups, unidentified people without agendas, manifestos or what 
have you, may wish us harm and may be able to affect that.
    Well, I thank you for your personal leadership in each of 
the organizations in which you are involved, as well as your 
public service careers.
    And the hearing is adjourned.
    [Whereupon, at 12:10 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


            Responses to Additional Questions for the Record


   Responses of Hon. John S. Wolf, Assistant Secretary of State for 
 Nonproliferation, to Additional Questions for the Record Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question 1. The Fiscal Year 2004 budget submitted by the President 
has only modest increases for the State Department's nonproliferation 
assistance programs, and little or no increase for the Energy 
Department's assistance programs to the former Soviet Union. All of 
these programs will remain below their actual 2002 spending levels. 
This risks sending a message of ``business as usual'' when it comes to 
spending on non-proliferation.

  <bullet> Does the $7 million increase in funding for the 
        International Science and Technology Centers (ISTC) and Bio-
        Redirection come near what those programs could usefully spend? 
        If an additional $30 million or more had been budgeted, could 
        not those funds have been used for additional valuable 
        projects?

  <bullet> The President's FY 2004 budget submission states that the 
        Bio-Redirect program is to be broadened to include former 
        Soviet chemical weapons scientists. But the budget request only 
        adds $7 million onto a program that was appropriated just $52 
        million in FY 2003, following a $67 million appropriation in FY 
        2002. What effect will the proposed FY 2004 funding have on 
        programs involving former Soviet biological weapons scientists?

    Answer. If the FY 2004 Science Centers/Bio-Chem Redirection budget 
receives the requested $7 million increase, the requested total of $59 
million will adequately fund ongoing engagement with former biological 
and chemical weapons scientists under the Bio-Chem Redirection program. 
We will look at whether additional funds could be usefully directed to 
the BioIndustry Initiative (BII) for the outyear.
    BII was initiated with a one time $30 million emergency 
supplemental appropriation in FY 2002. The program seeks to reconfigure 
former Soviet biological production facilities for peaceful uses, and 
to engage former Soviet biological and chemical weapons scientists in 
collaborative R&D projects to accelerate drug and vaccine development 
for highly infectious diseases. BII is currently the only U.S. program 
specifically aimed at engaging and reconfiguring former Soviet 
biological weapons production facilities capable of producing large 
quantities of weaponizable infectious disease agents, such as anthrax 
and smallpox. Through BII, we have already engaged four large-scale bio 
production facilities in Russia that had not previously worked with the 
ISTC. Current funding levels will enable engineering assessments of 
production capability, marketing and business plan development, and 
ISTC projects aimed at redirecting these facilities toward sustainable, 
commercial applications. In order to engage at least five additional 
high-priority production facilities, and to continue working on long-
term self sustainability projects with the facilities already engaged, 
additional funds would be required in future years.
    The Bio-Redirection program has received more than $65 million 
since its inception, including $20 million in FY 2003. If the Science 
Centers/Bio-Chem Redirect programs receive their requested budget of 
$59 million for FY 2004, these funds will adequately support ongoing 
efforts to engage former BW scientists. With several notable exceptions 
where access issues have so far prevented engagement, we have expanded 
our redirection efforts to engage most of our top-priority targets 
(more than fifty institutes). Some priority bio institutes are making 
progress toward long-term self-sustainability, and we plan to begin 
``graduating'' the first bio institutes from our engagement program by 
FY 2006.
    Through FY 2003, a modest chemical engagement effort has been 
funded using core Science Center funds. Starting in FY 2003, a modest 
share of Bio-Chem Redirection funds are also being obligated to engage 
former CW scientists at the top-priority Soviet-era CW R&D institutes. 
Four such institutes have been selected in Russia, and engagement has 
begun with each. Two such institutes have been selected in Ukraine, and 
projects there are in development. Using additional Bio-Chem 
Redirection and Science Center funds requested for FY 2004, chemical 
engagement can continue without significantly constraining ongoing 
efforts to engage former BW scientists.

           INTERNATIONAL ATOMIC ENERGY AGENCY (IAEA) FUNDING

    Question 2. The International Atomic Energy Agency (IAEA) will play 
a major role in guarding against radiological terrorism. The Security 
Assistance Act enacted last year calls for an effort to increase the 
regular IAEA budget, in part for this purpose, and the Administration 
supported that provision. But the U.S. voluntary contribution to the 
IAEA holds steady at $50 million, and the request for the regular U.S. 
budget contribution actually goes down from $57 million in FY 2003 to 
$54 million in FY 2004.

  <bullet> (2a) Is the United States backing its strong words of 
        support for the IAEA's mission with adequate funding? Will the 
        request of $54 trillion in FY 2004 for our contribution to the 
        IAEA's regular budget still accommodate a 20% increase in that 
        budget?

  <bullet> (2b) Is the Administration banking on the availability of 
        other funds? For example, do you expect the value of the dollar 
        to rise sharply, thus decreasing the cost of our budget 
        assessments? Is significant extra IAEA funding contained in the 
        Department of Energy budget? Will there be carryover funds from 
        FY 2003?

  <bullet> (2c) The Energy Department had to come up with funds for 
        this year's voluntary contribution to the IAEA's new effort to 
        combat radiological terrorism. Does the President's request for 
        FY 2004 take into account the need to continue or expand that 
        new IAEA program?

  <bullet> (2d) At last week's IAEA conference on radiological sources, 
        it was disclosed that Russia has many more nuclear generators 
        than it had previously acknowledged. What are we doing to 
        combat the risk that one of those unattended lighthouse 
        generators could be stolen? Does the budget request include any 
        funds for that effort?

    Answer (2a). The IAEA has proposed a budget for 2004-2005 with a 
roughly eleven percent ($27.1 million) increase in 2004. The bulk of 
this increase ($19.5 million) is for safeguards, where it would meet 
critical staff, equipment and other support needs. The United States 
has made clear its support for this increase for safeguards.
    The Administration gives high priority to the IAEA budget and 
budgets to pay its assessed share in full. We expect the IAEA regular 
assessed budget to increase in 2004 and to pay our full assessment. 
However, because the IAEA assessed contributions are paid on a deferred 
basis (along with eight other UN-affiliated organizations), the 
proposed safeguards increase in the 2004 IAEA budget would not be 
incorporated into the President's Budget until FY 2005. The drop in our 
regular budget request from FY 2003 to FY 2004 is based solely on the 
changing assumptions about currency exchange rates. At present the 
value of the Euro is at historically high levels, and the FY 2004 
request is based on the level that was in effect last April, when the 
budget was originally formulated.

    Answer (2b). The Administration is not assuming that other funds 
will become available. We do not attempt to project exchange rates; we 
pay our assessments as soon as we have both a bill from the 
organization and the full appropriated funds. The CIO account, which 
funds our regular budget assessment, is only available for one year and 
thus no carryover funds exist. Voluntary Contribution funds, which come 
from the NADR account, are typically expended over a period of 1-2 
years, and NDF funds have been used in the past to meet IAEA equipment 
needs.

    Answer (2c). The Department of Energy also supports the IAEA in a 
variety of ways, including in-kind technical support of national lab 
experts and, as you note, cash contributions to the IAEA's Nuclear 
Security Fund. We have discussed with DOE the need to sustain funding 
for the IAEA's nuclear security program, which helps states reduce the 
risk of nuclear terrorism. I cannot speak for DOE on its plans for FY 
2004, and suggest that you ask DOE directly.

    Answer (2d). We are working to ensure the safety and security of 
all significant radioactive sources. The RTG problem is a subset of 
these efforts. Current estimates place the number of Radioisotope 
Thermoelectric Generators (RTGs) in the Russian Federation at 
approximately 1,000. The Department of Energy is currently working 
through Russia's Ministry of Atomic Energy (MinAtom) to help secure 
vulnerable RTGs and the radiological material they contain. The 
Government of Norway also has a significant program to secure these 
sources.
    DOE plans are to securely remove RTGs that have reached the end of 
their useful life (disused) from their current locations and transport 
them to sites that are equipped for the safe and secure storage or 
disposal of these sources. We are evaluating the issues related to the 
security of sources in use and potential replacement of lighthouse RTGs 
with alternate power sources, thus eliminating this particular use for 
radiological sources.
    DOE's current budget for the Material Protection, Control and 
Accounting (MPC&A) Program contains sufficient funding for the start-up 
of these efforts. I would refer you to DOE for further information on 
their budget submission for FY 2004.


    Question 3. Several experts have highlighted that the Nuclear 
Nonproliferation Treaty allows nations to develop full nuclear fuel 
cycles without sanction, in effect arriving at a position where the 
construction of actual nuclear weapons is only a few months away. 
Accordingly, they have suggested the need to go beyond the NPT to 
effectively meet new challenges. As one example, fuel fabrication and 
reprocessing facilities could be internationalized and purely national 
facilities prohibited.

  <bullet> How can we revitalize international non-proliferation 
        regimes, including the Nuclear Non-Proliferation Treaty, the 
        IAEA safeguards regime, and the Nuclear Suppliers Group, to 
        better meet the new threats of the 21st century?

    Answer. One of the inherent challenges of nuclear energy, 
recognized as early as President Eisenhower's Atoms for Peace 
initiative in 1953, is its potential use for peaceful and military 
purposes. Negotiations leading to the 1968 NPT would have failed if 
some countries had insisted that it contain limitations on fuel cycle 
facilities because of their utility to nuclear weapons. Many 
prospective NPT parties had plans in the 1960s to build such facilities 
for civil uses.
    The need to supplement the NPT with policies that limit access to 
certain nuclear fuel cycle technologies has been a feature of the 
nuclear nonproliferation regime since the 1970s.
    For example, the Nuclear Suppliers Group (NSG) agreed to exercise 
strong controls on the transfer of enrichment and reprocessing 
technologies. The idea of ``internationalizing'' certain fuel cycle 
facilities was also encouraged by the NSG. Due to the large scale of 
such facilities, some facilities in Europe have been owned by 
multinational companies in which several governments have had an 
interest. But for obvious reasons a determined proliferator is not 
going to adopt this approach. It would not be feasible or desirable to 
seek a global ban on purely national facilities.
    The NPT could be bolstered by its parties adopting strong national 
policies that support NPT compliance. Such policies should encourage 
prompt and effective action by the IAEA and the U.N. Security Council 
in response to cases of noncompliance. NPT parties must also recognize 
that a threat to the NPT is global in nature and that a multilateral 
response is necessary. NPT parties should also ensure they provide 
assistance only to peaceful nuclear programs of NPT parties in good 
standing and that their nuclear export controls are strong enough to 
prevent their firms from assisting nuclear explosive programs or 
unsafeguarded nuclear fuel cycle activity in other states.
    The IAEA safeguards regime has been strengthened steadily over the 
past decade to expand the IAEA's capabilities to detect undeclared 
activities. This has involved an affirmation of existing IAEA rights, 
the application of new technologies (e.g. environmental sampling), the 
use of more information (e.g. imports/exports), and the negotiation of 
Additional Protocols to existing safeguards agreements (which give the 
IAEA greater access to nuclear-related facilities). Members of the IAEA 
must also ensure the Agency has sufficient resources in its regular 
budget to apply effective safeguards. Finally, the members of the IAEA 
must make clear to the IAEA staff that it expects safeguards to be fair 
and objective, but also that the IAEA must be aggressive and be willing 
to take vigorous action in pursuit of investigating situations where 
questions have arisen.
    The Nuclear Suppliers Group is undertaking a number of initiatives. 
Among them are clarifications to the Guidelines that would require non-
nuclear-weapon state recipients to accept stronger safeguards and 
physical protection measures as a condition of supply. Watch lists are 
being developed to supplement the NSG control list and to target 
certain countries such as North Korea to further inhibit their ability 
to acquire foreign assistance. The NSG is amending its Guidelines with 
anti-nuclear terrorism measures and considering expanding its 
information sharing activities as a means to prevent diversions to 
terrorist states. The NSG is working to create stronger ties to 
licensing and law enforcement officials of member states.


    Question 4. In your prepared statement for the hearing, you assert: 
``Where controls fail, and international bodies are unable or unwilling 
to act, interdiction is an option; properly planned and executed, 
interception of critical technologies en route to dangerous end users 
can make a difference.''

  <bullet> In that regard, what are the lessons of the So San episode, 
        in which the United States and Spain interdicted a North Korea 
        vessel ferrying SCUD missiles, only to permit the ship to sail 
        on when the government of Yemen claimed possession?

  <bullet> Can we make international non-proliferation regimes more 
        effective, so that a similar scenario not occur again? Is the 
        U.S. government considering any proposals for a new 
        international interdiction regime?

  <bullet> Do we need to make the Missile Technology Control Regime 
        more effective in controlling the proliferation of cruise 
        missiles and other unmanned aerial vehicles?

    Answer. The DPRK continues actively to proliferate ballistic 
missiles and related materials, equipment, and technology that pose a 
continuing threat to regional security and stability and to U.S. 
friends, forces, and interests. The So San episode illustrates that 
proliferators are vulnerable to having their shipments interdicted at 
sea by the U.S. and our allies under appropriate circumstances. It is 
imporatant that we continue to work harder to exploit this 
vulnerability and to work closely with other like-minded countries to 
interdict North Korean missile-related shipments, where appropriate, in 
addition to continuing to take other steps to impede North Korea's 
missile efforts.
    The Administration attaches high importance to strengthening the 
multilateral regimes and to pursuing vigorous diplomacy to dissuade 
other governments from seeking WMD-related and missile technologies and 
any military cooperation with rogue. For instance, the Missile 
Technology Control Regime (MTCR), since its inception in 1987, has 
included controls on certain unmanned aerial vehicles (UAV) (including 
cruise missiles) and key related technologies. UAV controls were 
broadened in 1994. At the September 2002 Warsaw MTCR Plenary, the 
Regime agreed to a number of changes to strengthen the MTCR Annex 
(control list), particularly with regard to UAV-relevant technologies. 
The MTCR continues to look for ways to strengthen controls over UAVs 
and related equipment and technology.
    The U.S. government is considering additional measures to stop 
shipments of concern, both unilaterally and in consultation with 
others. However, it is too early in our deliberations to speculate what 
role international nonproliferation regimes might play.


    Question 5. Please provide an update on the progress achieved by 
the G-8 Global Partnership against Weapons of Mass Destruction, 
including specific pledges made by participating nations and 
multilateral institutions and any projects initiated to date.

          (5a). Have we been pleased with the pace and scope of 
        commitments made by our international partners thus far? Are 
        our allies pledging to assist projects with real 
        nonproliferation impact, or are they looking for projects that 
        will help their own industry?

          (5b). How did the G-8 Global Partnership affect the FY04 
        budget proposal? Did the U.S. increase its funding for certain 
        programs on account of the Global Partnership? Or did it allow 
        us to reduce our national commitments in certain sectors 
        because our allies are now stepping in?

          (5c). The Global Partnership also called upon Russia to clear 
        away existing obstacles related to access and transparency. How 
        are the Russians doing on that score, and what are we doing to 
        get them to do better?

    Answers. There are still problems getting the Russians to agree to 
the implementing guidelines for the Global Partnership, particularly 
for taxation exemptions and liability protection. Until these issues 
are resolved, progress will be limited. Since the G-8 Leaders' 
agreement at the Kananaskis Summit last June. Under Secretary of State 
for Arms Control and International Security, John Bolton, has continued 
to lead U.S. efforts to ensure the success of the initiative. For the 
upcoming Evian Summit in June, G-8 efforts are focusing on securing 
financial commitments; agreement on implementation guidelines; 
initiation of new projects; and expansion of the Partnership to include 
additional donors.
    From indications to date, we estimate that G-7 and European Union 
pledges total approximately $16 billion. The following pledges have 
been made public: Canada, $1 billion Canadian; Japan, $200 million, 
initially; UK, $750 million; Germany, 1.5 billion euros, and France 
750M euros. In addition, the Russian Government plans to spend $2 
billion. The U.S. is actively encouraging further financial commitments 
from G-7 donors to reach the $20 billion goal. In addition, the G-8 is 
reaching out to other potential donors to contribute to the Global 
Partnership. To this end, the G-8 Senior Officials have invited 
representatives of 17 countries to attend an information meeting in 
Paris on April 8, directly after the Senior Officials meeting the 
previous day.
    The G-7 have been actively engaging Russia on the initiation of 
projects under the Global Partnership. Some projects have been 
initiated, while others are under discussion. In some cases, 
negotiation of implementing arrangements will be required. These 
projects include chemical weapons destruction, nuclear general-purpose 
submarine dismantlement, protection of nuclear materials and 
radiological sources, and other projects.

    Answer (5a). We are still waiting for several countries to make 
their pledges public and would like to see more progress toward 
achieving the $10 billion from the other G-7. At the same time, our 
allies are focusing on chemical weapons destruction, dismantlement of 
general-purpose nuclear submarines, plutonium disposition, and nuclear 
safety. Benefits to industries in the contributing countries do not 
appear to be major criteria.

    Answer (5b). For fiscal year 2004, about $1 billion was requested 
for nonproliferation and threat reduction assistance for Russia and 
other Eurasian States, about the same amount as the 2003 
appropriations. The FY04 budget proposal is consistent with President 
Bush's pledge of $1 billion per year for 10 years toward Global 
Partnership initiatives. The object of the Global Partnership was to 
get others to match the already substantial commitment the U.S. has 
made and continues to make.

    Answer (5c). Provisions for taxation exemption and adequate 
liability protections in implementation remain key outstanding 
concerns. Progress has been made recently with respect to taxation. The 
Russian Federation has agreed, in the context of the Multilateral 
Nuclear Environmental Program in the Russian Federation (MNEPR), to 
full taxation exemptions required to conclude MNEPR negotiations and 
begin the implementation of assistance projects. We hope this decision 
will be applied to resolve similar taxation issues in other 
implementation negotiations, such as plutonium disposition. We will 
continue to press Russia to address liability protections. While Russia 
has generally agreed to access in principle, specific access 
arrangements to sensitive sites for donors to ensure funds are being 
spent f or the purpose intended continue to be difficult for a number 
of G-7 members.


    Question 6. In a statement submitted to the Committee, Ambassador 
Karl F. Inderfurth suggested that a National Office for Preventing 
Nuclear Terrorism be established in the White House. He envisions an 
office with a strong Director, appointed by the President with the 
advice and consent of the Senate and empowered to transfer funds and 
detail personnel between agencies. A similar proposal was made recently 
in a study entitled ``Controlling Nuclear Warheads and Materials,'' by 
the Project on Managing the Atom in the Belfer Center for Science and 
International Affairs at Harvard University's John F. Kennedy School of 
Government, and also in the 2001 ``Baker-Cutler Report'' of the Russia 
Task Force of the Secretary of Energy Advisory Board.

  <bullet> What would be the advantages and disadvantages of 
        establishing such strong, central leadership in the White 
        House?

  <bullet> What steps have been taken to improve interagency 
        coordination since enactment of the Nonproliferation Assistance 
        Coordination Act of 2002?

    Answer. The White House currently provides strong, central 
leadership in this area. U.S. nonproliferation policy and assistance 
programs are coordinated at senior levels with respect to both policy 
and implementation through the interagency Policy Coordination 
Committee (PCC) process, headed by the National Security Council. The 
PCC's, along with subordinate subcommittees and working groups, 
formulate effective policy solutions, and ensure their efficient 
implementation.
    The Nonproliferation Assistance Coordination Act of 2002 focused on 
nonproliferation efforts in the states of the former Soviet Union 
(FSU). It called upon the President to establish a mechanism to 
coordinate U.S. Government efforts in formulating policy and carrying 
out programs for achieving nonproliferation and threat reduction. Such 
a mechanism is in place. The National Security Council staff chairs the 
Proliferation Strategy Policy Coordinating Committee, consisting of 
Assistant Secretary-level representatives from State, Defense, Energy, 
and other concerned agencies, including the Coordinator for U.S. 
Assistance to Europe and Eurasia. This group is charged with 
interagency policy coordination and oversight of nonproliferation and 
threat reduction assistance programs to Russia and the other countries 
of the former Soviet Union.
    This Policy Coordinating Committee works to ensure that individual 
assistance programs are coordinated within and across agencies, and 
that they serve Administration nonproliferation and threat reduction 
priorities as effectively as possible. The Committee has also been 
charged to develop a strategic plan to guide near and longer term 
nonproliferation and threat reduction cooperation with Russia.


    Question 7. In her testimony at the Committee's hearing of March 
19, Dr. Rose Gottemoeller cited the need for ``an effective 
interagency'' and called attention to the success of high-level ``tiger 
teams'' in the day-to-day coordination of two past HEU retrieval 
operations. Dr. Gottemoeller suggested that such teams be used more 
widely:

          ``Flexible approaches of this type should be in constant use, 
        making use of talented experts under high-level guidance. The 
        proliferation problems that we face are urgent, and need more 
        full-time, priority attention than the interagency leadership, 
        saddled with many simultaneous demands and responsibilities, 
        can give them.''

    Dr. Gottemoeller also asserted that ``More flexibility in 
management arrangements will also be important as public-private 
partnerships take hold in the nonproliferation policy arena'' and 
suggested that a ``public-private tiger team'' might be useful in cases 
where private involvement was sought.
    What are your views regarding these suggestions?
    What steps are you taking to increase the effectiveness of day-to-
day interagency coordination, as opposed to the coordination achieved 
on a monthly basis?

    Answer. I agree that the use of flexible and focused teams is vital 
to eliminate proliferation risks worldwide. The successful removal of 
poorly guarded fresh HEU fuel from the Vinca Institute near Belgrade to 
a more secure site in Russia in August 2002 vividly demonstrated our 
capability to respond to sensitive, high-risk situations. A small team 
of negotiators and experts, drawn from both the State Department and 
DOE, used traditional tools of diplomacy to accomplish this secret, 
secure and timely fuel transfer.
    In the Vinca case, the private Nuclear Threat Initiative played a 
key role in providing funding for parts of the operation. We had the 
flexibility to work with the NTI in that situation and are prepared to 
work with such private organizations in the future, if the situation 
makes it appropriate.
    I believe that day-to-day coordination in this Administration is 
excellent. Through the senior-level interagency Policy Coordination 
Committees (PCCs) and their subordinate subcommittees and working 
groups, we sustain vibrant policy discussions that expose a maximum 
number of options, formulate effective policy solutions, and ensure 
their efficient implementation. This PCC process takes place on a 
continuous basis, with appropriate level meetings and discussions on a 
daily, weekly, and monthly basis, as required by operational and policy 
matters.


    Question 8. Dr. Gottemoeller also addressed the potential for 
extending non-proliferation assistance to countries beyond the former 
Soviet Union, making several suggestions:

          ``We are more likely to have to start with civilian nuclear 
        facilities, rather than with `more critical' military 
        facilities, because that is what the political traffic will 
        bear in target countries. We should not shy away from this 
        reality.

          ``We should take proactive steps to accelerate . . . 
        confidence-building among key political elites, . . . (possibly 
        including) establishing cooperative projects that are 
        beneficial to the political system as a whole, e.g. situation 
        and crisis centers that are useful in national emergency 
        response . . .

          ``(W)e should be willing to work with a country to improve 
        physical protection even of unsafeguarded nuclear facilities, 
        if they are subject to urgent security threats.

          ``(W)e will have to consider carefully how to develop the 
        cooperation in a way that does not undermine the NPT regime. 
        Nevertheless, I am confident that the legal and policy space 
        exists for joint projects to go forward on the physical 
        protection of nuclear assets in any country and at any facility 
        where the cooperation can be established.''

    What are your views on these suggestions and observations?

    Answer. Dr. Gottemoeller makes good points about extending non-
proliferation assistance beyond the former Soviet Union. We are already 
engaged in such a process: through the Department of State's 
Nonproliferation and Disarmament Fund, Export Control and Border 
Security Assistance, and voluntary contributions to the IAEA. She is 
correct that host government officials will be more ready to accept 
such assistance with respect to civilian nuclear facilities, since 
these facilities bear on the safety and well-being of the host 
government's citizens. By contrast, nonproliferation assistance to 
``more critical'' military facilities will be difficult. These 
facilities are inevitably a sensitive national security issue that 
touches on deeply embedded concepts of sovereignty.
    We endorse confidence-building among political elites through 
cooperative projects. One example of such projects has been the removal 
of highly enriched uranium from Vinca in Serbia for safe storage in 
Russia, in which Russian, Serbian, U.S. and NGO officials worked 
together to make this quantity of fissile material more secure. Another 
example of cooperative projects has been conferences that my Bureau 
sponsored in Warsaw, Tashkent, and Bangkok this past year for 
officials, from many nations, responsible for export controls and 
border security.
    As for setting up situation and crisis centers, these would likely 
demand a level of sustained funding and qualified staffing that might 
not be feasible for many countries. Thus, I would expect that tense 
situations and crises will continue to be addressed mostly through 
traditional contacts and diplomacy, which include the foreign policy 
and military facilities that already exist in national governments.
    With respect to the possibility of enhancing physical protection of 
nuclear facilities, we are of course very concerned about the theft or 
diversion of nuclear material. Clearly, dealing with countries that 
have unsafeguarded nuclear facilities raises issues related to the 
Nuclear Nonproliferation Treaty. Even in these cases, however, there 
are activities that could be undertaken to enhance physical security 
without undermining nonproliferation norms. In all cases, we carefully 
review the country's need for enhanced physical protection of nuclear 
material. Our response to a country's request for assistance takes into 
account a wide range of factors, including our NPT obligation not to 
assist in any way a non-nuclear-weapon state in the manufacture or 
acquisition of nuclear weapons.


    Question 9. What steps have been taken to elaborate the National 
Strategy and produce the sort of detailed plan that these experts 
recommend?

    Answer. U.S. agencies are actively implementing the President's 
National Strategy to Combat Weapons of Mass Destruction under NSC 
leadership. They oversee implementation of existing nonproliferation 
assistance programs and develop longer-term strategies for the overall 
effort. For example, the President recently submitted to the Congress a 
long-term plan for all U.S. nuclear-related nonproliferation assistance 
to Russia and other former Soviet states.
    Particular care is given to ensuring that take a coordinated 
approach. To this end, the formed task oriented coordinating 
committees. coordinates DOD and DOE warhead security proj example. 
Others are charged with developing implement a strategy for USG border 
security to implement a new bio-security strategy for Eurasia. With 
NSC's concurrence, NP Bureau staff chair inter-agency committees which 
coordinate border security enhancement programs and our efforts to 
engage former Soviet chemical and bio-weapon scientists. These efforts 
build on the Administration's earlier review of nonproliferation and 
threat reduction programs in Russia and the New Independent States.


    Question 10. In her testimony, Dr. Smithson recommended additional 
investments in security to lower the risks of insider theft and to 
harden Russian chemical weapons (CW) storage areas against outside 
attack. What is the Administration doing in this regard, and how is 
that reflected in the FY 2004 budget?

    Answer. The Department of Defense is already implementing 
Cooperative Threat Reduction (CTR) projects to provide comprehensive 
security upgrades at CW storage facilities at Shchuch'ye and Kizner. 
These facilities contain modern, nerve agent-filled munitions which are 
in excellent, ready-to-use condition; small and easily transportable; 
and easily mated to Soviet-era delivery systems found throughout the 
world--both short-range missiles and artillery. This project will be 
completed during CY 2003 at a cost of approximately $20 million in 
prior year CTR funds. We are also arranging for members of the guard 
force at these facilities to undergo training at the Ministry of 
Defense Security and Assessment Training Center (established with CTR 
assistance) in Sergiev Posad to enhance their effectiveness in 
safeguarding weapons of mass destruction.
    The three additional nerve agent storage sites (i.e., Pochep, 
Maradykovsky, and Leonidovka) contain heavy, bulky, and difficult to 
move aerial bombs and spray tanks that make them unattractive targets 
for would-be proliferators. We believe this factor combined with 
existing physical security measures makes it unnecessary to consider 
security enhancements at these sites. However, we are prepared to brief 
the Russian Munitions Agency (RMA) on the personnel reliability program 
that DOD has helped the Ministry of Defense establish for individuals 
who have access to nuclear weapons.
    The remaining CW storage facilities at Kambarka and Gorny house 
blister agents in bulk containers and are thus are not perceived as 
likely targets for proliferators that warrant undertaking projects to 
enhance their security.
    The FY 2004 CTR budget request does not include any funds for 
enhancing the security of CW storage facilities since current projects 
are already funded with prior year funds, and no future such security 
projects are envisioned.


    Question 11. Dr. Smithson suggested increasing U.S. funds for 
projects that will strengthen security at chemical weapons (CW) storage 
sites, enhance safety and security at biological institutes, and enable 
dismantlement of specialized infrastructure at both chemical and 
biological institutes. She also recommended increased staff to manage 
the implementation of these programs. What is the Administration doing 
in this regard, and how is that reflected in the FY 2004 budget?

    Answer. As indicated in the answer above, DOD already is conducting 
CTR projects to enhance the security of Russian CW storage facilities 
containing the CW nerve agent munitions that are the most likely to be 
proliferated.
    In support of the Global War on Terrorism, DOD has significantly 
expanded its CTR efforts in the former Soviet Union (FSU) to enhance 
safety and security of dangerous pathogen collections at biological 
institutes and to dismantle biological warfare infrastructure.
    In Russia, DOD is completing CTR safety and security enhancement 
projects at two biological research institutes, initiating projects at 
two additional sites and preparing to do so at a third site. DOD also 
is implementing CTR biosafety and biosecurity projects at two bio 
institutes in Kazakhstan and three in Uzbekistan. Additionally, DOD 
plans to undertake similar projects at biological? Institutes in 
Georgia and Ukraine once Biological Threat Reduction implementing 
agreements with those states are signed, in the case of Ukraine, and 
come into force. DOD has requested $13 million for biosafety and 
biosecurity assistance activities in its CTR budget request for FY 
2004.
    DOD also is continuing its EW infrastructure dismantlement efforts. 
DOD is dismantling infrastructure at the Vector facility in Novosibirsk 
and looking forward to additional efforts in Russia. In Kazakhstan, CTR 
is completing a project to eliminate the anthrax production facility at 
Stepnogorsk. In Uzbekistan, CTR has completed a project to destroy 
residual pathogens at the former Soviet BW testing facility on 
Vozrozhdeniya Island. DOD is working with Uzbekistan to determine 
whether to proceed with additional infrastructure dismantlement work at 
Vozrozdeniya. DOD has requested $9.0 million for BW dismantlement 
activities in its CTR budget request for FY 2004.
    Regarding CW production facilities, CTR continues to assist Russia 
with dismantling and demilitarizing the former nerve agent production 
facilities at Volgograd and Novocheboksarsk. Also, DOD completed a 
project to dismantle the former Soviet CW research facility at Nukus, 
Uzbekistan in FY 2002 and is prepared to undertake a CTR project to 
demilitarize the former Soviet CW production facility at Pavlodar, 
Kazakhstan once the Government of Kazakhstan declares the facility 
pursuant to the Chemical Weapons Convention. DOD has requested $10 
million in the FY 2004 CTR budget request for continued CW production 
facility dismantlement work in Russia and is prepared to obligate $3.5 
million in prior-year CTR funds to demilitarize the former CW 
production facility at Pavlodar.


    Question 12. Dr. Smithson made some recommendations regarding the 
administration of ISTC and related programs:

          ``Since the launch of new research grants can take over two 
        years, the ISTC should enact reforms to lessen the time needed 
        to kickoff new projects, including shorter deadlines for 
        proposal review by the host and funding governments, the 
        formation of expert advisory committees to pre-screen grant 
        proposals prior to ISTC processing, and the modification of 
        policy regarding work plan approval. Finally, Washington still 
        needs to improve the overall architecture for brain drain 
        programming, at the least identifying benchmarks that will 
        enable progress to be measured.''

  <bullet> What is your view of Dr. Smithson's critique regarding the 
        lack of benchmarks?

  <bullet> What is your view of the administrative suggestions 
        regarding the ISTC program?

    Answer. Countries that are parties to the International Science and 
Technology Center (ISTC) Agreement have recognized for some time that 
new benchmarks are needed as the Center undergoes the transition from 
the initial phase of engaging the maximum numbers of former WND 
scientists and institutes in non-WMD research to the next phase of 
permanent, sustainable redirection of these scientists and institutes 
through civilian technology commercialization. For this reason, the 
parties funded a study by the IC2 Institute of the University of Texas 
at Austin with international participation during 2002 to help develop 
metrics towards this goal. The parties currently are discussing 
refinement of these results and plan to collect additional statistics, 
with a view toward developing benchmarks for measuring progress in 
``graduating'' scientists and institutes from sole reliance on research 
grants through the ISTC to helping them develop the capacity to compete 
independently in the international scientific research arena, to 
protect and market technology developed from their research, and to 
acquire skills in business management and commercialization. Within the 
past three months, the parties, with strong leadership from the United 
States, have also implemented a major reorganization of ISTC staff 
responsibilities and functions to aid in this transition.
    Regarding Ms. Smithson's administrative suggestions, the ISTC has 
made some changes to streamline procedures for reviewing and initiating 
research projects over the past year. These changes include: shortening 
the project concurrence period for member states to 45 days; providing 
the ISTC Secretariat with greater authority to pre-screen research 
proposals before submitting them to funding members; instituting a 
simplified ranking system for use by the ISTC's Scientific Advisory 
Committee to aid funding countries' evaluations of project proposals; 
and requiring that project authors identify required collaborators 
prior to funding. These procedural changes have substantially reduced 
processing, review and project start-up times. At the same time, 
however, we acknowledge that further improvement is possible and plan 
to examine further ways of speeding up review and funding of projects, 
in coordination with other funding countries.


    Question 13. What are your views on the likelihood that voluntary 
action of individual states would avoid the ``uneven patchwork'' 
problem that Dr. Smithson foresees?

    What are your views on the feasibility of developing ``common 
minimum standards that include penalties for infractions of biosafety, 
biosecurity, and genetic research oversight regulations?'' What is the 
Administration doing to foster such standards, either universally or 
among like-minded states?

    Answer. We do not share Dr. Smithson's analysis as it relates to 
the BWC work program. The biological weapons threat is most effectively 
addressed using approaches that are outside the realm of traditional 
arms control. That said, the BWC forum can play a useful role in the 
global effort to combat biological weapons. We believe the BWC forum 
should be used to encourage and take note of activities in other fora 
that help strengthen efforts to combat the biological weapons threat. 
The BWC forum can also promote the enactment of national measures to 
combat the biological weapons threat such as domestic implementing 
measures and biosecurity standards, the two topics for the 2003 Experts 
Group and Annual meetings.
    We believe the decisions of the Fifth Review Conference set forth a 
well-focused and realistic agenda through 2006. Through established 
channels, we are encouraging states to review their national efforts 
and come to the 2003 meetings prepared to discuss domestic 
implementation in each area and improvements they are undertaking along 
with a notional timeline for implementation. We intend to provide 
papers outlining our national implementation measures and measures to 
enhance biosecurity. NP's Dangerous Materials Initiative aims to 
compliment this effort. Using the NDF, we will work with a variety of 
countries to improve regulatory practices and controls for pathogens.
    Furthermore, the United States is following closely the World 
Health Organization's development of biosecurity standards through its 
Global Health Security Initiative. The United States is engaged with 
the WHO to find out how the WHO's plans in the area of security and of 
dangerous pathogens and toxins might fit in with the biosecurity agenda 
topic for the 2003 Experts Group and Annual meetings. We continue to 
review the work done by dependable Inter-Governmental Organizations 
and, where we believe it useful, would seek to have countries use it as 
guidelines.

                                 ______
                                 

Responses of Richard J.K. Stratford, Director, Nuclear Energy Affairs, 
    Bureau of Nonproliferation, Department of State, to Additional 
   Questions for the Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. Mr. Stratford provided the Committee with a very 
informative set of questions and answers regarding the Joint 
Convention. This document states that the Joint Convention ``contains 
provisions to ensure that national security is not compromised and that 
States have absolute discretion as to what information is reported on 
material from military sources.'' The document goes on to state that 
the Joint Convention ``will not . . . affect ongoing U.S. military 
operations in any way, nor will classified information be covered in 
the U.S. National Report.''

  <bullet> Were these questions and answers interagency-approved?

  <bullet> Are the Department of Defense and the Department of Energy 
        confident that the Joint Convention poses no threat to 
        sensitive U.S. information or activities?

    Answers.

  <bullet> Yes. The Department of Energy, the Nuclear Regulatory 
        Commission and the Environmental Protection Agency participated 
        in the drafting of the questions and answers, and interagency 
        approval of the final version was obtained through the U.S. 
        Office of Management and Budget.

  <bullet> Yes. The Joint Convention poses no threat to sensitive U.S. 
        information or activities. The United States will provide 
        information in the national report that is already publicly 
        available. The Joint Convention does not apply to military or 
        defense programs, with the exception of spent fuel and 
        radioactive waste permanently transferred to civilian programs.


    Question 2. Recently, the Government of Iran indicated that it 
intends to develop an indigenous capability to manufacture nuclear 
reactor fuel and to reprocess spent fuel. While Iran has not signed the 
Joint Convention, there is nothing to prevent it from doing so. What is 
the risk that a country could use technical advice and assistance, 
including nuclear safety advice, to develop capabilities that were 
actually intended to contribute to a nuclear weapons program--even 
though the country might operate under IAEA safeguards until the 
decision was made to commence the production of fissile material for 
weapons purposes?

  <bullet> How will the administration minimize the risk that advice 
        given under the Joint Convention will be used by other 
        countries to develop a ``full fuel cycle'' that is really 
        intended as part of a nuclear weapons program?

  <bullet> Are there steps that the international community should take 
        to guard against such misuse of peaceful nuclear assistance? If 
        so, are there recommendations in this regard that the Senate 
        could usefully make in a resolution of ratification of the 
        Joint Convention?

    Answer. The Joint Convention does not involve advice or cooperation 
in sensitive areas of the nuclear fuel cycle. The type of information 
that will be considered by the Contracting Parties to the Joint 
Convention is not associated with nuclear weapons development. Indeed, 
the information being presented in the U.S. National Report is publicly 
accessible from U.S. government and other public sites. No internal or 
security-related information is being included in the U.S. National 
Report being prepared by the U.S. Department of Energy, with the 
assistance and cooperation of the Nuclear Regulatory Commission, the 
Environmental Protection Agency, and the Department of State. In 
addition, any comments the United States might have on other country's 
submissions would be limited to nonsensitive information. We believe 
that one of the benefits of the Joint Convention is that it operates on 
the basis of transparency as it makes information on other country's 
waste activities widely known. We see no need for the Senate to take 
further action in this regard in the resolution of ratification.


    Question 3. Under the Joint Convention, country reports will be 
reviewed by sub-groups--and the United States will receive only the 
reports of countries in its sub-group, unless it asks for others as 
well. Will the United States ask for all reports?

  <bullet> Is there any reason why the Senate should not require this?

    Answer. The United States will request copies of all national 
reports prepared for the review meeting under the Joint Convention.
    The United States has the right to request this information under 
the Joint Convention, and it intends to ask for this information. We do 
not believe that this should be a requirement in the resolution of 
ratification.


    Question 4. In its resolution of ratification for the Convention on 
Nuclear Safety, the Senate required that the United States formally 
comment on every report from a country that is a recipient of U.S. 
nuclear safety assistance. Under that convention--and also under the 
Joint Convention--such a formal comment is needed if the United States 
wants to attend the sub-group discussion of that report and the country 
is not a member of the same sub-group as the United States. Has the 
United States benefited from commenting on such reports in the 
Convention on Nuclear Safety?

  <bullet> Is there any reason why the Senate should not require this 
        approach to the Joint Convention as well?

    Answer. Yes. We used the CNS process to identify key goals and 
objectives for the safety and regulatory programs in States of the 
former Soviet Union, such as Russia and Ukraine. The goals and 
objectives will provide targets for assistance programs to these 
countries. We also used the process to determine that additional 
progress can be made in nuclear regulatory oversight programs of Russia 
and the Ukraine, and identified in the nuclear regulatory programs of 
China, Armenia, and Pakistan, as warranting further attention.

  <bullet> We intend to ensure that the United States takes advantage 
        of the availability of information and the opportunity to 
        provide comments as appropriate. We do not believe that this 
        should be a requirement in the resolution of ratification.


    Question 5. The Department of State indicates, in its questions and 
answers document, that the Department of Energy will absorb the 
$200,000 cost of preparing the U.S. report every few years and that the 
Department of State will absorb the cost of sending a 6-person 
delegation to meetings under the Convention. If we require the 
Executive branch to read and comment on all country reports, or at 
least on all reports from countries that receive U.S. nuclear safety 
assistance, will the cost of preparing for and attending meetings go up 
substantially?

  <bullet> Will additional funds be needed for this, or will you still 
        be able to handle those costs under current budget allocations?

    Answer. There will be additional preparation cost associated with 
reviewing all national reports. We estimate the cost at $6,000 per 
additional report. We do not anticipate any additional costs for 
attending the meetings, since we are planning to have coverage for all 
the review sub-groups.

  <bullet> We will strive to keep costs at a minimum and within the 
        current budget allocation.


    Question 6. Article 41 of the Joint Convention (on Amendments to 
the Convention) allows a meeting of the Contracting Parties to adopt an 
amendment by consensus, or to refer it to a Diplomatic Conference by a 
two-thirds vote of those present and voting.

    When the Senate considered an identical provision in the Convention 
on Nuclear Safety, it required that the United States cast a vote on 
each proposed amendment, and submit each approved amendment to the 
Senate for its advice and consent to ratification. This was done to 
avoid a situation in which the Executive branch could refrain from 
voting on an amendment that it knew the Senate would oppose, or refrain 
from submitting it to the Senate, and still have it enter into effect 
for most of the Contracting Parties. Do you see any serious problem 
with our enacting similar language in the resolution on the Joint 
Convention?

  <bullet> Under what circumstances might the United States not want to 
        vote on a proposed amendment?

  <bullet> Do you interpret the resolution of ratification for the 
        Convention on Nuclear Safety as preventing the United States 
        from allowing an amendment to be approved by consensus? If so, 
        is that the Administration's concern?

  <bullet> Under what circumstances might the President not want to 
        submit an approved amendment to the Senate for its advice and 
        consent to ratification?

  <bullet> How would the Executive Branch handle a situation in which 
        most of the Contracting Parties supported an amendment, but the 
        United States did not? In that situation, why not submit it to 
        the Senate with a recommendation to reject it?

    Answers. It is important to remember that the United States will 
not be bound by any amendment unless the United States affirmatively 
accepts the amendment with the advice and consent of the Senate. 
Moreover, the single vote of the United States is unlikely to be the 
sole determinant of whether an amendment is adopted at a Diplomatic 
Conference by a two-thirds vote, nor would it prevent an amendment that 
has been adopted and ratified by two-thirds of the Contracting Parties 
to the Convention from entering into force for those Contracting 
Parties. The U.S. representative's affirmative or negative vote on an 
amendment and any subsequent Senate action on that amendment cannot 
prevent an amendment to the Convention on Nuclear Safety from entering 
into force for those Contracting Parties that have ratified the 
amendment, if two-thirds of the Contracting Parties have done so. The 
condition of the Senate's resolution of advice and consent to the 
Convention on Nuclear Safety therefore does not achieve the purpose 
stated here. Likewise, the inclusion of a similar condition in the 
resolution on the Joint Convention would not achieve the stated goal. 
By requiring that the United States cast an affirmative or negative 
vote on a proposed amendment, the Senate's condition also forecloses 
the United States from abstaining or absenting itself from a vote; both 
actions are sometimes useful diplomatic tools.

  <bullet> Hypothetically, an abstention would be useful in a situation 
        in which the United States does not have a compelling interest 
        in the proposed amendment one way or the other, but its vote 
        would needlessly antagonize the faction against which the 
        United States would be forced to vote--and when the United 
        States might want the support of that faction for or against a 
        more important provision.

  <bullet> We would consider associating the United States with a 
        consensus action as equivalent to an affirmative vote. At a 
        Diplomatic Conference, however, it is sometimes desirable to be 
        able to abstain or deliberately be absent from a vote.

  <bullet> The President might not want to submit an approved amendment 
        to the Senate for advice and consent if the United States had 
        opposed its adoption or if the final version of the amendment 
        were considered inimical to United States interests.

  <bullet> The Joint convention sets a very high standard--a two-thirds 
        majority vote--for the adoption of amendments. In the unlikely 
        case that an adopted amendment that the United States opposes 
        enters into force for other Contracting Parties, the United 
        States would not be bound by that amendment without its 
        consent. We are unaware of a precedent for submitting a treaty 
        that the President opposes to the Senate for rejection. The 
        President has plenary authority not to ratify an amendment he 
        opposes.


    Question 7. The Committee understands that the Nuclear Energy 
Institute strongly recommends the expeditious ratification of the Joint 
Convention. Have any other industry groups endorsed ratification? Have 
any firms or groups warned that they will suffer in some way if this 
Convention is ratified and implemented?

    Answer. Apart from the Nuclear Energy Institute's (NEI) support for 
ratification (on behalf of the nuclear energy industry), we are not 
aware of any other firms or groups taking a position on this issue. 
None have warned that they will suffer in some way if the Convention is 
ratified and implemented.

                                 ______
                                 

   Responses of Hon. John S. Wolf, Assistant Secretary of State for 
 Nonproliferation, to Additional Questions for the Record Submitted by 
                      Senator Russell D. Feingold

    Question 1. During the debate surrounding Iraq, much was made of a 
report that Iraq had approached Niger about obtaining uranium. It now 
appears that this report was not valid, but it did raise an interesting 
set of questions. What does the U.S. Government currently do to help 
states with uranium reserves maintain appropriate control over that 
resource, and to ensure that such states have some incentive to act 
responsibly? What kind of engagement do we have with uranium-producers 
in Africa regarding proliferation issues?

    Answer. The U.S. Government seeks through multiple ways to ensure 
that the uranium supply chain is protected against efforts to procure 
uranium as a source of material for weapons use. For example, the 
United States frequently consults with other governments to encourage 
them to investigate any information we receive that countries of 
proliferation concern are attempting to procure materials or technology 
relevant to a nuclear weapon program, whether it is African-origin 
uranium or other technologies.
    Multilaterally, the United States works very closely to ensure that 
IAEA safeguards are applied effectively around the world. A key element 
of that is that states have in place an effective state system of 
accounting and control for nuclear material. One way we help is by 
holding a training course for IAEA member states on such state systems. 
The course is held every other year at Los Alamos National Laboratory. 
A representative from Niger attended the last course in 2001.
    The United States uses every opportunity to urge NPT parties to 
fulfill their NPT obligation to conclude comprehensive safeguards 
agreements with the IAEA. Such agreements, inter alia, require reports 
on the export to nonnuclear-weapon states of any material containing 
uranium intended for any nuclear purpose. Niger's agreement was 
approved last year, although it has not yet been brought into force. 
Additionally, the United States, along with the IAEA and other like-
minded countries, strongly encourages member states to conclude 
Additional Protocols with the IAEA. Among other things, Additional 
Protocols require declarations on uranium mining operations. Besides 
directly urging countries to negotiate Additional Protocols, we have 
also supported international conferences on that topic, including one 
in Africa last year.
    Bilaterally the United States met with senior officials of Niger 
last month to reinforce the importance of Niger signing and 
implementing its IAEA safeguards agreement and the Additional Protocol, 
as well as taking any additional steps needed to ensure the security of 
the uranium supply chain.
    Officials of Niger reassured us that they recognize the importance 
of this issue and are taking active steps to ensure the security of the 
uranium supply chain. The United States also met with senior government 
officials from Benin to urge similar steps, and received high level 
assurances that Benin, too, will work to ensure the security of the 
uranium supply chain. We will continue to work actively with both Niger 
and Benin, and other friendly, western countries, to ensure the 
security of the uranium supply chain in Africa.


    Question 2. What steps are you taking to ensure that international 
community development activities in Russia and the Former Soviet Union 
complement the Cooperative Threat Reduction Program and focus on the 
so-called ``strategic cities?'' As you may know, there are a number of 
sister city programs, including two in Wisconsin, that have developed 
community-to-community relationships with strategic cities in Russia. 
These groups have valuable experience in and good working relationships 
with these communities. Please tell me how the Administration can 
support the work that these groups are doing and can help them to build 
on their comprehensive, community-based approach.

    Answer. State Department coordination with international community 
development activities helps to ensure those activities complement the 
Cooperative Threat Reduction program focus on ``strategic cities'' in 
Russia and the former Soviet Union. This year, the State Department 
plans to provide $164,000 in combined FREEDOM Support Act (FSA) and 
Support for East European Democracy (SEED) funding to Sister Cities 
International (SCI) to develop community-to-community linkages across 
Eurasia. The Office of the Coordinator of U.S. Assistance to Europe and 
Eurasia will encourage SCI to pay special attention to community-to-
community relationships with strategic cities in Russia as SCI develops 
its plans for assistance funding. State Department representatives have 
been and will continue to be in touch with groups like the Wisconsin 
Sister Cities Project.
    The State Department also supports government/nongovernmental 
coordination of cooperative projects with strategic cities through 
other channels. For example, Embassy Moscow's Regional Initiative 
Program supports a U.S. coordinator in the closed nuclear city of 
Tomsk. The U.S. coordinator works closely with Tomsk Governor Kress and 
other reform-minded local officials to improve living conditions and 
the economic/democratic climate of the area. USAID supports financial 
institutions that have disbursed approximately $3M to hundreds of 
small- and medium-sized enterprises in the Tomsk area. Another example 
of this coordination is the success of the Department of Energy's 
Nuclear Cities Initiative (NCI) in publicizing the Library of Congress' 
Open World Program, State Department International Visitors' Program, 
the Regional Initiatives Program, USAID's health programs, and the 
Commerce Department's Special American Business Internship Training 
(SABIT) program within the nuclear closed cities where they operate. 
Although NCI is no longer connected with these programs, the 
International Development Centers in the closed cities continue to 
support these outreach programs and exchanges through a series of 
outside grants they have received.


</pre></body></html>
